<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2014</title>
<body><pre>[Senate Hearing 113-]
[From the U.S. Government Publishing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2014

                              ----------                              


                        WEDNESDAY, JUNE 12, 2013

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:01 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Richard J. Durbin (chairman) 
presiding.
    Present: Senators Durbin, Reed, and Cochran.

                 Voluntary Military Education Programs

STATEMENT OF HON. FREDERICK VOLLRATH, ASSISTANT 
            SECRETARY OF DEFENSE FOR READINESS AND 
            FORCE MANAGEMENT, OFFICE OF THE UNDER 
            SECRETARY FOR PERSONNEL AND READINESS, 
            OFFICE OF THE SECRETARY OF DEFENSE, 
            DEPARTMENT OF DEFENSE


             opening statement of senator richard j. durbin


    Senator Durbin. Good morning.
    The subcommittee meets this morning to receive testimony on 
Voluntary Military Education Programs as part of its 
consideration of the fiscal year 2014 request for the 
Department of Defense (DOD) appropriation.
    We will consider the issue with two panels. The first is 
Assistant Secretary of Defense for Readiness and Force 
Management, Mr. Frederick Vollrath. Thank you for being with 
us.
    The second panel will be Mr. Terry Hartle, Senior Vice 
President of the American Council on Education (ACE); Mr. Steve 
Gunderson, President of the Association of Private Sector 
Colleges and Universities (APSCU); James Selbe, Senior Vice 
President for Partnership Marketing and Enrollment Management 
at the University of Maryland University College (UMUC); and 
Mr. Christopher Neiweem, a former DeVry recruiter and Iraqi 
Freedom Veteran. Thanks to all the witnesses for being here.
    Now, we are aware of the important role that is played by 
the Voluntary Military Education programs for the men and women 
in uniform and their spouses. We also know these are extremely 
popular programs.
    In fiscal year 2012, more than half a million individuals 
participated in these programs. In March, when the services 
proposed limiting the benefits because of the sequester, 
Congress heard immediately and clearly that education benefits 
are very important to our service men and women and their 
spouses.
    The cost of the program to the Department and taxpayers is 
increasing because of its popularity. In fiscal year 2002, the 
Department spent $243 million on voluntary education. By 2012, 
10 years later, the number had doubled to $568 million.
    Our servicemembers sign-up to serve the Nation, they put 
their lives at-risk, and they protect our Nation and its 
interests. They endure the chaos of multiple deployments and 
the stress of the challenge that they and their families face. 
When they can find a few precious hours amid those demands to 
further their education, servicemembers deserve the opportunity 
for that experience. But they deserve an educational experience 
that is worth their time and the taxpayers' money.
    This subcommittee is concerned that for all its popularity, 
the Department has not been--and may not be--sufficiently 
focused on assuring that program dollars are going to high-
quality, high-value education programs.
    A study last year by the Senate Health, Education, Labor, 
and Pensions (HELP) Committee, led by Senator Tom Harkin, found 
that for-profit colleges dominate the military's voluntary 
education programs to an extent not seen anywhere else. His 
investigation found that 50 percent of tuition assistance, and 
a remarkable 60 percent of the spousal My Career Advancement 
Account (MyCAA) program, went to for-profit colleges. Just six 
for-profit schools received an astounding 41 percent of all 
tuition assistance money from the Department of Defense.
    So what difference does it make? Well, this subcommittee is 
focused on assuring the American people know their taxpayers' 
dollars are being well-spent. And from what we know in general 
about for-profit colleges, I cannot, in good conscience, make 
that assertion generally about these programs.
    Look at the numbers. Remember three numbers about for-
profit schools: 12, 25, and 47. That will be on the final, and 
here is what they mean. Twelve percent of all college students 
attend for-profit schools. For-profit schools receive 25 
percent of all Federal aid to education, and for-profit schools 
account for 47 percent of student loan defaults. For-profit 
colleges have a 3-year student loan cohort default rate of 22.7 
percent compare that to public colleges: 11 percent. Private 
nonprofit colleges: 7.5 percent.
    We also know that for-profits, on average, spend 22.7 
percent of their revenue on marketing, advertising, recruiting, 
and admission staffing, and 19.4 percent for profit. Well, how 
much goes to instruction if 22 percent goes to marketing and 19 
percent goes to profit? Seventeen percent goes to instruction, 
even though that is supposed to be their mission. We will get 
into some of these dynamics with the witnesses.
    The President has shown leadership on this issue. In April 
2012, he signed an Executive order on Principles of Excellence 
for Educational Institutions Serving Service Members and 
Veterans. It outlined a number of steps the Department and 
other agencies must take to protect servicemembers from 
exploitive practices and providing them the information they 
need to make good decisions. A little over a year from signing 
that order, I look forward to hearing from the Department on 
the progress that is being made.
    Let me emphasize: Online learning can be a tremendous 
advantage for military families. In fact, it may be the only 
way that many servicemembers can go to school.
    The subcommittee will have the opportunity to hear from a 
veteran performer in this particular theater, and that is the 
University of Maryland, an institution serving some 58,000 
military and veteran students, which was also ranked by the 
``Military Times'' as ``a best for vets college.'' They aren't 
alone.
    Earlier this year, I was surprised at visiting Northern 
Illinois University to learn that they are also offering 
programs for veterans and servicemembers. The Military Student 
Services program has received numerous awards at Northern 
Illinois, including one of the top 50 best for vets 4-year 
colleges in the country according to ``Military Times'' in 
2013. ``G.I. Jobs'' ranks Northern Illinois University programs 
among the top 15 percent nationwide.
    I look forward to hearing from our witnesses about these 
programs, how they are working, what we can do to improve them. 
Since the beginning of this year, I have been raising with 
senior military leaders the basic question on how to deliver 
high quality education to men and women in uniform, and their 
spouses. To a person--to a person--every single leader in the 
military that I have spoken to has expressed concern about this 
program. Let me give you an example.
    General Odierno said, and I quote, ``Many of these for-
profit organizations are taking advantage of maximizing the 
dollars they can get from tuition assistance. So they are 
driving the costs up and it is almost making it unaffordable 
for us.'' General Odierno said, ``So we have to go after this 
problem.''
    Everyone else has pledged to work with this subcommittee to 
ensure the Department delivers quality education. I hope this 
hearing will help further our understanding of the steps now 
being taken and what more we need to do. I have some questions 
today, as I am sure my colleague, Senator Cochran, does.
    Senator Durbin. And at this point, I would like to turn it 
over to my colleague for his statement.


                   statement of senator thad cochran


    Senator Cochran. Mr. Chairman, I am pleased to join you in 
welcoming our witnesses to this hearing on Voluntary Military 
Education programs in the Department of Defense.
    The Department's support of off-duty education 
opportunities has improved the quality of life and the 
capability of our defense forces and members of our defense 
team. Important changes, we understand, have been made in 
oversight of Voluntary Military Education programs to help 
ensure that both traditional and for-profit institutions have 
opportunities for service to servicemembers. Also, concomitant 
with that is the flexibility that they need and at a cost the 
servicemembers can afford.
    I look forward to joining my colleague in reviewing these 
reforms and learning more about what educators are doing to 
help meet the needs of our servicemembers.
    Thank you.
    Senator Durbin. Thank you very much, Senator Cochran.
    Mr. Vollrath, from the Department of Defense, you are our 
first witness. Your written statement will be made part of the 
record. If you would summarize for it and open to questions, I 
would appreciate it very much.


              summary statement of hon. frederick vollrath


    Mr. Vollrath. Thank you. Good morning, Chairman Durbin, 
Vice Chairman Cochran, and distinguished members of the 
subcommittee, should they arrive.
    I appreciate the opportunity to appear before you today to 
discuss the efforts of the Department to provide lifelong 
learning opportunities through our off-duty, voluntary 
education programs.
    Each year, a third of our servicemembers enroll in 
postsecondary education courses leading to associates, and 
bachelors, and advanced degrees. This past year alone, that is 
fiscal year 2012, there were more than 286,000 servicemembers 
enrolled in nearly 875,000 courses. And over 50,000 
servicemembers earned degrees or certifications; a success.
    All servicemembers enrolled in the voluntary education 
programs are nontraditional students. They attend school part 
time while they are off duty taking, on average, only three 
courses per year. Military missions, deployments, and transfers 
frequently impinge on the soldier's, or airman's ability to 
continue their education, which often results in breaks of 
months, or in some cases, years between taking courses and 
completing their degree.
    To facilitate education in today's high paced environment, 
colleges and universities are delivering more classroom 
instruction online, as well as on military installations around 
the world. There are no geographical confines. In fact, courses 
are offered aboard ships, submarines, and at deployed locations 
such as Afghanistan. This is the kind of instruction our 
servicemembers want. Over 76 percent of the courses taken last 
year were delivered through distance learning.
    To ensure that our education dollars are well-spent, 
whether at public or private schools, and that our 
servicemembers have a positive educational experience, DOD has 
developed a multifaceted, quality assurance program. 
Underpinning this effort is the requirement that all 
postsecondary education participating in the tuition assistance 
program, or TA, must be accredited by an accrediting body 
recognized by the U.S. Department of Education.
    Additionally, it is DOD policy that all participating 
institutions sign a memorandum of understanding, an MOU, that 
requires them to adhere to the principles of excellence as 
enumerated by the President. This will help end fraudulent 
recruitment on our military installations and address other 
predatory practices by bad academic actors and provide students 
with personalized, standardized forms outlining costs, 
financial aid, and outcome measures.
    The MOU also requires military students to be provided a 
streamlined tool to compare educational institutions using key 
measures of affordability and value through the Department of 
Veterans Affairs (VA) eBenefits portal. I am pleased to report 
that over 3,100 institutions with more than 1,050 sub-campuses 
have signed this MOU.
    DOD is also part of an interagency team which is finalizing 
the development and implementation of a centralized complaint 
system to resolve concerns raised by students receiving Federal 
education benefits; in our case, tuition assistance. This team, 
which includes the Department of Veterans Affairs, the 
Department of Education in collaboration with the Department of 
Justice, and the Consumer Financial Protection Bureau will have 
access to all complaints and their resolution through the 
Consumer Sentinel Network.
    In addition to holding schools accountable, we also have 
strict requirements for our participating servicemembers. Prior 
to enrolling in courses using tuition assistance, 
servicemembers must establish an educational goal and a degree 
plan. When a servicemember subsequently requests tuition 
assistance for a course, outlined in their approved degree 
plan, an educational counselor reviews that request and must 
approve it.
    Servicemembers who either fail, or do not complete the 
course, must reimburse the Department for the tuition 
assistance received for that course. Servicemembers failing to 
maintain a 2.0 undergraduate grade point average (GPA), or a 
3.0 graduate grade point average, must pay for all courses 
until they raise their GPA sufficiently.
    Our voluntary education program is a key component of the 
recruitment, readiness, and retention of the total force, an 
All-Volunteer Force.


                           prepared statement


    Retired Air Force Senior Sgt. Eric Combs is an excellent 
example of the value of the voluntary education program for 
servicemembers. He entered the military with a General 
Educational Development (GED) and earned his community college 
degree at the Air Force, and then his bachelor's degree with 
tuition assistance while on Active Duty. Upon his retirement, 
he participated in the Troops to Teachers program, was 
subsequently selected as the Ohio Teacher of the Year, and now 
serves as a principal in the public school system. The skills 
he learned, and the education he received while serving in the 
Air Force ultimately benefitted both him, the Air Force, and 
the Nation.
    Mr. Chairman, this concludes my statement. And I thank you, 
and the other members of the subcommittee for the opportunity 
to appear before you today.
    I look forward to your questions.
    [The statement follows:]
             Prepared Statement of Hon. Frederick Vollrath
    Chairman Durbin, Ranking Member Cochran and distinguished members 
of the subcommittee, thank you for the opportunity to appear before you 
today to discuss the management of the Department of Defense's (DOD) 
Voluntary Education Tuition Assistance (TA) Program and the steps we 
take to protect this taxpayer-funded benefit which greatly facilitates 
our servicemembers receiving a quality education.
    The Department's Voluntary Education Program provides lifelong 
learning opportunities for servicemembers, contributing to enhanced 
readiness of our forces. Education helps our servicemembers be better 
Soldiers, Sailors, Airmen, and Marines; through education and 
experience we get better leaders, who will sustain our Force Readiness 
and continue to make valuable contributions in support of our Nation. 
Our programs are designed to meet the unique needs of the military off-
duty student and, therefore, attract a large percentage of the eligible 
military population where approximately one-third of our servicemembers 
enroll in post-secondary courses leading to undergraduate and graduate 
degrees or other credentials each year. Colleges and universities, 
through an extensive network, deliver classroom instruction at hundreds 
of military installations around the world and on-line, to an ever 
increasing percentage of our servicemember students. Additionally, 
servicemembers can also earn college credits for learning that takes 
place outside the traditional classroom through College Level 
Examination Program (CLEP) testing and assessment of their military 
training.
    Military students have unique needs: They attend school during off-
duty hours, in a part-time capacity, and average three courses per 
year. As expected of military service, the military mission, 
deployments, and transfers often take precedence over their education 
so they may have breaks of months or even years between courses. 
Completion of their degrees or other credentials normally takes much 
longer than for the traditional student; in some cases up to 10 years 
or more. DOD provides servicemembers with assistance in meeting these 
challenges through its Voluntary Education programs and services, 
ensuring that opportunities for learning continue to exist for 
servicemembers throughout their military careers and preparing them for 
lifelong learning after they leave the military.
                the military tuition assistance program
    A key portion of the Department's Voluntary Education Program is 
Tuition Assistance (TA), which supports servicemembers by helping to 
defray the rising cost of tuition. Military TA often is the determining 
factor in whether or not a servicemember can afford to take a class. 
DOD is cognizant of this fact and has set a system in place for the 
management and oversight of the TA program. As part of this system, DOD 
has established uniform TA funding for voluntary off-duty college 
courses and degree or other credentialing programs. Under the current 
uniform TA policy, which commenced in fiscal year 2003, all 
servicemember participants may receive up to $250 per semester hour 
with a $4,500 maximum per fiscal year. Due to high participation in the 
TA program and rising costs per credit hour, the Services have 
experienced difficulty funding fiscal year 2013 requests for TA, which 
cost $568.2 million DOD-wide in fiscal year 2012. This funding 
difficulty was further exacerbated by the continuing resolution and 
sequestration, and resulted in three of the four Services temporarily 
suspending new TA enrollments. However, with the passing of the 
Department of Defense, Military Construction and Veterans Affairs, and 
Full-Year Continuing Appropriations Act, 2013, the Services are able to 
fully fund TA through fiscal year 2013.
    Concern has been expressed that a significant portion of TA 
expenditures go the approximately 25 percent of approved schools that 
are for-profit; currently for-profit schools were among the first to 
emphasize on-line education, a model that best fits the needs of our 
highly mobile servicemembers. In fact, 76 percent of courses taken 
through the TA program in fiscal year 2012 were conducted on-line. DOD 
has developed a multifaceted management system requiring oversight from 
multiple stakeholders, to include the Office of the Secretary of 
Defense, the Services, installation commanders, education officers, and 
the installation education center staff, to ensure both a positive 
experience for our servicemembers and that our education dollars are 
well spent whether at public, private nonprofit, or private for-profit 
schools.
      oversight of military tuition assistance--dod facilitating 
                         servicemember success
    Participation in DOD-supported Voluntary Education requires 
servicemembers to visit an education center, either in person or on-
line through their Service education portal. There are approximately 
200 DOD education sites worldwide, to include contingency areas in 
Afghanistan. At these centers, professional education counselors 
present servicemembers with an extensive menu of options, provide 
details about specific programs, recommend tailored courses of study 
that meet servicemembers' goals, and provide information on education 
financing to include information on the TA program, grants, loans and 
other available funding options. Prior to using military TA, 
servicemembers must establish an education goal and education plan. 
Servicemembers, via their Service's education portal, request TA for a 
course(s) outlined in their approved education plan, and an education 
counselor reviews the servicemembers' education record and education 
plan prior to granting approval.
    In addition to the counseling support they receive, our 
servicemembers are also incentivized by having a financial stake in 
their success. In this regard, even with the financial support DOD 
provides, nearly all servicemembers, and especially those taking 
graduate level courses, incur out-of-pocket expenses. Also, 
servicemembers failing to complete or receiving an ``F'' in a course 
must reimburse DOD for the TA received for the course, and 
servicemembers' failing to maintain a 2.0 undergraduate or 3.0 graduate 
grade point average (GPA), must pay for all courses until they raise 
their GPA sufficiently.
 oversight of military tuition assistance--ensuring quality education 
                                programs
    Ensuring the quality of education provided to our servicemembers is 
essential to the Department, and underpinning this effort is DOD's 
requirement that all post-secondary institutions participating in the 
TA program, whether they are physically located on our installations or 
elsewhere, must be accredited by an accrediting body recognized by the 
U.S. Department of Education. Additionally, on March 1, 2013, DOD 
implemented a policy requiring an institution to have a signed DOD 
memorandum of understanding (MOU) in order to be eligible to 
participate in the DOD TA program. Currently, over 3,100 institutions 
with more than 4,150 sub-campuses, have signed the DOD MOU. The current 
MOU and its revision, which is in coordination as part of Change 2 to 
Department of Defense Instruction (DODI) 1322.25, will require all 
participating institutions to adhere to the Principles of Excellence as 
enumerated in Presidential Executive Order 13607:
  --Provides students with an Education Plan;
  --Informs students of the availability and eligibility of Federal 
        financial aid before arranging private student loans;
  --Ensures new course or program offerings are approved by the 
        institution's accrediting agency before student enrollment;
  --Allows servicemembers to be readmitted to a program if they are 
        temporarily unable to attend class or have to suspend their 
        studies due to military requirements;
  --Provides a refund policy for military students consistent with the 
        refund policy for students using Department of Education 
        Federal student aid (title IV); and
  --Designates a point of contact for academic and financial advising.
  dod oversight of military tuition assistance--preventing predatory 
                               practices
    DOD is strengthening its control on installation access to our 
servicemembers. All Military Services have recently provided updated 
guidance to their bases and recent changes to DOD policy provides 
guidance that limits institutions' access to military installations, 
only to provide education, guidance, and training opportunities, and to 
participate in education fairs. However, marketing firms or companies 
that own and operate higher-learning institutions will not have access. 
Institutions requesting access to military bases in order to provide 
education guidance to their students must meet the following 
requirements and gain access only through the base education officer 
via a written proposal:
  --Have a signed MOU with DOD;
  --Be chartered or licensed by the State government in which the 
        services will be rendered;
  --Be State-approved for the use of veteran's education benefits;
  --Participate in Title IV programs (eligible and participating under 
        Department of Education rules, students are eligible for 
        Federal support);
  --Be accredited by an accrediting body recognized by the U.S. 
        Department of Education; and
  --Have an on-base student population of at least 20 military 
        students.
    As directed in Presidential Executive Order 13607, DOD is also part 
of an inter-agency team that includes the Departments of Veterans 
Affairs and Education and, in collaboration with the Department of 
Justice and Consumer Financial Protection Bureau, are finalizing the 
development and implementation of a centralized complaint system to 
register, track, and to respond to concerns raised by students 
receiving Federal military and veterans educational benefits. This 
complaint system and related processes are intended to provide each 
agency with a standardized approach to capturing a complaint. All 
complaints and their resolution will be contained within a centralized 
repository, the Consumer Sentinel Network, thereby making the 
information accessible both to the components at the Departments of 
Veterans Affairs, Defense, and Education, all of whom review schools 
for compliance and program eligibility, as well as the law enforcement 
agencies that would prosecute any illegal practices. The inter-agency 
team is also engaged in establishing servicemember and Veteran Outcome 
Measures directed by Presidential Executive Order 13607 that will 
assist in assuring continued quality at both the program and 
institution level. Measures will attempt to determine performance 
through metrics such as retention rate, persistence rates, and time-to-
degree (or credential) completion.
   dod oversight of military tuition assistance--improving management
    In addition to setting the above standards, DOD continues to 
evaluate the education programs that utilize TA dollars to help ensure 
our servicemembers are receiving the highest caliber education 
programs. The DOD Third Party Education Assessment program assesses the 
quality of off-duty postsecondary educational programs and services 
used by servicemembers and to assist in their improvement. These 
assessments help ensure the education programs provided to 
servicemembers funded by TA are of the same high quality and meet the 
same academic criteria as those experienced by traditional students. In 
the past, DOD only reviewed schools operating on bases. Per the DOD 
MOU, all schools now agree to participate in the review. The Office of 
the Under Secretary of Defense reviews all findings and recommendations 
and tracks the progress of corrective actions taken by the Services.
    DOD's contract with the American Association of State Colleges and 
Universities (AASCU) establishes the Servicemembers' Opportunity 
College (SOC) which includes 1,900 post-secondary institutions SOC 
members. SOC advocates for and communicates the needs of the military 
community to the higher education community. SOC also ensures 
institutions are responsive to the special needs of servicemembers, 
assists the higher education community to understand the requirements 
of the military, and serves as the DOD liaison with institutions to 
resolve concerns and share program information to strengthen school 
relationships with DOD.
                               conclusion
    Servicemembers greatly rely on these programs. In fiscal year 2012, 
286,665 servicemembers enrolled in 874,094 postsecondary courses, and 
50,497 of them earned degrees or other credentials. Our programs assist 
servicemembers in gaining the knowledge they need for their chosen 
education and military career paths; ensuring they acquire the skills 
necessary to operate in a dynamic national security environment; and in 
returning to civilian life, that they are prepared to be successful in 
their chosen careers, leading contributors to their communities, and 
productive citizens in the 21st century. DOD is committed to 
effectively delivering voluntary education programs that meet the 
changing needs of the military.
    Mr. Chairman, this concludes my statement. On behalf of the men and 
women in the military today and their families, I thank you and the 
members of this subcommittee for your steadfast support.

                               EDUCATION

    Senator Durbin. Thank you very much, Secretary Vollrath.
    It would strike me that the purpose of these educational 
opportunities is to offer to servicemembers and their families 
two or three things.
    First, it is my understanding that this looks pretty good 
when it comes time for a promotion, that someone has taken some 
courses. I take it from that, that you believe that one of the 
effective elements of leadership is education. And if a 
servicemember shows the initiative to improve their education, 
that will be viewed in a positive context.
    Second, I would assume that some servicemembers view this 
as after their service opportunity that when they finally leave 
the military, they will have another pursuit in their lives, a 
career that they have been prepared for by this.
    And third, it is just could be for the sake of education, 
just to learn something that you did not know, whether it is 
yourself, your spouse, or whomever.
    So let's go to the first point. As I have gone into this 
subject for a long time, it appears it all starts in the same 
place: the accreditation by the Department of Education. It is 
sort of the basic standard by which, I understand from your 
testimony, you decide whether a school should offer courses for 
those serving in the military.
    Is that correct?
    Mr. Vollrath. Correct.
    Senator Durbin. And you say there are more than 3,000 
institutions that offer courses to any number of members of the 
military.
    Mr. Vollrath. That have signed the MOU.
    Senator Durbin. Signed the MOU. How long have you been 
involved in this program or supervising this program?
    Mr. Vollrath. That's a good question, Chairman. The answer 
is probably about 36 years in various different forms. I served 
in the Army in uniform for 35.
    Senator Durbin. Okay.
    Mr. Vollrath. And then in this position for about 14 
months.
    Senator Durbin. So during that, let's just say in the last 
several years, how many of these 3,000 institutions have been 
disqualified from the program?
    Mr. Vollrath. Mr. Chairman, I don't know, but I will 
certainly try to get you an answer for the record. I don't know 
how many have been disqualified.
    Senator Durbin. If it were a sizeable number, you would 
probably know, wouldn't you?
    Mr. Vollrath. Yes, I would think so.
    Senator Durbin. So is it fair to say it is not a sizeable 
number?
    Mr. Vollrath. I don't know. I will try to get that number 
for you. I just don't know.
    [The information follows:]

    For the approximately 3-year period prior to implementation of the 
Department of Defense (DOD) Military Tuition Assistance (TA) Program 
Memorandum of Understanding (MOU) in March 2013, there were 104 
incidents of school removal from participating in Military TA. Reasons 
for removal included school closure, loss of accreditation, bundling of 
tuition and fees (violation of DOD Uniform TA Policy), and/or school's 
refusal to accept Military TA.

    Senator Durbin. Is it within the power of your office, or 
the military, to disqualify an institution?
    Mr. Vollrath. The disqualification would be based on them, 
number one, not signing the MOU; two, violating the provisions 
of the MOU; and three, losing their accreditation. Any 
combination would stop the train.
    Senator Durbin. And if the Department received complaints 
from military servicemembers about the quality of education 
that was being offered at a school, would that be taken into 
consideration?
    Mr. Vollrath. Yes.
    Senator Durbin. Has it been?
    Mr. Vollrath. Yes.

                               COMPLAINTS

    Senator Durbin. Do you recall whether there were any 
schools which have been chronic in terms of complaints?
    Mr. Vollrath. Not to my knowledge, no. I know that we have 
received complaints. I know that we have run the complaints to 
ground. I do know that as we develop this complaint system in a 
more automated and centralized form, we will start sharing that 
information between the VA, the Department of Education, and 
us. And if we find the bad apples----
    And I think that is a good course of action, by the way, 
because you could have just one from one incident on our part 
from DOD servicemember attending. You might have a variety from 
veterans also, and the Department of Education might also get 
complaints. And so, putting them all together, I think, will 
give us a better side picture of what is really going on.
    Senator Durbin. Have you put them all together?
    Mr. Vollrath. We will be able to do that with certainty 
about 1 September.
    Senator Durbin. That's not being done now.
    Mr. Vollrath. It is being done, but in a hand method.
    We are testing the automated system with the Air Force. We 
started 3 June for 30 days. If it works, we will roll it out 
across DOD by 1 September. It feeds into the other systems, to 
the Sentinel Network and then we will start using that.
    The benefit, some of the benefits to that is that we will 
share problems, we will also loop back to the institution, and 
we will make sure that we can follow up with the student. That 
is critical.

                           FOR-PROFIT SCHOOLS

    Senator Durbin. So let me ask you this. In recent years, 
this has been going on for some years, but in recent years, 
for-profit schools have become a major part of this program. 
Have they not?
    Mr. Vollrath. Yes.
    Senator Durbin. And have you noticed any changes in 
recruiting and marketing when the for-profit schools became 
part of it?
    Mr. Vollrath. In terms of their recruiting?
    Senator Durbin. Yes.
    Mr. Vollrath. Certainly. Over the years, they have stepped 
up ads on television, et cetera. That begs another issue is: 
what do we do about institutions recruiting on base?
    Senator Durbin. I am going to get to that.
    Mr. Vollrath. All right.
    Senator Durbin. But I just want to start with----
    Mr. Vollrath. Okay.
    Senator Durbin [continuing]. This basic question about the 
for-profits and their marketing. The numbers I read suggest 
that out of the substantial Federal revenues going to for-
profit schools, 22 percent, on average, is used for marketing 
purposes.
    Have you seen that when it comes to marketing to our troops 
to convince them to go to, for example, the American Military 
University as opposed to the University of Maryland?
    Mr. Vollrath. I am not sure I could single them out. I know 
that the ads for postsecondary education have been more 
prolific than in the past.
    Senator Durbin. Primarily for for-profit schools?
    Mr. Vollrath. From my personal experience, I have not 
noticed the for-profits versus somebody else, frankly.
    Senator Durbin. Really? Well, here is what the President 
said with his Executive order, ``Aggressive and deceptive 
targeting of servicemembers, veterans, and their families by 
some educational institutions.''
    Have you seen evidence of that--``aggressive and deceptive 
targeting of servicemembers''?
    Mr. Vollrath. I would certainly say ``aggressive.'' I 
cannot talk to the ``deceptive''.
    Senator Durbin. So these are commercial ventures, these 
for-profit schools and what access do they have to the 
military?
    Mr. Vollrath. They can have a variety of access; on-post is 
one.
    Senator Durbin. How?
    Mr. Vollrath. The other----
    Senator Durbin. How would they get on-post?
    Mr. Vollrath. Well, they can get on-post if they are 
offering courses, but given the MOU and the changes thereto, 
that is not going to happen or cannot happen in the future.
    The only way they can be, anybody, any institution, will be 
on-post is if they are offering a course or specifically 
offering counseling. And they have to have written permission 
from the Education Office just to do that.
    Senator Durbin. So why have you drawn that line or why do 
you think that line has been drawn?
    Mr. Vollrath. To make sure that we don't have these 
problems that are reported.
    Senator Durbin. Okay. Senator Cochran.
    Senator Cochran. I was just thinking back over my 
experience serving on a heavy cruiser in the U.S. Navy for 
almost 2 years. Our sailors and officers on the ship were busy 
all of the time. If they weren't busy, we found a place that 
needed to be re-chipped. Chipping paint was an avocation; at 
least for some members of our crew. But the whole point was 
there was a lot of downtime on that ship with not anything to 
do.
    Now, a lot of reading; I think I read more in the 2 years I 
was, almost 2 years aboard ship, than I had in any other 
recreational reading, but intellectually----
    Mr. Vollrath. Right.
    Senator Cochran [continuing]. Satisfying reading as well.
    Isn't this an area that might be threatened and may have an 
effect on moral and discipline, particularly in the seagoing 
Navy?
    Mr. Vollrath. Absolutely. I mean, if we in any way 
significantly would reduce the access to this type of learning? 
Yes, that would have an effect because it affects them 
personally, it affects their long-term goals. But as the 
Chairman pointed out quite correctly, it can affect them 
immediately in terms of their promotion potential while on 
Active service.
    Senator Cochran. Right.
    Mr. Vollrath. So yes, it is key to attracting and retaining 
the quality servicemembers that we need.
    Senator Cochran. Yes. I would think so, too, and I think it 
would contribute to the intellectual growth and development of 
our sailors, our officers, and men onboard ships and onshore as 
well.
    Well, thank you for being here and helping set the stage 
for our review.
    Mr. Vollrath. Thank you, sir.
    Senator Cochran. Thank you.
    Senator Durbin. Thanks, Senator Cochran.
    Senator Reed.

                        FINANCIAL AID COUNSELING

    Senator Reed. Well, thank you very much, Mr. Chairman and 
Mr. Secretary, thank you for being here.
    I want to ask a few questions. What kind of financial aid 
counseling do the military personnel get? You mentioned they do 
get some counseling before they are enrolled in any of these 
programs. Does that include financial aid? And specifically, I 
understand the MOU requires the institution to inform them of 
their access to Federal student loans before they take private 
loans.
    So, are you providing confidential financial advice to 
these students before they sign-up?
    Mr. Vollrath. Senator, the answer is yes and yes. Yes, we 
are. When they go through the educational office and talk to 
one of the DOD education counselors and layout their plan, 
their goals, they are counseled about the finances, of course, 
starting with what we do in tuition assistance. And then the 
other forms, because out there is also the G.I. Bill, although 
taking it while on Active Duty is probably not the financially 
best decision----
    Senator Reed. Right.
    Mr. Vollrath [continuing]. That you could make. But we 
advise them of that also. We also, then, advise them about 
other student loans. So yes, we do it at the very front end.
    And yes, Senator, through the MOU, we require now in a 
standard format and way that all of the institutions advise and 
counsel that student about other financial aid available 
starting with Federal, and last but not least, the commercial 
loans out there so they can make informed decisions.
    Senator Reed. It strikes me that the most reliable and 
independent advisor would be the educational advisor in the 
military, and that they could go so far as telling them, 
essentially, what is the best way. Do they go that far, or is 
it just simply, you know, ``I must inform you, you agree to 
pay--I must inform you that you are eligible for Pell grants, 
Stafford Loans, PLUS Loans, et cetera. Thank you very much''?
    Mr. Vollrath. No, it is a personal counseling.
    Senator Reed. So, you----
    Mr. Vollrath. It is a pro forma exercise.
    Senator Reed. So you are confident that they would actually 
be able to help them pick out the lowest cost to them.
    Mr. Vollrath. Certainly, and also help them modify their 
expectations. If they are hell-bent to go to one of the 
prestige schools----
    Senator Reed. Right.
    Mr. Vollrath [continuing]. We tell them what that cost is 
going to be and the pitfalls in getting to that effective, but 
we advise them.
    Senator Reed. Right. In this context, do you know the 
percentage of the students that are taking the private student 
loans? I mean, I would think with the panoply of DOD support, 
Pell, Stafford, PLUS, et cetera that the need for some of these 
private loans which, in some cases, carry a much higher rate 
would be de minimis.
    Are you tracking that?
    Mr. Vollrath. Senator, we are not tracking that 
specifically in terms of the private loans that they take out.
    Senator Reed. I would suggest that you might consider it. I 
know you have got lots of things to do, but not only the 
individual volume, but also if it is specific to individual 
institutions because then, I think, you might find that they 
are just simply, at least the institutions, are paying perhaps 
lip service to the--we are telling them about these public 
loans, but then we are telling them, ``Hey, win a free vacation 
cruise if you just signup for our loan.'' So I think that is 
something important. It goes to another issue, too, which I 
think is important.
    To what extent do you actively audit these institutions, 
private or public, with respect to the MOU's?
    Mr. Vollrath. We have--we employ a third partyto do a 
review of the institutions and with 3,100 we do not get to all 
of them.
    What we have changed, however, okay, is we have 
strengthened the audit so that it follows now the MOU and the 
principles of excellence. We also have them visit classrooms or 
instruction, or it may be online. And we have expanded, and 
this is the key point, we have expanded beyond those that are 
given on the installations to all installations. Okay? So their 
practices are now more public to us as we take a look at them.
    Senator Reed. And let me ask the follow-on questions. How 
public are these audits, i.e., if you find a consistently poor 
performing institution, is that public domain or do you simply 
put it in your files?
    Mr. Vollrath. It certainly is public domain----
    Senator Reed. Do you----
    Mr. Vollrath [continuing]. As anything else is, yes.
    Senator Reed. So do you, but I guess I am being--let me 
redirect--do you periodically publish the results of these 
audits so that you can essentially say, ``This school does just 
remarkably well,'' you know, ``A-plus''? It did green, yellow, 
red, I think you remember.
    Mr. Vollrath. Yes.
    Senator Reed. These are green, these are yellow, these are 
red.
    Mr. Vollrath. No, Senator, we have not published that.
    Senator Reed. Wouldn't that be helpful?
    Mr. Vollrath. Because we are not necessarily qualified to 
really give a learned opinion about their academic excellence 
or lack thereof, so----
    Senator Reed. I am just simply, their consistency with the 
MOU, that you should be the experts on.
    Mr. Vollrath. Yes. Correct. If they are following it or not 
following it, we record that and keep track of it.
    Senator Reed. But that is not publicly, routinely 
published.
    Mr. Vollrath. We do not publish an annual report.

                          EDUCATIONAL ADVISOR

    Senator Reed. You should, I think, consider that because I 
think that would draw attention to those institutions which are 
meeting and exceeding your expectations and those that aren't.
    Let me go back to the educational advisor, one final 
question there. Can they essentially tell the servicemember, 
``No, you are not going to enroll in a course like--
cosmetology--which is going to cost you $75,000 to $100,000 in 
tuition at this particular school, and we know already that the 
average salary is $25,000.''
    The bottom line is, do your educational counselors have the 
ability to say, ``You're making a terrible mistake, and we are 
not going to support you in this''?
    Mr. Vollrath. They certainly are going to say, ``We think 
that's ill-advised.''
    Senator Reed. But that is as far as they will go.
    Mr. Vollrath. That's as far as it goes because it is a 
personal choice. If they want to go out and get a loan, and 
take it upon themselves to do it, we don't have the authority.

                           TUITION ASSISTANCE

    Senator Reed. We are providing the money.
    Mr. Vollrath. Well, tuition assistance is another thing. I 
mean, if they want to persist, that is different and take it 
out of their own pocket. If their course of action does not 
meet the stipulations that we have both on ourselves and on the 
institutions----
    Senator Reed. Right.
    Mr. Vollrath [continuing]. Then the answer absolutely would 
be, ``Sorry, we can't support you with tuition assistance.''
    Senator Reed. A final question and my colleagues are very 
gracious.
    Is the requirement for servicemembers, in some cases, to 
refund payments to the tuitions assistance program? Do you have 
a rough percentage of how many servicemembers are refunding, 
i.e., they have not made the standards or is that so small?
    Mr. Vollrath. It is small. With your permission, I will 
take it for the record.
    Senator Reed. Absolutely.
    [The information follows:]

    The following information is included by Service in the following 
chart for fiscal year 2012:
  --Successfully completed course work
  --Did not complete successfully: failing grades, withdrawals or drops
  --Had to repay TA due to non-completions
  --Government waived recoupment because non-completion was due to 
        military related issues

------------------------------------------------------------------------
               Army                 Air Force       Navy        Marine
------------------------------------------------------------------------
92 percent completion              91 percent   91.6         90.3
                                    completion   percent      percent
                                                 completion   completion
8 percent non-completion           9 percent    8.4 percent  9.7 percent
                                    non-         non-         non-
                                    completion   completion   completion
(7.2 percent recouped and 0.8      (7 percent   (8.0         (8.8
 percent waived)                    recouped     percent      percent
                                    and 2        recouped     recouped
                                    percent      and 0.4      and 0.9
                                    waived)      percent      percent
                                                 waived)      waived)
------------------------------------------------------------------------


    Mr. Vollrath. But let me give you a statistic that is the 
reverse of that: 96 percent in fiscal year 2012, of all courses 
started, were completed by servicemembers, so some of them 
might not have completed that because they had to move for 
military necessity, et cetera. So I cannot answer it 
specifically because of the failure.

                            TUITION CHARGES

    Senator Reed. And I have a final question. Again, I thank 
my colleagues.
    Do you do any analysis of the correlation between the 
tuition charged to the servicemember and the full cost of 
instruction?
    It seems to me that now given the technology, particularly 
the distance learning, that the marginal cost of a military 
student is very close to zero, but that the tuition might be as 
close--might be set by all available public and private 
support, which means that these are very lucrative programs, 
potentially. And that there is, I think, at least for the 
public policy, an interest, to ensure that if we are providing 
public resources for the benefit of service men and women, that 
we are subsidizing them, not private enterprise necessarily.
    Mr. Vollrath. The best statistic that I can give you is 
that for undergraduate courses in fiscal year 2012, the average 
payment or cost was about $628 for a course; that is 3 semester 
hours.
    Senator Reed. Yes, sir.
    Mr. Vollrath. By our policy, which has been in existence 
for a number of years now, we pay no more than $250 per credit 
hour. So the max would be $750. And so, on average, it is $628, 
which means some are below and some are above. That is for 
undergraduate.
    For graduate, it is pegged out at $750, but that is 
understandable because graduate schools have always cost more.
    Senator Reed. And how do you pick out that number, $750? Is 
that----
    Mr. Vollrath. Just because that is the max that we can pay, 
so----
    Senator Reed. Okay, so that is the max you can pay.
    Mr. Vollrath. That's right.
    Senator Reed. So we could come in and say, ``There is a new 
max.'' Or, we could come in and say, ``There has to be a 
correlation.'' All right.
    Again, and I thank you very much and thank my colleagues, 
but we are very interested in some of the measurements and some 
of the statistics that you have that might help us determine 
what we do going forward. Thank you, Mr. Secretary.
    Mr. Vollrath. Certainly.

                                 AUDIT

    Senator Durbin. Thanks, Senator Reed.
    Mr. Vollrath, when you talked about the third-party audit.
    Mr. Vollrath. Right.
    Senator Durbin. Would that be an audit by this Management 
and Training Consultants, Incorporated?
    Mr. Vollrath. Yes, Mr. Chairman.
    Senator Durbin. That is the current third-party group that 
audits----
    Mr. Vollrath. The current.
    Senator Durbin [continuing]. Those who are providing the 
educational courses?
    Mr. Vollrath. Correct.
    Senator Durbin. And you said, ``We don't get to all of 
them.'' It is my understanding that they get to 20 to 30 
schools a year out of 3,127.
    Mr. Vollrath. When we are doing it on-post, that is 
correct. We will have to ramp it up, clearly.
    Senator Durbin. We sure do.
    Let me ask you about the 96 percent completion rate.
    Mr. Vollrath. Right.
    Senator Durbin. In the world--the nonmilitary world--when 
it comes to these schools being paid, for example, Pell grants, 
Government loans, there is a certain period of time that the 
student has to stay enrolled for them to qualify to get that 
payment. Is that true as well when it comes to the TA program?
    Mr. Vollrath. No, Senator. There is not a period of time 
they have to stay enrolled. If they have a plan approved and 
are going to go to an institution that meets all of those--the 
MOU and principles of excellence requirements, then they 
qualify for that course on their plan.
    Senator Durbin. And if they take two classes and stop, does 
the school get paid anyway?
    Mr. Vollrath. Yes. And again, you have to define ``stop''. 
In some cases, ``stop'' means they got deployed----
    Senator Durbin. No, I understand.
    Mr. Vollrath [continuing]. And couldn't do it. And in some 
cases, people just determine that it is not in their interest 
any more.
    Senator Durbin. It seems to me to be a problem there, that 
if we are just going to pay, even if they don't complete the 
course or a portion of the course----
    Mr. Vollrath. Well, if they don't complete the course, then 
they have to repay unless----
    Senator Durbin. The student.
    Mr. Vollrath. The student has to repay.
    Senator Durbin. But the Government is paying the school 
regardless. That is what you just said, I believe.
    Mr. Vollrath. Yes.
    Senator Durbin. Let me ask a few more questions, and I 
thank you for your patience here.

                                COURSES

    If you believe that this educational opportunity is 
important to improve the quality of leadership in the military 
to lead to promotions, do you believe that certain schools 
offer courses that have been proven over time to be more 
valuable than other schools?
    Mr. Vollrath. I don't know. I don't know. The only way that 
I can think to answer that is if they were taking a leadership 
course or a management course, maybe that makes them a better 
leader, but I am not sure that the sheer rigor and perseverance 
doesn't help in that respect. And some of the courses, frankly, 
are geared toward what they do in the military.
    Senator Durbin. I understand that part. But the point I am 
getting to is just kind of normal, human experience. We know 
that if a person has graduated from this university, that they 
have more rigorous educational standards, higher admission 
standards. A degree from this place is kind of viewed as being 
more valuable than a degree from this place.
    Is that the same when it comes to the TA program?
    Mr. Vollrath. We don't look at it that way, Senator.
    Senator Durbin. Why?
    Mr. Vollrath. Because it is a personal choice as to where 
they want to go and what their goals are.
    Senator Durbin. That's what I was afraid of. Let me ask you 
this question.
    When it comes to accreditation, in 2011, unlike the 
Department of Education, the Defense Department did not require 
participating institutions to get approval from an accrediting 
agency for new courses or programs or offerings before offering 
them to enrolling students. That seems to be a significant 
loophole that could undermine the quality of a servicemember's 
education. The subcommittee has been informed that the DOD 
plans to close this loophole as part of its third revision of 
the MOU sometime later this year.
    Why has this taken 2 years to address?
    Mr. Vollrath. In part, to try to cope with the bureaucracy 
to get it in there and get it done, but we will have it done.
    Senator Durbin. So what we are dealing with here is courses 
being offered and compensated by the Government without 
approval from the accrediting agency. That's currently the 
case.
    Mr. Vollrath. That's possible, yes.
    Senator Durbin. There is a longstanding frustration with 
students participating in TA program can't compare the cost, 
financial and aid opportunities, and school performance--going 
back to part of Senator Reed's question.
    The President's Executive order and the Department of 
Education's launch of the college scorecard suggests that we 
are moving in a different direction to give more information to 
students about the quality of courses and their outcomes.
    So what is the status of this initiative when it comes to 
the TA courses?
    Mr. Vollrath. Again, it should be, and is, in the MOU.
    I do go back to the fact that we have education counselors 
and they have been dispensing good advice and counsel to our 
servicemembers for a number of years now.
    Senator Durbin. Are these counselors members of the 
military or representing the institutions?
    Mr. Vollrath. They are members of the Department of 
Defense. They do not represent the institutions.
    Senator Durbin. But in terms of an objective scorecard for 
members of the military to look at the various schools to see--
for example, if I took a course from the American Military 
University, would my hours be transferable to a community 
college in my home State? It seems like a reasonable question 
to ask.
    Is that sort of information available to the members of the 
military now?
    Mr. Vollrath. Yes, through the--something called the SOC, 
Servicemembers Opportunity Colleges consortium of 1,900-and-
some institutions that have agreed to come together and assess 
the transferability of those credits.
    Senator Durbin. And how does an individual servicemember 
learn that?
    Mr. Vollrath. Through the education counselor and their 
education plan.
    Senator Durbin. How many counselors do we have working?
    Mr. Vollrath. Slightly over 200.
    Senator Durbin. And how many service men are taking 
courses?
    Mr. Vollrath. About 200,000.
    Senator Durbin. Let me talk about the MyCAA program, which 
is a spousal education program.
    Mr. Vollrath. Yes.
    Senator Durbin. Many of the schools participating in that 
program are not accredited schools. Are you aware of that?
    Mr. Vollrath. I am.
    Senator Durbin. What is the Department's position on that? 
In other words, courses are being offered to the 
servicemember's spouses at taxpayers' expense through for-
profit schools that are not accredited.
    What is your thinking about that?
    Mr. Vollrath. If they are an institution that is 
postsecondary education, then they have to be accredited and 
meet standards. If they are technical schools, if you are 
learning a trade, they are not accredited in the sense that we 
use that term for postsecondary.

          MILITARY SPOUSE CAREER ADVANCEMENT ACCOUNTS PROGRAMS

    Senator Durbin. So we pay up to $4,000, is that correct, 
for the MyCAA programs?
    Mr. Vollrath. Over 3 years, correct, a max of $4,000.
    Senator Durbin. And schools like Animal Behavior College is 
one of the schools offering courses to the spouses under the 
MyCAA program?
    Mr. Vollrath. I am not familiar with that one.
    Senator Durbin. I think it is. Tell me about Top-Up so we 
can make that a matter of record. Do you understand Top-Up?
    Mr. Vollrath. I do not.
    Senator Durbin. Okay. Let me, my understanding is that 
servicemembers can use some of their GI bill benefits while 
still on Active Duty for education. Are you aware of that?
    Mr. Vollrath. Yes.
    Senator Durbin. Okay. And because those GI bill benefits 
are limited for the servicemember and their families, they may 
be using up what they could otherwise use after they have been 
separated from the service.
    Mr. Vollrath. Correct.
    Senator Durbin. My concern is that servicemembers enrolled 
in for-profit colleges may not only be using tuition assistance 
for some courses that may not be valuable, but they may also be 
using up their personal one-time future VA educational benefits 
at the same time. Do you share that concern?
    Mr. Vollrath. Yes, that would not be a wise decision.
    Senator Durbin. And how would we counsel a member of the 
military about that unwise decision?
    Mr. Vollrath. As I mentioned earlier, in their desire to 
use tuition assistance, we wouldn't so advise them in that 
counseling session. But equally important, the education 
counselor is not there on that installation just to handle 
tuition assistance. They are to reach out and provide advice to 
servicemembers on education, period.
    Senator Durbin. There are 200 counselors, 200,000 students.
    Mr. Vollrath. Correct.
    Senator Durbin. Is there a centralized complaint system 
that has been established for members of the military who are 
unhappy with the experience they are having in the TA program?
    Mr. Vollrath. There has been a manual system, but as 
mentioned, that will be an automated system and far more 
efficient come September.
    Senator Durbin. We talked about the recruiting on some of 
the military bases.
    Senator Hagan of North Carolina sent a letter to the 
Department in 2011 involving a Marine Corps corporal with 
severe traumatic brain injury (TBI), who was recuperating at 
Camp Lejeune in Wounded Warrior barracks. While he was still in 
his barracks in recovery, a recruiter from Ashford College, 
which is based out of Iowa, if I am not mistaken, a for-profit 
school signed up this Marine for college courses. When the 
Marine was interviewed later, he could not even remember 
signing up for the course.
    Can you tell me what kind of access recruiters have to 
our--let's start with wounded veterans who are recuperating in 
military hospitals?
    Mr. Vollrath. As it stands today, they have no access.
    Senator Durbin. So it has been changed since this 
situation?
    Mr. Vollrath. Absolutely. Absolutely. If they are----
    The only way that any institution now can get on an 
installation--read that hospitals, it does not make much 
difference--is either to teach a course or to provide 
counseling to their students that are servicemembers at that 
installation. And by invite to an education symposium or 
something, but----
    And by the way, if somebody tries that, we will escort them 
off the installation.
    Senator Durbin. Do you have any jurisdiction over National 
Guard units?
    Mr. Vollrath. Not in my particular position, no, but I will 
certainly take the question.
    Senator Durbin. Well, here is what happened in my State. 
The for-profit schools were actually going onto the camps in 
Illinois, meeting with National Guard units, and trying to 
recruit them to signup for their schools because, of course, 
service in the National Guard qualifies----
    Mr. Vollrath. Right.
    Senator Durbin [continuing]. Some of the military for 
educational benefits. And when it was brought to my attention, 
it seemed to me that this was a commercial venture and much the 
same as if Ford Motor Company decided to send a salesman in and 
say, ``You need to buy a Fusion. Every National Guard member 
ought to have one.'' There comes a point where you say, ``I 
think that may be a misuse of a military facility.''
    So are you familiar with National Guard units and whether 
there is that sort of activity going on?
    Mr. Vollrath. I am familiar with National Guard units. No, 
I am not familiar with activity such as you describe.
    Senator Durbin. Does it seem appropriate or inappropriate?
    Mr. Vollrath. It seems inappropriate.
    Senator Durbin. I think so too. Any other question, 
Senator?
    Senator Cochran. No.
    Senator Durbin. Senator Reed.
    Senator Reed. No, sir.
    Senator Durbin. Thank you very much, Mr. Vollrath. 
Appreciate you being here.
    Mr. Vollrath. Thank you, Mr. Chairman.
    Senator Durbin. We have a second panel coming up, but I 
invite them to come to the table. They include Mr. Terry 
Hartle, Senior Vice President of the American Council on 
Education; Steve Gunderson, former congressman from Wisconsin, 
currently President and CEO of the Association of Private 
Sector Colleges and Universities; Mr. James Selbe, Senior Vice 
President for Partnerships, Marketing, and Enrollment 
Management at the University of Maryland's University College; 
and Mr. Christopher Neiweem, an Army veteran and a former 
college recruiter. Thank you all for being here today.
    Mr. Hartle, I am going to let you kick off. Your full 
statement will be made part of the record. If you would like to 
give us a summary at this point, we would appreciate it.
STATEMENT OF TERRY HARTLE, SENIOR VICE PRESIDENT, 
            AMERICAN COUNCIL ON EDUCATION
    Mr. Hartle. Thank you very much, Senator, and thank you for 
inviting me to participate in this hearing.
    I would like to begin by thanking you and the other 
senators, Senator Cochran, Senator Reed, for the efforts to 
ensure that tuition assistance benefits were continued to 
military Active Duty members this year in light of their 
possible elimination. I think given the effort that students, 
Active Duty servicemembers make to be students, interrupting 
those benefits would have had terrible consequences. So thank 
you for that.
    The Department of Defense has been moving fairly 
aggressively in the last couple of years prompted by Congress 
as well as by the Obama administration to tighten up the 
management and oversight of the Tuition Assistance Program and, 
in general, we are very supportive of the efforts that they 
have made. They have reached out to us. They have sought our 
counsel and advice, and we have and will continue to work with 
them in this effort.
    Senator Durbin. Could you describe your organization, the 
American Council on Education?
    Mr. Hartle. Yes, sir. The American Council on Education 
(ACE) is a trade association representing approximately 2,000 
2-year and 4-year public and private colleges and universities. 
We represent from community colleges to small liberal arts 
colleges to great research universities.
    The other associations that have signed on to my testimony 
at ACE, represent about 90 percent of the traditional colleges 
and universities in the country.
    I would like to make three basic points about the TA 
program. First, I think it is very important to keep in mind 
that the postsecondary education needs of servicemembers are 
very different than the needs of student veterans and all other 
students.
    For most servicemembers, progress towards their educational 
goals is not simple or straightforward. Servicemembers often 
enroll in multiple institutions, experience frequent 
interruptions in their education due to employment or other 
military obligations, and getting a degree can take a long 
time.
    A colleague of mine at ACE told me that she first used her 
TA benefits at University of Maryland University College (UMUC) 
while stationed in Germany, but had to withdraw when she was 
deployed to Iraq. Now, she then enrolled at Austin Peay State 
University in Tennessee, but withdrew again when she was 
redeployed. While in Iraq, she enrolled in Penn State's World 
Campus--that is Penn State's online division--and completed 
several courses.
    Finally, after returning stateside, becoming a reservist, 
she used a combination of tuition assistance and the Montgomery 
GI bill to complete her B.A. at Penn State's State College 
campus. Thanks to her tuition assistance and the training she 
received in the military as a medic, for which she received 
academic credit, she completed her B.A. in 2\1/2\ years.
    Another colleague at ACE, however, told me that her husband 
used TA to attend five different schools, and his B.A. was 22 
years in the making. In both cases, we see extraordinary 
commitment and persistence, but we see the enormous range of 
paths servicemembers take to reach those goals.
    Second point, we need to ensure that TA program 
participation requirements remain manageable for institutions. 
A TA is not a simple program to administer on-campus and it is 
becoming more complex.
    At present, each service has their own financial processing 
system. Each of the services sets their own member eligibility 
requirement and each of the services sets their own 
institutional participation requirements.
    Compare this to the Pell grant program. One processing 
system, one set of student eligibility requirements, and one 
set of institutional requirements. It is not that Pell grants 
are simple, far from it. It is just that there is one, uniform 
set of requirements. Ten million people receive Pell grants, 
about 300,000 receive TA benefits. The task for campuses to 
manage those can be extraordinary, unless the institution is 
particularly set up to do that.
    If you serve a very large number of servicemembers, it is 
not a deal breaker. It is a headache, but it is not a deal 
breaker. If you serve a small number, the administrative and 
financial complications can be enormous.
    Third point I would make is we know that Congress and DOD 
are anxious to take action against unscrupulous schools and we 
fully support those efforts. But as we improve oversight, we 
need to take care that we don't make the program too complex, 
and in doing so, undermine institutional willingness to 
participate.
    Again, for a school with a large military student 
population, this is not a particular problem, but for schools 
with a modest number of students, it can be quite a challenge.
    Last year, the University of Illinois, for example, which 
enrolls about 70,000 students, had only 25 students receiving 
tuition assistance. That compares with 700 students at the 
University of Illinois using Post-9/11 GI bill benefits.
    So we must find oversight mechanisms that identify and root 
out the bad actors. No excuses, no alternative, but we need to 
be mindful in doing so of the burden on institutions that are 
serving relatively few recipients and trying very hard to be a 
part of this program.
    We think there are a number of steps the committee and DOD 
could consider in this regard, and we would be happy to work 
with you, and the agency, to develop meaningful and appropriate 
measures.
    In conclusion, we strongly support the TA program. It has 
changed the lives of millions of Active Duty servicemembers 
over the years, and we believe it is a very important 
educational and recruitment device for the military.

                           PREPARED STATEMENT

    But at the same time, as we tighten the program up, we need 
to be mindful about the complexity that we are adding because, 
in general, complexity is nobody's friend. It simply 
complicates the efforts that institutions and servicemembers 
will have to contend with.
    Thank you for inviting me to testify on this important 
program. I would, obviously, be happy to answer any questions 
you may have.
    [The statement follows:]
                 Prepared Statement of Terry W. Hartle
    Mr. Chairman and members of the committee, I am Terry W. Hartle, 
senior vice president at the American Council on Education (ACE), 
representing 2,000 public and private, 2-year and 4-year colleges and 
research universities. I am testifying today on behalf of ACE, the 
American Association of Community Colleges (AACC), the American 
Association of State Colleges and Universities (AASCU), the Association 
of American Universities (AAU), the Association of Public and Land-
grant Universities (APLU), and the National Association of Independent 
Colleges and Universities (NAICU).
    The Department of Defense's (DOD) Military Tuition Assistance (TA) 
program provides important educational assistance to active duty 
servicemembers. In fiscal year 2012, the TA program provided benefits 
of $568.2 million to more than 286,000 servicemembers. These education 
benefits were used at more than 3,100 institutions--nearly 1,900 of 
which are public or nonprofit institutions. While the total number of 
students using the TA program is relatively small compared to the Post-
9/11 GI bill (approximately 600,000) or the Pell program (approximately 
9 million), it is important to remember that not all servicemembers are 
eligible for GI bill benefits, or may not be eligible at the 100-
percent benefit level, and many servicemembers do not qualify for Pell 
grants. TA plays an important role in helping provide access to higher 
education for all the men and women in our armed forces.
    This March, the Army, Air Force, and Marines announced that, due to 
the sequester, they would suspend the TA program. We were very 
appreciative of the efforts by Congress and DOD to minimize the impact 
of the sequester on this program, which was able to resume in April. 
Secretary Hagel has been a strong supporter of maintaining the current 
benefit levels--generally, $250 a credit hour with a $4,500 per year 
maximum--even in the face of other funding challenges at DOD. 
Unfortunately, we understand that DOD employees responsible for 
administering this program will face furloughs this summer.
    In my testimony today, I'd like to make four points about the TA 
program.
    First, the postsecondary education needs of servicemembers are 
often quite distinct from the needs of student veterans and other 
nontraditional and traditional student populations. For example, many 
active duty servicemembers will place a premium on flexibility in 
scheduling courses, or on taking courses via distance learning, 
especially if they are on a tour or stationed overseas. While some 
servicemembers join the military precisely because of the great 
educational benefits, others may join the military precisely because 
they didn't have success in high school or didn't think college was for 
them. TA provides these servicemembers with an opportunity to test the 
water, to try a college level course and gain confidence and progress 
at their own pace towards earning a degree. TA can also support them in 
their military careers--such as using the benefit to increase their 
technical training in their field, study foreign languages important to 
our national security, or to gain civilian education needed to advance 
their careers in the service.
    Second, for most servicemembers, progress toward their educational 
goals is not always direct or straightforward. Servicemembers often 
enroll in multiple institutions and experience frequent interruptions 
in their education due to deployment or other military obligations. A 
colleague at ACE told me that she first used TA to enroll at UMUC while 
stationed in Germany, but had to withdraw after she was called up to 
serve in Iraq. She then enrolled in Austin Peay State University (TN) 
while stationed at Fort Campbell on the Kentucky-Tennessee border, but 
withdrew again when she was redeployed. While in Iraq, she enrolled in 
Penn State's World Campus--its online program--and was able to complete 
two courses thanks to the flexibility of their staff. Finally, after 
returning stateside and becoming a reservist, she used a combination of 
TA and Montgomery GI bill benefits to complete her B.A. at Penn State's 
campus in State College, Pennsylvania. Another colleague at ACE told me 
that her husband used TA to attend 5 different schools and his B.A. was 
``22 years in the making.''
    The unique needs of servicemembers and the complex path they take 
in pursuit of their education goals, as demonstrated by these examples, 
greatly complicates efforts to develop outcome measures to evaluate 
students and institutions. Usual standards, like retention, graduation 
and time to degree may not work very well. Make no mistake: Outcome 
measures are critical. But these measures need to be carefully thought 
out and well-designed to work for the servicemember population. There 
are no ``off the shelf'' solutions.
    Third, we need to ensure that TA program participation requirements 
remain manageable for institutions. TA is not a simple program to 
administer on campus and it is becoming more complex.
    We have seen a proliferation of Service-specific requirements in 
recent years. Each of the Services has their own processing systems: 
The Army has the GoArmyEd portal; the Air Force has AIPortal; and the 
Marines, Coast Guard and Navy use the Navy processing portal. Each of 
the Services sets its own servicemember eligibility requirements. For 
example, the Navy does not provide TA benefits to servicemembers on 
their first military assignment, and requires sailors to request TA 
within 2 weeks of the course start date. Each of the Services has 
different sets of institutional participation requirements. For 
example, the Army sets different requirements for its Letter of 
Instruction (LOI) and non-LOI institutions. One of the country's 
largest public research institutions was recently told by the Army that 
because they had 150 TA participants, they will now need to comply with 
more detailed and extensive LOI requirements. The Service-specific 
differences do not make sense and add a level of complexity to the 
program that is unnecessary and can discourage institutional 
participation. We urge DOD to move toward one common and uniform set of 
program requirements and a single processing portal.
    Fourth, we need to ensure appropriate oversight and protections for 
TA funds. We strongly support proper oversight of the TA program and 
efforts to ensure that the program is providing value to servicemembers 
and taxpayers. We know that Congress and DOD are anxious to take action 
against unscrupulous actors in this area and we fully support these 
efforts.
    The Memorandum of Understanding and the Principles of Excellence 
take important steps in this direction, even though some requirements 
could benefit from further clarification. While these efforts have 
undoubtedly improved the oversight of the program, they have also made 
it more complex, requiring institutions to invest greater resources in 
order to participate. For schools with large military populations, 
economies of scale help this investment make sense. But for schools 
with relatively few TA participants, the administrative and compliance 
burden often looms large. Last year, the University of Illinois, which 
enrolls approximately 70,000 students, had only 25 students receiving 
TA, compared with 700 Post-9/11 GI bill recipients and nearly 18,000 
Pell recipients. We need to find oversight mechanisms that will find 
and root out the bad actors, while being mindful of the burdens on 
institutions that serve relatively few TA recipients. We think there 
are a number of steps the committee and DOD could consider in this 
regard and we would be happy to work with you to develop meaningful and 
appropriate measures.
    In conclusion, the TA program supports the unique postsecondary 
education needs of our servicemembers. At the same time, TA program 
requirements need to reflect a balance between providing necessary 
protections for servicemembers and taxpayers and ensuring that a wide 
array of institutions continue to participate in the program. The 
servicemember population and their education needs are as diverse as 
the nearly 4,700 degree-granting institutions that make up our system 
of higher education. We encourage DOD to continue its outreach to 
institutions about TA program participation requirements, including 
those that serve a relatively small number of TA beneficiaries. We need 
to ensure that servicemembers have access to a wide array of quality 
institutions and can choose to use their benefits at the institution 
that best meets their individual needs.
    Thank you for inviting me to testify today on this important 
program. I would be happy to answer any questions.

    Senator Durbin. Thanks a lot, Mr. Hartle.
    Mr. Gunderson.
STATEMENT OF STEVE GUNDERSON, PRESIDENT AND CEO, 
            ASSOCIATION OF PRIVATE SECTOR COLLEGES AND 
            UNIVERSITIES
    Mr. Gunderson. Mr. Chair, Ranking Member Cochran, I was 
going to say Senator Reed, but he is not here.
    On behalf of the Association of Private Sector Colleges and 
Universities, thank you for the opportunity to appear before 
your committee. We represent nearly 4 million students enrolled 
in our schools annually. Our schools provide the full range of 
higher education programs to students looking for postsecondary 
education with a career focus.
    I believe the last time that I was in a meeting with both 
of you senators would have been a farm bill conference 
committee. And at that time, just like today, we had a 
difficult challenge: determining the return on investment for 
Government programs because we simply lacked the data to know 
what is, and is not, effective programs.
    Whether it is a farm support program or a higher education 
for members of the military, we must work together--in this 
case with the Departments of Defense, Veterans Affairs, and 
Education--to develop relevant measures that can evaluate 
success. We need to be thoughtful and make sure measures of 
success accurately reflect the real world environment in which 
our servicemembers seek education, career skills, real jobs 
with real incomes.
    Tuition assistance is an important recruitment and 
retention tool, which significantly contributes to our 
military's morale, their immediate and future skills. Over 60 
percent of our servicemembers stated that the increased ability 
to pursue higher education was an important factor in deciding 
to join the military.
    According to the Department of Defense, 762 private sector 
colleges and universities are currently qualified and 
participating in the Tuition Assistance program, and have been 
approved to offer courses to Active Duty military.
    Educating our Active Duty military is as important as 
fulfilling our commitment to veterans. According to the 
Department of Veterans Affairs, more than 325,000 veterans, 
and/or their families, have been served by our institutions 
representing 28 percent of all veterans using the Post-9/11 GI 
benefits. Although veterans make up less than 10 percent of our 
total student enrollment, we are proud to serve those who 
choose our institutions. More than 1,200 of our schools 
participate in the Yellow Ribbon program.
    You might logically ask why we serve 13 percent of all 
postsecondary students, but 28 percent of all veterans in the 
Post-9/11 GI bill. The answer lies in our service to veterans.
    Returning from duty, most veterans do not want to live in a 
dorm and take five different three-credit courses at a time. 
They want focused and accelerated delivery of academic programs 
that can support their transition from the frontlines to full 
time employment as soon as possible. Because of our longer 
school days and year round academic programming, our students 
can often complete an associate degree in 18 months, or a B.A. 
degree in 3 years.
    We work with the Active Duty military and the veteran in 
the management of their academic experience to meet the 
tensions between daily life, jobs, and academic. Many private 
sector colleges and universities offer a reduced military 
tuition rate to minimize out-of-pocket student expenses beyond 
what tuition assistance benefits cover. Many also maintain 
deployment policies which allow the military students to 
withdraw and return to school at any time when they are 
deployed.
    In November of 2010, the Rand Corporation and ACE study 
entitled, ``Military Veterans' Experiences Using the Post-9/11 
GI Bill in Pursuing Postsecondary Education,'' reported 
findings which support the view that our institutions are 
working to support these students' basic needs. The report 
noted the rate of satisfaction with credit transfer experience 
was 60 percent among students who had attempted to transfer 
military credits to our institutions versus 27 percent for 
community colleges, 40 percent for 4-year colleges. Only 
participants from private, nonprofit colleges reported higher 
credit transfer satisfaction rate.
    Students from our institutions reported fewer challenges in 
accessing required courses than all other institutions except 
4-year public institutions. Students from our institutions 
reported higher than average satisfaction rate with academic 
advising at 67 percent satisfaction versus 50 percent for all 
other institutions.
    In closing, though, my primary message to this committee 
and to the Congress, is that if we really care about outcomes, 
and I believe we all do, then we need to revise the 
Government's data collection systems in ways that will enable 
all of us to fully evaluate such outcomes.
    Currently, the IPED System at the Department of Education 
only counts first-time full-time college students; no veteran 
or Active Duty military is included in such data. Currently, 
neither the Department of Defense nor Veterans Affairs collects 
such data.

                           PREPARED STATEMENT

    I believe that we all would like one set of consistent, 
credible data for all college students, evaluating their 
outcomes based on similar and fair metrics.
    We look forward to working with you and this committee, the 
Congress and the administration, to develop such a system.
    Thank you for your time. I look forward to answering your 
questions and discussing these important issues today.
    [The statement follows:]
                 Prepared Statement of Steve Gunderson
    Chairman Durbin, Ranking Member Cochran, and members of the 
committee, I would like to thank you for the opportunity to appear 
before this committee and for holding this important hearing on 
Voluntary Military Education Programs.
    I am here to represent the member institutions of The Association 
of Private Sector Colleges and Universities, their faculty and the 
millions of students who attend our institutions. Our institutions 
provide a full range of higher education programs to students seeking 
career-focused education. We provide short-term certificate and diploma 
programs, 2- and 4-year associate and baccalaureate degree programs, as 
well as a small number of master's and doctorate programs. We educate 
students for careers in over 200 occupational fields including 
information technology; allied health; automotive repair; business 
administration; commercial art; and culinary and hospitality 
management.
    Sixty-four percent of our students are low-income. Sixty-seven 
percent have delayed postsecondary education making them older than the 
18-22 traditional college demographic. Single parents make up 31 
percent of our students and 76 percent are from a minority population. 
It goes without saying that our students are considered ``non-
traditional,'' but they are more and more the face of higher education 
in this country, so we should think of them as the new traditional. 
Most of our students juggle work, family and school. Most cannot attend 
a traditional institution of higher education because of scheduling, 
location or admissions criteria. Yet, these are the students who need 
the opportunity to pursue higher education if we are going to succeed 
in filling jobs that require skilled workers. Our institutions offer 
that opportunity and have and will continue to play a vital role in 
providing skills-based education.
    During the recent economic downturn when States and local 
communities reduced education budgets, many of our colleagues at public 
institutions had to endure budget cuts resulting in limited access and 
service for students. But our institutions continued to invest in their 
schools to offer students industry-leading innovation while expanding 
capacity and meeting the evolving demands of employers. Because we are 
not dependent on brick-and-mortar facilities to expand access, we are 
able to meet the growing demand for postsecondary education through 
vastly expanding online technology offerings, and perhaps our most 
successful academic delivery--a blend of online and on-site programs.
    Even while investing in education programs, our schools have been 
successful in reducing the cost of attendance for our students. 
Recently, the U.S. Department of Education released an analysis that 
compares the average costs at 4-year institutions between 2010-2011 and 
2012-2013. Only our institutions experienced a reduction in the average 
costs--2.2 percent; other sectors experienced an increase in costs, 
with public in-State cost increasing 6.7 percent, public out-of-State 
increasing 4.1 percent and private nonprofit rising 3.1 percent. For 2-
year institutions, our schools were able to reduce costs to students by 
0.2 percent, while public in-State cost increased 6.4 percent, public 
out-of-State increased 3.9 percent and private nonprofit rose 1.8 
percent.
    We've expanded educational opportunities for many people, as 
evidenced by the increasing number of degrees our institutions have 
awarded. Yes, much of this is the simple result that our sector of 
postsecondary education is probably the newest with new campuses and 
new forms of academic delivery. But in an era when we expect 65 percent 
of all jobs and 85 percent of all new jobs to require some level of 
postsecondary education this growth in access is important. From 1999 
to 2009, degrees awarded by our institutions have soared. Associate's 
degrees increased by 132 percent (compared with just 43 percent at 
public and 1 percent at private nonprofit institutions), bachelor's 
degrees increased by 387 percent (compared with just 29 percent at 
public and 24 percent at private nonprofit institutions), master's 
degrees increased by 588 percent (compared to 33 percent at public and 
43 percent at private nonprofit institutions), and doctorate degrees 
increased by over 300 percent (compared to 30 percent at public and 32 
percent at private nonprofit institutions). Looking at the recession 
years between 2008 and 2012, our institutions prepared 3.5 million 
adults with the education and skills essential for real jobs, real 
incomes and a real chance at America's middle class. We conferred 1.5 
million degrees and 1.85 million certificates.
    Finally, our institutions experienced a higher growth in degrees 
than all others between 2010/2011 and 2011/2012. Degrees conferred by 
our institutions increased 8.6 percent compared to 5.2 percent by 
public and 3.2 percent by private nonprofits. According to Bureau of 
Labor Statistics data, the degrees and certificates awarded by our 
institutions are in some of the fastest growing occupations nationwide. 
For example, in 2010/2011, we awarded 52 percent of all Dental 
Assistant Certificates, 50 percent of all Veterinary Technologists and 
Technicians Associate Degrees and 40 percent of all Diagnostic Medical 
Sonographers Associates Degrees. Without our students, employers in 
these fields would be unable to find the well-trained staff they need 
to deliver services to patients and customers.
    We share your commitment to ensuring that every postsecondary 
institution provides the highest level of service to each and every 
student, especially active duty military, veterans and their families. 
We take great pride that our schools--with the support services, 
flexible schedules, and focused delivery of academics--are designing 
and delivering education in ways that meet the needs of today's 
military and veteran student. We strive to ensure that all students 
receive the education they deserve.
    APSCU and our member institutions want to ensure that our students 
are well-prepared to enter the workforce and that every institution of 
higher education lives up to the high standards expected by our 
students. Private sector colleges and universities have a long and 
important relationship with our Nation's military and veteran students. 
We celebrate who they are and what they do. Our actions, as educators 
of hundreds of thousands of military and veteran students, honor this 
partnership by providing our military and veteran students with the 
best possible education experience at our institutions.
    According to the latest data obtained by APSCU from the Department 
of Defense, 762 PSCUs are participating in the Tuition Assistance (TA) 
program and have been approved to offer courses to active duty 
military.
    Earlier this year, when the various services announced that they 
would eliminate TA as a result of the sequester, Senators Hagan and 
Inhofe noted in their letter to Secretary of Defense Hagel that tuition 
assistance is an important recruitment and retention tool, which 
significantly contributes to our military's morale. As an all-volunteer 
force, during a period of prolonged conflict, effective recruitment, 
retention and morale initiatives are essential to attracting and 
retaining professional personnel. Over 60 percent of our servicemembers 
stated that the increased ability to pursue higher education was an 
important factor in deciding to join the military. More importantly, 
servicemembers have taken their ambitions and turned them into reality 
by taking classes and earning degrees, diplomas and certificates. These 
are truly extraordinary accomplishments achieved in stressful 
situations with time and our institutions are proud to be a part of the 
TA program and serve these dedicated men and women of the military.
    The need for TA is confirmed in the words of Sergeant First Class 
James Wallace who is stationed at Fort Knox Kentucky and using TA to 
attend Sullivan University. In a recent letter to me, he said, ``I 
believe that the Tuition Assistance program for soldiers is a great 
tool to help those people serving their country to help prepare for the 
future. It doesn't matter if that person is going to make a whole 20 
year career or just complete one enlistment, there is life past the 
military.'' Sergeant Wallace went on to describe the value of TA for 
himself and his family saying, ``Like many other soldiers I use the 
whole $4,500 TA benefit every year. For the last 2 years, I have had to 
pay out of my own pocket so that I could take three classes per 
semester. Thanks to TA, I only have one quarter remaining before I 
receive my associate's degree. My associate's degree has helped me in 
applying to become a Warrant Officer. The TA program is about $1,000 
short depending on the college or university that you are attending. 
Even though I do come up short every year, it beats having to come out 
of pocket for the whole amount. Soldiers and their families already 
sacrifice enough to serve their country. Anything that the Government 
can do to help assist the quality of life for soldiers and families is 
greatly appreciated by them.''
    Another student, Staff Sergeant Thomas M. Windley wrote that he 
began attending ECPI University in the summer of 2004 as a veteran 
recently discharged from service in the U.S. Navy.

    ``Several months after enrolling with ECPI, I enlisted in the U.S. 
Army. During my attendance at ECPI, I was appointed System 
Administrator for my unit because of my knowledge of computer systems. 
I utilized my Tuition Assistance and I was able to complete my degree 
program and obtain an associate's degree in Network Security within 18 
months. In 2007, I earned another associate's degree in electrical 
engineering; it was at this point in my military career that my 
civilian education assisted me in being promoted over my peers. In 
2010, I worked on a network installation team and within 3 months I 
earned my CompTIA A+, Network+, and Security+ certifications due 
largely to my education, experience, and opportunity that ECPI provided 
me. In 2010 my military assignment took me overseas to Afghanistan. 
While deployed I earned my bachelor's degree in Computer Information 
Science with a concentration in Network Security. Earning my degree led 
to another promotion, which was due to the tools and benefits ECPI 
provided in the areas of leadership, professionalism, and core 
curriculum content. I have been tasked, since my promotion, with 
training others in my unit both below and above me in rank, to sit for 
certifications, thus far those I have trained have a 100-percent pass 
record. I would highly recommend this program to fellow servicemembers, 
I believe ECPI to have the best customer service of any online school 
and I have attended several. Further the curriculum is very precise and 
concentrated in the areas most needed to perform the job at maximum 
proficiency.''

    Whether we are talking about Sergeant First Class James Wallace, 
Staff Sergeant Thomas M. Windley or an Army Major working on her 
master's degree for career advancement, these men and women know what 
they want and are committed to getting it. In our active duty military 
this might involve taking online classes on a computer at a far away 
posting or on a ship at sea. Their service coupled with their 
commitment to getting an education is truly extraordinary.
    To ensure that all institutions of higher education are 
appropriately recruiting, enrolling, and educating military students, 
only institutions of higher education that have a signed DOD Voluntary 
Education Partnership Memorandum of Understanding (MOU) and are on the 
``List of Participating Institutions'' are eligible to receive DOD TA 
from a service branch. Today, over 700 of our institutions proudly 
participate and have signed the MOU.
    It is important to note that military installations are empowered 
to enforce the established rules and procedures with respect to 
misconduct by an institution of higher education, and the current MOU 
and Executive order exist to provide the appropriate authorities with 
the power to take the steps and actions necessary to ensure that any 
school engaging in illegal or improper practices is held responsible. 
If problems or concerns arise, they should be addressed through the 
existing processes, and by engaging institutions in ways that achieve 
appropriate solutions as soon as possible.
    Educating our active duty military, is as important as fulfilling 
our commitment to veterans. According to the Veterans Administration 
data, more than 325,000 veterans and their families have been served by 
our institutions or 28 percent of all veterans using their post-9/11 GI 
benefits. Although veterans make up less than 10 percent of our 
students, we are proud to serve those who choose our institutions. More 
than 1,200 of our institutions participate in the Yellow Ribbon Program 
and a majority of those impose no limits on the number of eligible 
students while providing the maximum institutional contribution.
    You might ask why we serve 13 percent of all postsecondary students 
but 28 percent of all veterans on the Post-9/11 GI bill? Quite simply, 
the answer lies in our customer service to the veterans. Returning from 
duty in Afghanistan or Iraq, most veterans do not want to live in a 
dorm and take five different 3-credit courses at a time. Rather, they 
want a focused and accelerated academic delivery that can transition 
them from the front lines to full-time employment as soon as possible. 
Because of our longer school days and year-round academic programming, 
our students can often complete an associate degree in 18 months or a 
B.A. degree in just over 3 years.
    We know that challenges arise when our military men and women 
transition back to civilian life and enter into postsecondary 
education. Often, traditional institutions of higher education are not 
the best fit. Our military and veteran students are not the fresh-out-
of-high school, first-time, full-time student living on campus and 
attending thanks to the generosity of family. Our military and veteran 
students are like many of our new traditional students--working, with a 
spouse and children and paying for education with money they have 
saved. Servicemembers and veterans attend our institutions because of 
many of the institutional qualities that are inherently ingrained into 
the framework of our institutions, such as geographic proximity to home 
or work, institutional emphasis on the adult learner, and flexible 
class schedules. This is why for over 65 years our schools have been 
providing education and training services to members of the armed 
services and their families.
    We know that military students want career-focused education that 
is delivered in a flexible academic setting, which best meets their 
unique needs. Our courses are designed to be relevant, concentrated, 
and suited to the personal goals of our students; this educational 
foundation particularly benefits servicemembers who utilize TA to 
achieve a promotion, advance in rank, or supplement the skills attained 
during their service. This type of purposeful, tailored education 
ensures that military students nimbly move from the classroom onto 
their next academic or professional goal. The ability to offer courses 
on-base, online, and on the servicemember's schedule, likewise, is of 
tremendous value, providing a full range of educational opportunities 
that enable military students to maximize their education in order to 
achieve his or her academic goals.
    In recognition of the growing numbers of military and veteran 
students enrolling at our institutions, APSCU adopted Five Tenets of 
Veteran Education that included the creation of a Blue Ribbon Taskforce 
for Military and Veteran Education. The Taskforce was comprised of a 
broad group of individuals who share a common commitment towards the 
education of servicemembers and veterans representing a diverse range 
of institutions, including non-APSCU members, as well as 
representatives of nationally recognized leadership organizations in 
the area of military and veteran postsecondary education. The Taskforce 
was specifically charged with identifying, collecting, and documenting 
practices and programs that meet the unique needs of military and 
veteran students, foster persistence, and enable them to meet their 
academic and professional goals.
    I have attached a copy of the Best Practices to this testimony, so 
I won't discuss them in detail, but I would just highlight the four 
major topic areas addressed by the Taskforce:
  --Consumer information, enrollment and recruitment makes clear that 
        information should be provided in clear and understandable 
        language and that no student should be subjected to aggressive 
        or misleading recruiting practices.
  --Institutional commitment to provide military and veteran student 
        support identifies initiatives related to personnel and faculty 
        designed to help employees understand the special needs of 
        military and veteran students. It also identifies institutional 
        policies aimed at assisting military and veteran students such 
        as participating in the Yellow Ribbon program, offering a 
        reduced military tuition rate, maximizing the use of military 
        training credit recommended by ACE, or exceeding the standards 
        of the Uniformed Services Employment and Re-Employment Act for 
        deployed employees.
  --Promising practices for ensuring military and veteran student 
        success through student services discusses the need for student 
        centers and partnerships, such as establishing a Student 
        Veterans of America chapter or having a military and veterans 
        lounge where students can meet and find peer to peer support.
  --Establish institutional research guidelines for tracking military 
        and veteran student success encourages the collection and use 
        of data to improve programs and evaluate program effectiveness. 
        We are encouraging all our institutions and our colleagues at 
        other institutions of higher education to look at these Best 
        Practices and find opportunities to implement them where 
        appropriate in order to best serve our military and veteran 
        students.
    A 2010 study by the Rand Corporation and ACE entitled ``Military 
Veterans' Experiences Using the Post-9/11 GI Bill and Pursing 
Postsecondary Education'' reported findings which support the view that 
our institutions are working to support these students. The report 
noted the following:
  --Rate of satisfaction with the credit transfer experience was 60 
        percent among survey respondents who had attempted to transfer 
        military credits to our institutions, versus only 27 percent 
        among those from community colleges and 40 percent among 
        respondents from public 4-year colleges. Only participants from 
        private nonprofit colleges reported higher credit transfer 
        satisfaction rates, at 82 percent;
  --Respondents from our institutions reported fewer challenges to 
        accessing required courses than all other institutions except 
        for 4-year publics (33 percent of respondents at public 2-year 
        colleges, 26 percent at private nonprofits, 22 percent at our 
        institutions and 18 percent at public colleges).
    Survey respondents in private sector colleges and universities 
reported higher than average satisfaction rates with academic advising, 
at 67 percent, versus about 50 percent satisfaction among respondents 
at other institution types.
    Reasons for choosing our institutions included: Career oriented 
programs with flexible schedules, like-minded adult students, flexible 
credit transfer rules and same institution in multiple locations.
    Many PSCUs offer a reduced military tuition rate for active duty, 
National Guard, and reserve servicemembers and their spouses to 
minimize out-of-pocket student expenses beyond what TA benefits cover 
and offer scholarships to wounded servicemembers and their spouses as 
they recover from their injuries and prepare for new career 
opportunities. Some also maintain a military-friendly deployment 
policy, which allows military students to withdraw and return to school 
at any time if they are deployed and provide specialized military 
student advisors to evaluate past military training and experience and 
assess eligible academic transfer of credit based on American Council 
of Education (ACE) recommendations. The generous awarding of credit for 
military skills and experience and fair transfer of credit policies 
exemplify how PSCUs strive to be responsible stewards of this 
educational benefit, as exiting servicemembers are not forced to take 
duplicative or extraneous classes.
    We look forward to working with the Department of Defense, as well 
as the Department of Education to develop relevant outcome measures. 
Active duty military students are often deployed or transferred, 
interrupting their education. As we develop outcome measures and 
metrics, we need to be thoughtful and make sure they accurately reflect 
the real world environment our servicemembers operate.
    Military students utilize TA as a means to career advancement or 
skills attainment; however, the benefit also assists servicemembers as 
they transition from soldier to civilian by providing the skills 
necessary for attaining employment in a tough job market. Recent Bureau 
of Labor Statistics (BLS) data suggest that the unemployment situation 
of our Nation's veterans is improving, this population, particularly in 
the age 18-24 category, has historically experienced higher 
unemployment than civilians. The Administration, veteran advocates, and 
veteran service organizations (VSOs) have responded by developing and 
implementing initiatives to put veterans in jobs.
    The American Legion has partnered with DOD to educate State 
legislators and governors on the actual value of military skills and 
experience and how they translate into a civilian employment 
environment. Additionally, the American Legion is serving as an 
advocate for changing current State laws to enable credentialing and/or 
licensing boards to consider military skills and experience when 
evaluating a candidate for a license or certification. The American 
Legion has also partnered with the Administration and the Departments 
of Defense, Energy, Labor, and Veterans Affairs to evaluate the current 
job-task analysis (JTA), identify any gaps in the JTA, and work with 
the private sector and postsecondary education to the best address how 
to fill the gaps through higher education, on-the-job-training, or 
apprenticeships. This initiative relies on the symbiotic relationship 
between credentialing, higher education, public and private entities to 
proactively work together to reduce veteran unemployment.
    Tuition assistance is valuable because it not only helps maintain 
the readiness of our Nation's military, but it provides active duty 
servicemembers with career ready training for life after they leave 
military service. When members of the armed forces leave, they enter a 
pivotal transition period that is often wrought with challenges, and as 
a result, the potential for failure is high. As we have discussed, our 
institutions are fully committed to helping veterans achieve success in 
higher education. This commitment and focus on educating members of the 
military, as well as veterans and their families is critical because 
according to the Defense Activity for Non-Traditional Education Support 
(DANTES) over 80 percent of members only have a high school diploma.
    Our Nation currently faces twin crises--stubbornly high 
unemployment and a skills gap where employers all across the country 
cannot find trained and job-ready workers. The key to narrowing the 
skills gap and reducing civilian and veteran unemployment is an ``all-
hands-on-deck'' approach to postsecondary education. All sectors of 
higher education must be part of the solution and accountable for the 
educational experience and outcomes of all students, especially 
military and veteran-students.
    We want to work with you to provide our servicemembers and 
veterans, particularly young combat veterans, with the tools and 
resources to make an informed, thoughtful decision about which 
educational opportunity will best prepare them for the workforce.
    The facts are simple: Career-oriented schools are educating 
America's next generation and helping secure our Nation's economic 
vitality. We all agree that a higher education degree greatly improves 
employment opportunities and income. And at a time of extended, high 
unemployment and economic hardship, we should be supporting anyone 
seeking access to skills and training that will allow them to better 
their own future.
    President Obama has made it his goal to have the highest proportion 
of college graduates in the world by 2020. To meet President Obama's 
challenge we will have to ensure that people who historically have not 
pursued higher education or succeeded in completing their postsecondary 
education must attend and complete their education. From both a jobs 
and a global competitiveness standpoint, our institutions can help fill 
the existing education and skills gap and meet capacity demands that 
cannot be satisfied by public and private nonprofit colleges alone. 
Increasing the number of educated people is essential. Research shows 
that raising the college graduate rate just a single point will unleash 
$124 billion per year in economic impact on the 51 largest metropolitan 
areas in the United States.
    Private sector colleges and universities have demonstrated a unique 
capability to confront the challenges of educating America's middle 
class. We have been at the forefront of the effort to close the skills 
gap by offering career-focused training aiding business owners seeking 
workers with specific training and expertise. We have made it our 
mission to close this gap and are working every day to achieve that 
end.
    Private sector colleges and universities are able to accommodate 
the needs of nontraditional students in ways that traditional 4-year 
universities cannot. Whether its veterans' transitioning from war zones 
to the workplace or single parents with family responsibilities seeking 
a way to earn more for the future, career-oriented schools understand 
the rigorous demands that these individuals face and tailor course 
schedules, offer focused curriculum and provide academic delivery 
mechanisms that fit their needs. We are also investing in our students 
and expanding facilities to meet the growing demand for higher 
education, which includes returning veterans, their spouses and 
families.
    We share President Obama's commitment and passion for education, 
and look forward to working with him and the Congress to ensure that 
all Americans can attain the skills they need to access meaningful 
opportunities.
    We take seriously the charge to work with active duty and military 
student populations and prepare America's students to succeed in the 
workforce. Private sector schools look forward to helping these 
students achieve their dreams, maintain military readiness and prepare 
them for life after the military.
    Thank you for your time. I look forward to answering your questions 
and discussing these important issues with you today.

    Senator Durbin. Thank you, Mr. Gunderson.
    Mr. Selbe from the University of Maryland.
STATEMENT OF JAMES H. SELBE, SENIOR VICE PRESIDENT FOR 
            PARTNERSHIPS, MARKETING, AND ENROLLMENT 
            MANAGEMENT, UNIVERSITY OF MARYLAND 
            UNIVERSITY COLLEGE
    Mr. Selbe. Chairman Durbin, Member Cochran, thank you for 
the opportunity to appear today.
    As you mentioned, I am with the University of Maryland 
University College relevant to today's testimony. I am also a 
20-year veteran of the United State Marine Corps.
    On behalf of our President, Javier Miyares, who is 
participating in our overseas commencements this week, I would 
also like to express UMUC's appreciation to Appropriations 
Committee Chairwoman, Barbara Mikulski, for her longstanding 
support of our commitment to the military, and for her critical 
role in reinstating military tuition assistance through the 
Senate's continuing resolution. We have no better friend, and 
we thank her.
    At UMUC, we say with pride that serving the military is a 
part of our DNA. In 1949, the Pentagon asked American 
universities for proposals on how best to educate Active Duty 
military personnel in Europe. The University of Maryland was 
the only school to respond.
    That year, classes began in Europe to overwhelming demand 
and in 1956, the programs expanded to Asia. More recently, we 
have sent faculty and staff to Iraq, Afghanistan, Africa, and 
locations throughout the Far East.
    Today, we serve approximately 97,000 students in 28 
countries and all 50 States, about 50,000 of whom are Active 
Duty military servicemembers, veterans, and their families. 
These remarkable men and women take classes onsite at more than 
150 locations including military bases throughout the world, 
and online through our award winning virtual campus.
    From a personal perspective, I came into the Marine Corps 
having never given any serious thought to going to college. But 
before I retired, I earned both an undergraduate and graduate 
degree. I am convinced that I would never have taken that first 
step if it were not for three major elements of the voluntary 
education program.
    As a first time, first generation student, I benefitted 
greatly from easy and convenient access to highly qualified 
counselors at the military base education centers.
    Second, as a part-time student, what seemed unachievable 
was made realistic by the opportunity to earn college credit 
for my military training and other life experiences.
    Finally, as an enlisted servicemember, I had very little 
disposable income and would not have been able to afford the 
cost of college had it not been for military tuition 
assistance.
    I benefitted greatly from receiving my Masters of Education 
from the University of Maryland College Park prior to my 
retirement. My educational credentials have opened doors that 
otherwise might have been closed. As such, I have had the 
opportunity to pay it forward by serving those who have 
followed behind me.
    Today's returning veterans are coming home to a highly 
competitive job market, and as the numbers indicate, far too 
many are unemployed and countless others are underemployed. 
When competing against nonveterans, the key differentiator is 
often a college degree.
    The military services have made a significant investment in 
narrowing this gap by funding the cost of college through the 
tuition assistance program. As we saw, the response to the 
abrupt elimination of military tuition assistance in March of 
this year by branches of the military provided a clear example 
of the importance Americans place on higher education benefits 
for servicemembers.
    As you know, the outcry from military students, veterans, 
military support organizations, educators, economists, and the 
general public was swift and powerful. They made clear that 
this program is a key element of the basic compact between our 
Government and the thousands of Americans who agree to enlist 
and risk their lives to protect the United States. We commend 
this committee and your colleagues in the U.S. Senate and the 
House of Representatives who came together in bipartisan 
support to reverse these decisions.
    The University of Maryland University College strongly 
supports the work of this committee in exploring proven 
practices in improving and assessing the Department of 
Defense's voluntary education program. Those who have 
volunteered to support and defend America deserve nothing less 
than the best we have to offer.

                           PREPARED STATEMENT

    Mr. Chairman, education is the best investment we can make 
in the future of those who put their lives on the line for our 
country. As we have done for more than 60 years, UMUC stands 
ready to provide that education anywhere in the world that our 
military needs to go.
    I thank you for allowing me this time. I am happy to answer 
any questions, and welcome the opportunity to work with this 
committee moving forward.
    [The statement follows:]
                  Prepared Statement of James H. Selbe
    Mr. Chairman and members of the committee, on behalf of our 
president, Javier Miyares, who is participating in our overseas 
commencements this week, I thank you for this opportunity to share 
University of Maryland University College's (UMUC) proud history of 
more than 60 years of service to our Nation's military around the world 
as an open access, public university and a member institution of the 
University System of Maryland (USM).
    My name is James Selbe, and I am Senior Vice President for 
Partnerships, Marketing and Enrollment Management at UMUC. I am also a 
proud veteran, having served for 20 years in the U.S. Marine Corps.
    I would like to begin by expressing UMUC's appreciation to Defense 
Appropriations Committee Chairwoman, Senator Barbara Mikulski, for her 
long-standing support of UMUC's commitment to the military and for her 
critical role in including reinstatement of the Military Tuition 
Assistance Program in the U.S. Senate Continuing Resolution. The 
Military Tuition Assistance Program, a critical component of the 
Voluntary Education Program, serves three vital purposes:
      1. It assures recruits that they can enlist right out of high 
        school and still receive a college education.
      2. It trains personnel in the skills needed to ensure a 
        professional military as those skills become more complex.
      3. It provides for an educated workforce as veterans return to 
        civilian life and seek full-time employment.
    The abrupt elimination of Military Tuition Assistance in March of 
this year by several branches of the military proved a dramatic example 
of the importance Americans place on higher education benefits for 
servicemembers.
    As you know, the outcry from military students, veterans groups, 
military support organizations, educators, economists, and the general 
public was swift and powerful. They made clear that this program is a 
key element of the basic compact between the U.S. Government and the 
thousands of young Americans who agree to enlist and risk their lives 
to protect the United States.
    We could have no greater champion than Senator Mikulski and we 
thank her--and you--for the bipartisan support this committee has 
demonstrated for higher education opportunities for our active duty 
military forces and their families.
    UMUC commends this committee for holding this hearing to draw 
attention to the important role of the Voluntary Education Program and 
Military Tuition Assistance. Currently, UMUC has some 50,000 military 
personnel, veterans and their families--more than half of our overall 
student body--enrolled in our courses. These men and women take classes 
on site at more than 150 locations--including military bases in 
Afghanistan--as well as online through our award-winning virtual 
campus.
    We are committed to providing high-quality, low-cost, state-of-the-
art, comprehensive, academically challenging course work for our 
service men and women. And we are committed to helping them succeed in 
their studies and their careers. In the past 3 years, we have created 
groundbreaking new undergraduate and graduate programs in cybersecurity 
in order to train students for this rapidly growing job market that 
demands specialized skills, an area vital to the defense of our 
country.
   university of maryland university college's long and rich history 
                    educating our nation's military
    At UMUC, we say with pride that serving the military is in our DNA.
    It all began in 1949 after the Defense Department decreed that all 
military officers must have at least 2 years of college education. 
While military personnel stationed in the United States could attend 
local colleges, those in war-ravaged Europe were not afforded the same 
opportunity. Among those advocating that the Pentagon provide higher 
education to troops stationed in Europe was Air Force Col. William C. 
Bentley. While serving at the Pentagon, he already was taking classes 
at the University of Maryland's College of Special and Continuation 
Studies--the forerunner of UMUC. The Pentagon issued a call to the 
Nation's universities, asking for proposals on how to educate active-
service personnel in Europe.
    Only the University of Maryland responded.
    With just 1 week to organize a program, George Kabat, dean of 
Maryland's College of Special and Continuation Studies, gathered seven 
professors willing to turn their lives upside down to travel to war-
ravaged Germany and establish the first classes at a U.S. military 
base. In the first month, more than 1,800 military personnel signed up, 
overwhelming the seven professors.
    By that time assigned to Germany, Col. Bentley was among those 
students. In our very first graduation ceremony at Heidelberg in 1951, 
he was awarded a bachelor's degree in military science. And in one of 
life's amazing coincidences, just 1 month ago, William C. Bentley's 
great-granddaughter, Lauren Bentley, earned her bachelor's degree in 
psychology in what will be our last graduation ceremony before the 
Heidelberg campus closes. In total, four generations of this single 
family have served their country and experienced the education benefits 
that William C. Bentley helped launch.
    During the Cold War, UMUC's education program quickly expanded 
wherever American troops were needed--in Europe, Africa, the Middle 
East and, beginning in 1956, in Asia and the Pacific Islands--Japan, 
Okinawa, and South Korea.
    Dwight Eisenhower was the first of seven presidents who have 
commended UMUC's work when he wrote a letter in 1959 saying, ``The fact 
that more than twenty thousand members of our Armed Forces are now 
enrolled in the overseas education program is most heartening. This is 
further proof of Americans' respect for higher learning, and, in 
particular, the eagerness of the men and women of the Army, Navy, Air 
Force and Marine Corps to take advantage of their educational 
opportunities.''
    During the Vietnam War, UMUC for the first time--but certainly not 
the last--sent professors into combat zones by establishing classrooms 
at 24 military bases across South Vietnam. In the late 1960s, a 
revolution against the King of Libya spilled over into the UMUC campus 
serving Wheeling Air Force Base. Water pipes were blown up, bombs 
thrown and the center had to be abandoned. But classes were up and 
running again by the next term.
    UMUC adjusted to the all-volunteer military where education became 
more critical to military morale than ever. Instructors traveled by 
plane, train and sometimes sam loe, a three-wheeled pedicab, to reach 
service men seeking an education. They earned the reputation as the 
``Academic Foreign Legion'' with the motto, ``Have syllabus, will 
travel.''
    Time and again, UMUC faculty known as ``downrangers'' have ventured 
into remote parts of war zones, traveling dangerous routes to reach 
accommodations that sometimes were little better than cobweb-filled 
garden shacks. In Afghanistan, the schools have come under attack. 
During a May 2012 graduation ceremony at Kandahar, graduates 
interrupted their reception to dive into bunkers as enemy rockets fell 
nearby. As one participant said, ``It was a ceremony where you don't 
just hear a speaker talk about heroes, but one where they surround 
you.''
    We have no trouble finding professors who want to volunteer for 
this duty. They have a commitment to military education. Some of them 
are veterans. There is a sense of adventure that speaks to them. But 
most important, they know how important what they are doing is to the 
success of our military and to the country.
    UMUC is used to pulling up stakes and pulling out whenever the 
American military mission ends in one place. And we are just as 
prepared to deploy our professors wherever the new combat zone or 
military outpost may be. All that we can predict is that conditions 
will change and they will change overnight. Our troops will continue to 
be a military support power. And we will be right there. We just don't 
know when and where.
            university of maryland university college today
    Today, UMUC offers 130 undergraduate and graduate degree and 
certificate programs and serves over 92,000 students in 28 countries 
and all 50 States. UMUC's principal aim--and, correspondingly, our 
online service model--are centered on providing high quality, low-cost 
postsecondary education to working adults in Maryland, and around the 
world, with a particular focus on serving active duty military 
personnel. Our students seek the rigor and quality characteristic of 
the University System of Maryland, delivered through an open, 
affordable, and easily accessible format aligned with adult learners' 
busy lives and work schedules.
    UMUC is a proud recipient of the highest honor in distance 
education, the ``Sloan Consortium Award for Excellence in Institution-
Wide Asynchronous Learning Network Programming.'' In 2010, UMUC 
received three IMS Global Learning Consortium awards: Learning Impact 
Award; Best in Category, Faculty Development Network for the UMUC 
faculty e-zine; and Best in Category, Online Laboratory for UMUC's 
online hands-on labs in information assurance. Also of note, UMUC 
received the 2011 Institution Award from the Council of College and 
Military Educators (CCME) in recognition of its quality education 
programs that are provided to the armed services.
    As an open access university, UMUC also attracts an exceptionally 
diverse student body, representing myriad ages and abilities, cultural 
traditions, and socioeconomic circumstances. UMUC enrolls a substantial 
number of the State of Maryland's non-traditional and underserved 
student populations and graduates a significant portion of the State's 
minority degree recipients.
    A snapshot of our students reflects that:
  --Many UMUC students are in their 30s and 40s (with an average age of 
        31);
  --Four out of five of our students work full time;
  --Nearly half of our students are married, with children;
  --More than half of our students are women; and
  --Of our current students:
    --17 percent were new to higher education;
    --26 percent were new to UMUC;
    --30 percent are overseas students;
    --49 percent were transfer students;
    --56 percent are in the military or affiliated with the military 
            (28 percent active duty); and
    --76 percent are undergraduate students.
    UMUC is committed to ensuring our students' success and 
satisfaction, just as we remain committed to continually improving our 
programs and practices to meet the evolving needs of working adults and 
other nontraditional learners. This includes a recent transition (fall 
2011) to an outcomes-based curriculum designed to better meet the 
current needs of undergraduate students. That redesigned curriculum 
involved:
  --Redefining academic program objectives based on employer feedback, 
        and cascading the redefined program objectives into course 
        objectives.
  --A year-long research program to compare student learning achieved 
        by the same online courses in different lengths.
  --The work of more than 600 full- and part-time faculty.
    Our commitment to quality and student success is validated in 
numerous ways, including through an examination of our student 
retention rates. The retention rate for new students admitted in fall 
2010 is 70 percent. UMUC understands that adult students often stop 
working toward their educational goals (i.e., ``stop out'') because of 
deployments and family and work considerations; therefore, we are very 
proud of this retention rate and seek to increase it every year. UMUC's 
commitment to transparency in its performance is reflected in many 
different types of data points on our Web site, so that prospective and 
current students and employers can meaningfully evaluate the quality of 
our offerings. This material includes information about our employees 
and students, degrees awarded, graduation rates, and much more. In this 
context, it bears noting that UMUC's student loan default rates for 
fiscal year 2006-2009 range between 3.1 percent and 4 percent. These 
rates place UMUC in the middle of the USM degree granting institutions 
and lower than national data.
 students in uniform: a look at the university of maryland university 
                  college military student experience
    There has recently been a steady decline in undergraduate 
enrollments across higher education. This has led a growing number of 
institutions to begin targeting military students and veterans to 
replace lost revenue. Educating active duty military students is not 
like educating any other kind of student and those institutions that 
decide to embark on this path need to understand this. These students 
are also our Nation's protectors. They stand on the front lines so that 
we can be safe. They bear a heavy responsibility for their country and 
we who endeavor to educate them bear a heavy responsibility to them.
    Military students face extraordinary challenges that require 
dedicated resources and highly skilled advisors. UMUC has created a 
successful military learner framework based on early, embedded, tiered 
interventions and sustained, differentiated support at strategic points 
along the student journey.
    Every day UMUC Military Advisors answer on average 480 calls and 
600 e-mails from military students who are at various stages in their 
degree progression and who are stationed around the world. UMUC's 
dedicated team of advisors and support personnel ensure that today's 
military members are equipped to transition from combat to classroom to 
career.
    Prospective students hear about UMUC from a variety of sources, 
including television and radio media, AFN and Stars and Stripes ads, as 
well as by word of mouth from any one of the tens of thousands of other 
military students and alumni of UMUC. UMUC's presence on 150+ military 
bases around the world also contributes to the number of prospective 
students that come through our doors every day.
    Here is how our military student support works through the eyes of 
a hypothetical NCO I call Sgt. Smith.
    Sgt. Smith is called by a military advisor after he attends an Ed 
Fair at Fort Meade and requests more information on a cybersecurity 
degree. The advisor engages in a dialogue with Sgt. Smith that focuses 
on:
  --MAPPS (Motivation, Admissibility, Program, Payment, Start Date).
  --Sgt. Smith's advisor also discusses his schedule (military 
        trainings, possible deployments, family) and what he has done 
        while in the military (Military Occupation Specialty duties) to 
        begin formulating a plan.
  --Sgt. Smith's advisor creates a record in the University's student 
        information system in order to provide accurate and timely 
        follow up.
  --If Sgt. Smith hasn't taken an online class before he will be 
        encouraged to test drive UMUC 411, an online classroom where he 
        can develop his confidence and talk to faculty, advisors and 
        potential classmates who understand the demands of military 
        life.
    Information is shared with prospective students in a variety of 
ways. Telephone and e-mail communication are routinely used by military 
members, but UMUC also has online guides and tools to help these 
students navigate the often unfamiliar path in higher education. Once a 
decision has been made to attend UMUC, the military advisor works with 
the student to identify the most appropriate pathway.
    Sgt. Smith decides his work, deployment schedule and home life will 
currently allow him to pursue his goal of obtaining his degree. He has 
a discussion with his advisor to review his next steps:
  --Sgt. Smith gathers his unofficial transcripts and his advisor 
        begins the tentative evaluation process in his chosen field of 
        Cybersecurity to see his potential transfer credit.
  --Sgt. Smith's advisor ensures maximum use of his military credit as 
        well as any credits that he is transferring from other 
        institutions.
  --A discussion now occurs regarding the application process; Sgt. 
        Smith is made aware of the application fee and UMUC's military 
        tuition rate and he receives a ``Welcome Packet'' as an 
        introduction to UMUC and the resources UMUC has available to 
        military students.
  --Sgt. Smith's advisor provides him with recommendations for his 
        first and second semester course planning in order to provide 
        an extended path to follow.
  --Sgt. Smith's advisor looks at credit by exam options in order to 
        maximize efficiency in degree completion.
  --The military advisor also revisits Sgt. Smith's transfer credit and 
        experience in higher education to determine if EDCP 100 should 
        be suggested as a potential first course.
    --EDCP 100: Principles and Strategies of Successful Learning: A 
            military specific section of the standard UMUC class that 
            serves as an introduction to knowledge and strategies 
            designed to promote success in the university environment.
    Once the decision to enroll has been made, students register for 
classes in a variety of ways. Some register on their own via the MyUMUC 
student portal; those using Army Tuition Assistance register via the 
GoArmyEd portal; and others call or e-mail into advising to request 
assistance with the steps to register. In all cases, an immediate 
message goes out to students upon registration with follow-up 
instructions such as logging into the learning platform; purchasing 
course materials, making payment, and noting add/drop deadlines. 
Advisors check in at key moments during this critical first term of 
enrollment.
    Sgt. Smith is granted support and tuition assistance approval from 
his Education Center to enroll into six credits for the current term. 
He registers for the two courses recommended by his advisor. The 
classes begin next week:
  --Sgt. Smith's advisor contacts him on the first day of class to 
        ensure he has logged in to the virtual classroom, reviewed the 
        syllabus, gathered his course materials and posted an 
        introduction in the classrooms.
  --If Sgt. Smith has not completed any of the steps, the advisor 
        troubleshoots potential barriers--time & schedule, technology, 
        personal--and makes recommendations as appropriate.
  --Sgt. Smith's advisor sets a short-term next action to check and 
        confirm steps have been taken and a long-term next action to 
        make sure Sgt. Smith stayed on track.
  --Sgt. Smith is offered participation in Successful Beginnings, an 
        online orientation guide that helps tackle all administrative, 
        academic, and financial issues a new student faces.
    The first term can be a challenge for students despite preparation 
efforts, as they are still learning to navigate through their academic 
careers. Many have been out of education for a significant length of 
time and some may stumble before gaining solid footing. UMUC has in 
place several layers of ``safety nets'' to catch problems early and 
cushion the experience for students.
    Sgt. Smith has been logging in and participating in classes, but 
feels he is struggling. He feels underprepared compared to his 
classmates in the area of writing and math. He is unsure about his 
choice of major. His workload has unexpectedly increased adding to his 
stress.
  --Sgt. Smith's advisor calls to check in and hears ``trigger words'' 
        that indicate he is having difficulty. The advisor begins 
        problem solving the source of struggle and offers UMUC 
        resources (Accessibility Services, Effective Writing Center, 
        Center for Student Success, and Tutoring) as appropriate. 
        (Within the semester, the student may be contacted based on 
        external factors pertaining to that student--for example, if 
        the student has an outstanding balance, if his or her Official 
        Evaluation has been completed, or if transcripts/mil docs have 
        come in or are still missing; communication is tailored as 
        needed)
  --Because Sgt. Smith's Official Transfer Evaluation is completed 
        within this first semester, his advisor maps the entire degree 
        to plan out prerequisites, potential pitfall courses, and 
        preparedness of each semester's enrollment. The advisor also 
        negotiates a realistic graduation deadline that works with Sgt. 
        Smith's eventual goals.
  --During the Degree Map discussion, the advisor also opens the door 
        to next semester's registration by offering classes from the 
        Degree Map and highlights possible opportunities for outside 
        professional certifications.
  --The advisor periodically touches base with Sgt. Smith to ensure 
        continued success and mentions registration for the next 
        semester as appropriate--in addition, advisor will be listening 
        in these conversations for concerns or frustrations that may 
        need to be addressed, such as potential reasons for withdraw 
        and exception process information.
    Every military student is unique and most are traveling on a 
nonlinear journey with multiple start and stop points. Military 
students' multi-institutional attendance and discontinuous enrollment 
can be broken down into several different ``swirls'' that affect their 
retention. Whether the swirl includes a trial enrollment to see if the 
school ``fits,'' a supplemental enrollment at another institution to 
expedite degree completion at the home school, or a serial transfer 
student, UMUC seeks to mitigate the repercussions of these student-made 
decisions and in fact, encourages continued progression.
    Sgt. Smith eventually found his footing and with support from UMUC 
services and faculty, he was able to pass his first courses. He feels 
more confident with six credits under his belt but still feels 
trepidation about taking math courses online. He also wonders if he can 
accelerate his degree progress by testing to earn additional credit.
  --Sgt. Smith's advisor prepares and gains approval for Sgt. Smith's 
        ``Letter of Permission'' which allows him to take his math 
        class face-to-face at a local community college near his base. 
        The credit will reverse transfer back to UMUC upon his 
        successful completion of the math course.
  --Together, Sgt. Smith and his advisor explore him taking American 
        Government and Introductory Sociology through a College Level 
        Examination Program (CLEP) credit by examination test. This 
        testing option saves Sgt. Smith time as well as Tuition 
        Assistance funds. Credit by exam is also an excellent option 
        for Sgt. Smith when he is on temporary assignment and unable to 
        take classes during a term. Credit by exam allows Sgt. Smith to 
        stay on schedule.
    The path to degree completion for a military learner--whether it be 
an associate's, bachelor's or advanced degree--is a long one. Competing 
time demands, changes in duty locations, commander support and family 
responsibilities all contribute to the need to delay goals, both short 
and long term. With the appropriate framework and a scaffolding of 
support for the military student, success is achievable.
    UMUC's relationship with the student doesn't end when the military 
student makes the transition from the classroom to career upon 
graduation or upon separation from the military. At UMUC, the student's 
academic journey follows a parallel path that coincides with the 
transition to civilian status. A team of veteran advisors have a tool 
box that allow the veteran military student to continue his/her path to 
academic success or to that coveted career in cybersecurity.
    Sgt. Smith self identifies to his advisor that he is separating 
from Active Duty in 12 months and is excited to be completing his final 
15 credits.
  --Sgt. Smith's advisor discusses his ``after degree'' plans.
  --The advisor promotes transitional information, may revisit 
        professional certification where applicable, and highlights 
        deadlines for graduation application and details of the 
        graduation checklist and Commencement.
  --The advisor engages Sgt. Smith in UMUC's Career Services as a 
        resource. Resume writing, job fair preparation and strategies 
        for Federal job searching are all topics to be discussed with 
        Sgt. Smith.
  --Where appropriate, Sgt. Smith's advisor would also introduce 
        potential graduate programs and discuss the graduate school 
        admissions criteria and process.
  --As a cybersecurity major, Sgt. Smith qualifies for the articulation 
        agreement between UMUC's Undergraduate School and Graduate 
        School which allows eligible students who complete their 
        undergraduate degree at UMUC with a major in cybersecurity to 
        reduce their total coursework for the M.S. in cybersecurity or 
        cybersecurity policy by 18 credits (three courses).
            tracking and reporting military student outcomes
    The difficulties in tracking and reporting student outcomes for 
military students are many and complex. Despite these challenges, UMUC 
is firmly committed to transparency in reporting student outcomes for 
our military students. Furthermore, we applaud recent efforts by the 
Department of Defense and the Department of Education to develop 
measures more appropriate to military students and other nontraditional 
cohorts.
    The challenges in measuring student outcomes start with the need to 
agree on definitions and to then identify key measures that are 
appropriate to the enrollment behaviors and desired outcomes of 
military students. The Department of Defense has taken a major step 
toward addressing these issues by requesting that the Servicemembers 
Opportunity Colleges (SOC) convene a working group to assist colleges 
and universities to more consistently define military students and 
establish data collection parameters. A white paper, Educational 
Attainment: Tracking the Academic Success of Servicemembers and 
Veterans, was published by SOC and includes background information and 
recommendations.
    UMUC has adopted many of the recommendations of the aforementioned 
working group. These recommendations include:
  --Define military students as Active-Duty, Reserve, and National 
        Guard servicemembers receiving Military Tuition Assistance.
  --Track and report military students who:
    --have successfully completed three courses/nine semester hours in 
            a 2-year period, and
    --have a cumulative GPA > 2.0, and
    --who have transferred in and have had accepted at least nine 
            credit hours.
  --Track the cohort at a rate 200 percent that of ``normal'' time--8 
        years for bachelor's and 4 years for associate's programs.
    Based on this methodology, UMUC is now tracking military students 
beginning with the 2006 cohort. The graduation rate for students who 
have completed their degrees within 5 years after starting is 53 
percent. This compares favorably with our overall student population 
(56 percent) and even more favorable when benchmarked against national 
rates for undergraduate students attending public institutions (50.6 
percent).
    (Educational Attainment: Tracking the Academic Success of 
Servicemembers and Veterans--by Servicemembers Opportunity Colleges--is 
attached to written testimony.)
 u.s. military tuition assistance program--too important to the nation 
                                 to cut
    As our fictitious Sgt. Smith shows, UMUC has developed an extensive 
support system that is aimed at our military students and their unique 
problems in completing an education. UMUC is, in fact, uniquely 
qualified to help military personnel based on our proud history, our 
track record of success and our continuing efforts in the 21st century 
to provide high-quality, low-cost higher education to our Nation's 
servicemembers.
    Just how valuable military education is to the participants and to 
the Nation became starkly clear when, on March 5, 2013, the U.S. Marine 
Corps became the first branch of the services to eliminate the Military 
Tuition Assistance Programs--not cut it back, but eliminate it 
altogether. In rapid succession, other branches followed.
    As mentioned, the outcry from across America was immediate. 
Students, veterans, educators and employers made clear to Congress that 
the Military Tuition Assistance Program is not a frill and is too 
important to the country to cut. It is a key element of the basic 
compact between the U.S. Government and all Americans who enlist to 
protect the United States. Many of them are right out of high school, 
and they agree to serve with the understanding that the military will 
provide them with a good education. The promise is right there on the 
recruiting Web sites.
    As everyone in this hearing room knows, the uproar was so intense 
that Congress acted with lightning speed and bi-partisanship not seen 
in many years. On March 20, the U.S. Senate passed a continuing 
resolution including a provision directing the military services to 
reinstate the Military Tuition Assistance Program. The next day, the 
U.S. House passed the same bill. And on March 27, the President signed 
the bill into law. It took only 22 days from start to finish for the 
country to speak and for Congress to hear and act to reinstate one of 
the most popular and essential programs the Nation can provide to those 
who defend our country.
    During the controversy, Gen. Martin E. Dempsey, chairman of the 
Joint Chiefs of Staff, told a Washington, DC, audience that ``there is 
nothing more important in a democracy than education.'' He called 
himself ``the military's highest ranking student,'' and education ``a 
national strategic resource.''
    Education is key to the very ability to function in the military. 
Our ever-more-sophisticated defense systems depend on highly educated 
personnel working in complex environments. Or as Gen. Dempsey said, 
``We ask these young men and women to solve some of the world's hardest 
problems in its hardest places.''
    Education is also key to the ability of our veterans to function in 
civilian life. When servicemembers return home, the best predictor of 
how well they will fare in finding employment and successfully 
readjusting to life after the military is the level of education and 
professional training they have when they separate from the service. 
Military personnel who leave the service without this education will 
have a harder time finding civilian employment, adding to the already 
high unemployment rate for veterans and hurting our economic recovery.
    We at UMUC were pleased and proud that Gen. Dempsey understood the 
value of this education and that so many of you on this committee came 
together in a bipartisan effort to reverse the decisions of the Armed 
Forces. That was a ringing endorsement of what matters most in the 
defense of this Nation--an all-volunteer force, well educated and with 
high morale.
    Mr. Chairman, education is the best investment we can make in the 
future of those who put their lives on the line for our country. And as 
we have done for more than 60 years, UMUC stands ready to provide it 
anywhere in the world that our military needs to go.
    Thank you.

                                 ______
                                 

Educational Attainment: Tracking the Academic Success of Servicemembers 
                              and Veterans

                                                          July 2012

    Disclaimer: Servicemembers Opportunity Colleges (SOC) is a 
Department of Defense contract managed for the department by DANTES 
(Defense Activity for Non-Traditional Education Support). The 
statements and recommendations contained in this white paper were 
formulated by members of a working group and do not necessarily reflect 
the views or policies of the Department of Defense.
                           executive summary
    The increased concern over program accountability for student 
success across the spectrum of higher education has called attention to 
the need for consistent, relevant, and reliable definitions and 
measures of student progression and student outcomes. Current sources 
of data are inadequate to the task of establishing common measures of 
military student outcomes. Databases that would permit Voluntary 
Education policymakers to track military student outcomes and permit 
comparisons across institutions that serve them are not available. The 
problems are compounded by the mission-defined mobility of active-duty 
servicemembers. This paper is a collaborative approach toward 
developing common definitions and common measures of success for this 
sub-population of adult learners.
    The findings of this report are, at this time, only 
recommendations.
                              introduction
    The multimillion-dollar investment by the U.S. Department of 
Defense (DOD) \1\ and the U.S. Department of Veterans Affairs (VA) \2\ 
in providing higher education access to our servicemembers has 
understandably raised key questions related to the outcomes derived 
from this investment. In April 2012, President Obama signed an 
executive order requiring institutions receiving payments from military 
or veteran education benefits to produce outcomes data on 
servicemembers and veterans as well as provide them additional 
educational assistance. In addition, DOD, VA, and congressional 
committees are actively questioning the return on investment of the 
military Tuition Assistance (TA) program. The current federal budget 
situation has added urgency to these demands for accountability. This 
paper is the product of a working group convened by Servicemembers 
Opportunity Colleges (SOC) to propose specific parameters for 
addressing the accountability issue.
---------------------------------------------------------------------------
    \1\ For FY 2010, DOD spent approximately $641 million dollars on 
active-duty and Reserve component TA funding.
    \2\ For FY 2013, VA estimates more than $8 billion dollars in 
educational expenses.
---------------------------------------------------------------------------
    In defining the parameters of the charge, the working group limited 
itself to identifying the need for metrics, and how to define the 
participants in data collection. The report certainly does not dismiss 
the importance of other questions, such as the extent to which TA/VA-
supported education contributes to job performance or how Voluntary 
Education participation impacts military retention. Similarly, the 
paper does not duplicate the research of the Council for Adult and 
Experiential Learning (CAEL) and others about the relationship between 
earned prior learning credit and persistence and time to degree 
completion. The report appreciates that the cohort definition may not 
be easy for some institutions to currently implement, and how this 
might be managed as a policy matter is an important question. Finally, 
the paper does not recommend any benchmarks nor identify any standard 
measurements of success.
                          purpose of the paper
    This paper focuses on providing a set of common definitions and a 
common methodology that will permit comparisons of institutional-level 
metrics. At the request of military-serving institutions, the working 
group has provided a consistent and measurable definition of a military 
student, data collection parameters, and next steps.

    ----------------------------------------------------------------

    This paper is a collaborative approach toward developing common 
definitions and common measures of success for this sub-population of 
adult learners.

    ----------------------------------------------------------------

                history/background of the working group
    In February 2010, SOC conducted a pre-conference Burning Issues 
Summit at the annual meeting of the Council of College and Military 
Educators (CCME). The Summit generated considerable discussion on the 
diverse practices, policies, and metrics that colleges employ to assess 
persistence and degree completion of adult learners. There was no 
consensus, however, on what definitions and metrics could most 
effectively capture the military student population. It was recommended 
that SOC provide leadership to bring together a working group of key 
stakeholders in the voluntary education community to focus on 
persistence (progress to degree completion), and degree completion 
metrics for this group of adult learners.
    In December 2010, a working group of higher education and military 
education strategic thinkers and data analysts began to identify a 
common set of definitions of persistence and degree completion as well 
as to propose a common set of variables that would allow comparisons 
across the Voluntary Education community.
    The working group was charged with:
  --Making recommendations on possible metrics and variables for 
        evaluation
  --Improving the data collection process by which military students 
        are measured, including their success and nonsuccess (as 
        defined both by the military and by institutions, since these 
        definitions differ)
  --Defining what is a military and veteran student for data collection 
        purposes.
    This focus on metrics sought to inform and shape policy decisions 
and institutional program accountability. The initial focus was on 
active-duty servicemembers but was later expanded to include veteran 
students.
    In an effort to avoid redundancy, the working group sought to 
incorporate research already completed by military-serving 
institutions. The group also explored how certain existing 
methodologies for collecting, analyzing, and reporting data could be 
adapted to better reflect the experience of military students and 
veterans in postsecondary education. That analysis produced the 
recommended framework and definitions.
    In constructing this paper, the working group collaborated with 
stakeholders and constituents of Voluntary Education including 
Transparency By Design (TBD), the Council of College and Military 
Educators (CCME), the National Association of Institutions for Military 
Education Services (NAIMES), the SOC Advisory Board, and others.
    A full membership list is found in Appendix C.
                      environmental considerations
    As of the printing of this report, the political environment 
regarding accountability of Tuition Assistance dollars spent and the 
desire to research and dictate success measures is complex. President 
Obama's April 27, 2012 signing of an executive order mandating data 
collection from institutions as well as (among other requirements) the 
establishment of a federal, centralized complaint database for 
servicemembers and veterans about colleges and universities at which 
they study is the most recent political development.
    Previously, studies by the Lumina Foundation, the Bill and Melinda 
Gates Foundation, and other organizations have proposed various 
methodologies and determined findings related to military or veteran 
student education. Tuition Assistance and the future of the Voluntary 
Education community has been the subject of Congressional hearings and 
white papers. Where possible, the findings and suggestions of these 
reviews have been incorporated into this paper. For additional 
information, please reference Appendix A.
                  introduction to the military student
    It is rare for a servicemember to be both active-duty military and 
a full-time, first-time student.\3\ Data from some of the largest 
providers of higher education to the military indicate that the average 
military student currently takes less than three courses a year. This 
means that military students are not included in the Department of 
Education's first-time, full-time completion calculation, and they will 
not complete their degrees within the 150% time line (normally 6 years 
from beginning to completion of a B.A. or B.S. degree).
---------------------------------------------------------------------------
    \3\ A full-time student, as defined by the Department of Education, 
is an undergraduate student enrolled in at least 12 semester hours or 
quarter hours, or more than 24 contact hours a week each term. An 
undergraduate part-time student as one who is enrolled either less than 
12 semester hours or quarter hours or less than 24 contact hours a week 
each term. For graduate students, part time is defined as less than 9 
semester or quarter hours.
---------------------------------------------------------------------------
    The military force is increasingly mobile and prefers the 
flexibility and portability of online courses. The FY 11 DOD Voluntary 
Education Fact Sheet reported that 73% of all servicemembers 
participating in the military Tuition Assistance program enrolled in 
online classes.
    Even with a DOD 100% Tuition Assistance reimbursement program (with 
limitations), the most lucrative GI Bill program in history, and 
development of service-specific virtual education portals, educational 
achievement remains relatively low and stable among the military force. 
Data from the FY 2011 DOD Voluntary Education Levels Report indicate 
that approximately 85% of the enlisted force do not possess at least an 
associates' degree, nearly 95% of the enlisted force do not possess a 
bachelor's degree or higher, and approximately 58% of the officer corps 
do not possess a master's degree.
    Military students behave differently than other non-traditional 
adult populations. Because of deployments and the rapid pace in theater 
in recent times, it is often difficult for students to predict when is 
a good time to start a course or if they will be able to complete it on 
time. For this reason, institutions that serve the military have to 
have very liberal withdrawal and leave of absence policies that will 
not punish servicemembers for work conditions that are beyond their 
control. In addition, some military students are under-prepared for 
college because they did not complete a college preparatory track in 
high school.

    ----------------------------------------------------------------

    Military students behave differently than other nontraditional 
adult populations. adult learners.

    ----------------------------------------------------------------

    Data from some of the larger institutions that serve the military 
indicate that the average military student attends three or more 
colleges before earning an undergraduate degree. Military students 
often stop out which means they stop attending college and resume 
later.
    Even when an institution is able to offer an online program to meet 
the frequently reassigned military member's needs, sometimes there may 
be connectivity issues. While connectivity may be limited for troops in 
a remote war zone such as Afghanistan, it may also occur when members 
of our navy are at sea, assigned to ships and submarines. Additionally, 
some of the psychological stresses (PTSD, etc.) experienced by many 
members of our modern military may impact all course-based learning as 
well as extend the time required for degree completion.
                              methodology
    The widely accepted methodology used to monitor persistence and 
graduation rates is the cohort tracking approach. This methodology is 
central to IPEDS \4\ and provides tracking over a period of time for a 
cohort of students, with metrics at key milestones (enrollment in Fall 
terms) and a final metric on graduation (six years after first 
enrollment): Of X students, A% returned for a second year and B% 
graduated after six years. The cohort tracking methodology has also 
been endorsed by the American Association of Community Colleges and by 
the Transparency by Design Initiative.\5\
---------------------------------------------------------------------------
    \4\ Integrated Postsecondary Education Data System--the federal 
reporting system required of all institutions that receive federal 
student financial assistance (Title IV) funds.
    \5\ American Association of Community Colleges (Voluntary Framework 
for Accountability, Metrics Manual Version 1.0, November 2011). 
Transparency by Design Initiative (Learners Progress Metrics, http://
collegechoicesforadults.com/, August 2011).
---------------------------------------------------------------------------
    The key issue, however, becomes how to appropriately define the 
cohort for military-serving institutions. The IPEDS definition is 
wholly inadequate for this purpose because it tracks only first-
time,\6\ full-time, degree-seeking freshmen. Acknowledging the growing 
interest in data collection on military and veteran students who do not 
fit this IPEDS definition, the National Center for Education Statistics 
(NCES)--which is responsible for IPEDS--held a Technical Review Panel 
in November 2011 titled ``Collecting Data on Veterans.'' The Technical 
Review Panel's suggestions included collecting basic data through IPEDS 
on the number of military and veteran undergraduates and graduates as 
well as limited data on military- and veteran-serving programs 
available at the institution and the amount of DOD and Post-9/11 GI 
Bill benefits awarded to students through the institution. However, the 
panel acknowledged multiple difficulties of collecting data on military 
and veteran students, including that IPEDS does not currently capture 
any data on them. It thus ``determined that collecting additional data 
on completions, persistence, and graduation rates of veterans and 
military servicemembers in IPEDS is not feasible at this time and needs 
further study'' due to ``the limitations in data systems and available 
data'' but that further examination of other federal data sources 
should be done.
---------------------------------------------------------------------------
    \6\ First-time here refers to first enrollment ever in any higher 
education institution.
---------------------------------------------------------------------------
    Military students typically do not start their college education as 
full-time freshmen or necessarily with the goal of pursuing a degree. 
While the Voluntary Framework of Accountability and the Transparency by 
Design Initiative have broadened the IPEDS definition of cohort by 
adding first-time, full- and part-time, degree-seeking freshmen, even 
this broadened IPEDS definition (e.g., including part-time students) is 
not appropriate for military students. Defining a cohort appropriate to 
the measurement of persistence and graduation of military students must 
take into account several factors that are unique to military students:
  --There is a fundamental difference between persistence and 
        graduation rates of online/distance education programs and of 
        traditional delivery methods, paralleling the differences 
        between all types of institutions.
  --Military training and Service School credit may be accepted (via 
        voluntary participation in the SOC Consortium and agreement to 
        the SOC Principles and Criteria) as college credits based on 
        the American Council on Education's Guide to the Evaluation of 
        Educational Experiences in the Armed Services.
  --Like adult students in general, many military students enroll in a 
        course offered through distance education institutions ``to try 
        out'' online education, only to find out that they prefer to 
        take their early courses face-to-face at a nearby 
        institution.\7\
---------------------------------------------------------------------------
    \7\ Based on analysis and findings from American Public University 
System and University of Maryland, University College.
---------------------------------------------------------------------------
  --Military deployments throughout the nation and the world expose 
        servicemembers to many military-serving institutions, 
        increasing the likelihood of their attending multiple 
        institutions en route to graduation.
  --The increased use of government-sponsored online websites that 
        facilitate enrollment, registration, Tuition Assistance 
        disbursement, and degree planning, such as the GoArmyEd portal, 
        allow students to determine time to degree and allows the 
        military Services to maximize Tuition Assistance.
  --A good number of students enrolled in non-selective colleges and 
        universities (i.e., institutions that provide universal access 
        to higher education) face significant educational challenges 
        derived from inadequate primary and secondary educational 
        preparation.
  --The outcome of these and other factors is that military students, 
        by the time they graduate, are likely to have attended 5+ 
        institutions.
    This ``swirling'' is not necessarily bad--it is actually a fact of 
life for military students as a result of their increased educational 
options. So the key question to answer concerns the point at which it 
is reasonable to expect that it is the intention of the student to 
complete a degree at a given institution.\8\ Any proposed definition 
must also take into account the large diversity of military-serving 
institutions: term- and non-term, multiple starts within a term, 
competence-based, etc. The definition recommended by the working group 
aims to address both the ``swirl'' factor and the diversity of 
institutions.
---------------------------------------------------------------------------
    \8\ The problems facing any definition of degree-seeking students 
for tracking purposes was addressed by the U.S. Department of 
Education's Committee on Measures of Student Success (Draft Report, 
November 15, 2011). The Committee's draft includes a recommendation for 
ED to clarify the definition of degree-seeking student.
---------------------------------------------------------------------------
                        institutional inclusion
    Given the high level of expense and time needed to identify and 
track unique sub-populations of post-secondary students, the working 
group recommends that only institutions with a ``large'' number of 
military and veteran students should be expected to track this 
subpopulation of adult learners. In an attempt to define and quantify 
what constitutes as a sufficiently large pool of military students and 
to help determine what an appropriate minimum threshold might be for 
tracking military students, members of the working group reviewed FY 11 
Tuition Assistance course enrollment data to examine enrollment 
patterns. Comparable data on veteran enrollment behavior and patterns 
were not available from the Department of Veterans Affairs at this 
point in time.
    The Department of Defense military Tuition Assistance data showed 
that 312,760 individual servicemembers use TA to fund their course 
enrollments from 2153 distinct campuses.\9\ When enrollment data was 
aggregated by academic institution across the military Services 
(including Coast Guard), student enrollments ranged from 1-50,000 
students. This wide range of military student enrollments by 
institution reinforced the need to proceed cautiously in making 
universal recommendations about postsecondary educational institutions 
tracking military students; it would be burdensome to require academic 
institutions with extremely low enrollments of military students to 
track student success metrics for them. More than 70% (1534) of the 
institutions that participate in the military Tuition Assistance 
program have 25 or fewer military students enrolled. Conversely, only 
9% (176) of the academic institutions each enroll more than 100 
servicemembers. See figure A for the distribution of Tuition Assistance 
enrollment by institution.
---------------------------------------------------------------------------
    \9\ As per DOD reporting, individual campuses/locations were listed 
separately for select institutions.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                Figure A

    To produce an ``n'' large enough for future analysis and 
institutional cost efficiency, the working group recommends that 
institutions that enroll 100 or more servicemembers and veteran 
students (using Tuition Assistance and/or GI Bill education benefits) 
should participate in reporting. Institutions with fewer than 99 
enrolled students may choose to voluntarily participate.
                       proposed cohort parameters
    The working group recommends that two separate cohorts be 
established for tracking purposes. The use of two cohorts will allow 
the differences in servicemembers currently serving in the Uniformed 
Services and veteran students to be integrated into the analysis of the 
persistence and graduation rates. The cohorts are identified as:
Military Students:
  --Define military students for purposes of this analysis to include 
        active-duty, Reserve, and National Guard servicemembers 
        receiving military Tuition Assistance.\10\
---------------------------------------------------------------------------
    \10\ The National Survey of Veterans (2010) documents that roughly 
8% of active-duty members use their VA educational benefits to pursue a 
degree. As such, these students should not be included in the cohort.
---------------------------------------------------------------------------
  --Include all military students who:
    --have successfully completed three courses/nine credit hours in a 
            two-year period, and
    --have a cumulative GPA > or = 2.0, and
    --who have transferred and had accepted at least nine credit hours. 
            Completing three courses and requesting that a transcript 
            is sent to the institution should constitute enough 
            evidence that the student intends to graduate from a given 
            institution. How the nine credits are earned (e.g., by 
            transfer, MOS/Rating, or exam) is irrelevant.
  --Track the cohort at a rate 200% that of ``normal'' time, as adult 
        and military students attend on a part-time basis--eight years 
        for bachelor's and four years for associate programs.
  --Keep a student in the cohort once captured regardless of military 
        status in further enrollments.
  --Cohort should be measured on a calendar year, so to include various 
        start dates across multiple months.
Veteran Students:
    The cohort for veteran students, which should be tracked separately 
from the military student cohort, remains largely unchanged, with the 
following adaptation:
  --Define veteran students as those receiving education benefits from 
        the U.S. Department of Veterans Affairs.\11\
---------------------------------------------------------------------------
    \11\ In most cases, dependents and spouses receiving transferred 
benefits would also be included in this cohort.
---------------------------------------------------------------------------
  --Include all veteran students who have successfully completed five 
        courses/15 credit hours in a two-year period with a cumulative 
        GPA > or = 2.0 and who have transferred and had accepted at 
        least nine credit hours. How the transfer credits are earned 
        (e.g., by transfer, MOS/Rating, or exam) is irrelevant.\12\
---------------------------------------------------------------------------
    \12\ Course limits and time were determined based on discussions 
and feedback provided which indicated that veteran students are more 
likely to attend full time and/or at quicker rate than active-duty 
members.
---------------------------------------------------------------------------
    Constructing data metrics for veteran student data and collecting 
accurate veteran student educational data is in some ways more 
difficult than doing so for military students. There are multiple 
education benefit programs for veterans and their families as compared 
to the single Military Tuition Assistance benefit program for 
servicemembers. In FY 2010, VA reported there were over 800,000 
beneficiaries of the education programs funded by the VA, with the 
Post-9/11 GI Bill and Montgomery GI Bill Active Duty programs having 
the highest numbers of beneficiaries.
    To add to the complexity, the population of students using Post-9/
11 GI Bill benefits in particular both overlaps with and differs from 
the population of students using Tuition Assistance benefits. Military 
students can choose to use their Post-9/11 GI Bill benefits, if 
eligible, instead of Tuition Assistance. However, students on Post-9/11 
GI Bill benefits can either be veterans themselves or eligible family 
members of veterans with transferred Post-9/11 GI Bill benefits. Thus, 
accurately assessing the progress and success of veterans using Post-9/
11 GI Bill benefits in particular--as opposed to family members or 
servicemembers using Post-9/11 GI Bill instead of Tuition Assistance 
benefits--is highly dependent on institutions' individual student 
information systems and the granularity of data available within those 
systems.
                          reporting variables
    The working group further suggests that institutions track standard 
variables for the cohort, thereby providing a clear framework for data 
collection and analysis. These variables might include:

    ----------------------------------------------------------------

                          reporting variables
  --Gender
  --Age
  --Race (approved IPEDS race categories)
  --Enrollment Status (full-time vs. part-time and degree-seeking vs. 
        non-degree-seeking)
  --Branch of Service (Army, Navy, Marine Corps, Coast Guard, Air 
        Force)
  --Duty Type (Active, Reserve, National Guard, Veteran, family)
  --Rank or Rating (Active-duty personnel only)
  --Degree Level (undergraduate certificate, associate, baccalaureate, 
        master's, post-baccalaureate certificate, post-master's 
        certificate, and doctoral)

    ----------------------------------------------------------------

                        summary recommendations
    As next steps, the working group offers these 
recommendations, for conversation only:
    1. The working group supports the ``concept'' of a 
comprehensive strategy on outcomes measures as reflected in the 
April 27, 2012 Presidential Executive Order on Veterans 
Education (Section 3.c).
    2. The working group recommends that the Departments of 
Defense, Veterans Affairs, and Education, along with the 
Consumer Financial Protection Bureau (CFPB), should collaborate 
with Servicemembers Opportunity Colleges (SOC) and other higher 
education stakeholders as much as possible in developing future 
outcomes measures and institutional reporting requirements. 
Where possible, community consensus should be achieved on data 
collection, analysis, and usage.
    The working group suggests that the Departments of Defense, 
Veterans Affairs, and Education should--in collaboration with 
other stakeholders whose expertise and interests overlap with 
DOD and ED--continue to examine the current availability of 
data on military and veteran students at the federal level.
    3. Consistent with this paper, the working group offers its 
recommendation for the future construction of a common, 
measurable persistence rate (from year one to year two) and 
graduation rate for both the military student and veteran 
cohorts.
    4. For these metrics, the working group also offers the 
variables and definitions proposed in this paper to be used or 
adapted for national metrics for servicemembers and veterans.
    5. The working group recognizes the recommendations from 
the Department of Education's Technical Review Panel 37, 
Selected Outcomes of the Advisory Committee on Student Success, 
as an important step toward recognizing the changing character 
of the nation's college-going population.
             issues outside the scope of this working group
    Since military and veteran student research is a growing field and 
the Post-9/11 GI Bill in particular has created new questions about 
metrics used to measure veteran and military students' educational 
progress and success, many issues related to data metrics and data 
collection were not within the province of this working group. The 
working group's charge was to propose a common cohort definition of 
military students and common measures by which to track their 
persistence and academic success. No existing data analysis was 
requested. Nor was the group asked to construct military/veteran-
student-specific data metrics on other topics such as placement and 
graduate salary metrics. In addition, the working group was not 
requested to link these proposed metrics to any kind of ``military-
friendly'' definition.
                               conclusion
    The increasing complexities of higher education options available 
to an increasingly diverse student population render the use of any 
one-success metric as the universal metric inadequate and misleading. 
Such a metric would mask the many different paths that very different 
students take through higher education. The metrics proposed in this 
paper are applicable to military students. As has been suggested,\13\ 
success metrics are needed for different student cohorts (e.g., those 
who are under-prepared for college). And the need continues for a macro 
or systemic analysis of student journeys across institutions--an 
analysis that can be provided only by state or federal entities. This 
paper is a contribution to the national conversation about the success 
metrics most appropriate to different types of students.
---------------------------------------------------------------------------
    \13\ See ED's Committee on Measures of Student Success Draft 
Report.
---------------------------------------------------------------------------
                     appendix a: environmental scan
1.  Completing the Mission: A Pilot Study of Veteran Students' Progress 
        Toward Degree Attainment in the Post-9/11 Era.

    Available at: www.operationpromiseforservicemembers.com/
        Completing_the_ Mission_Nov2011.pdf

2.  Improving Educational Outcomes for Our Military and Veterans.

    Available at www.hsgac.senate.gov/subcommittees/Federal-financial 
        management/hearings/improving-educational-outcomes-for-our-
        military-and-veterans

3.  Military Service Members and Veterans: A Profile of Those Enrolled 
        in Undergraduate and Graduate Education in 2007-08.

    Available at: http://nces.ed.gov/pubsearch/
        pubsinfo.asp?pubid=2011163

4.  Transfer and Mobility: A National View of Pre-degree Student 
        Movement in Postsecondary Institutions.

    Available at: http://www.studentclearinghouse.info/signature/

5.  White House Press Office. (April 27, 2012). Executive order--
        Establishing principles of excellence for educational 
        institutions serving service members, veterans, spouses, and 
        other family members.

    Retrieved April 30, 2012 from http://www.whitehouse.gov/the-press-
        office/2012/04/27/executive-order-establishing-principles-
        excellence-educational-instituti

6.  Western Association of Schools and Colleges (WASC) Redesign of 
        Retention, Graduation and Time-to-Degree. Retrieved July 12, 
        2012.

    Available at: http://www.wascsenior.org/redesign/
        ugretentionandgraduation
                        appendix b: bibliography
    Ackerman, R. & DiRamio, D. (2009). Creating a veteran-friendly 
campus: Strategies for transition and success. New Directions for 
Student Services, 126. San Francisco: Jossey-Bass.
    Alvarez, L. (2008, November 2). Continuing an education: Combat to 
college. The New York Times. Retrieved January 30, 2012 from http://
query.nytimes.com/gst/
fullpage.html?res=980DE7DD1438F931A35752C1A96E9C8B63&ref= 
lizettealvarez.
    American Council on Education (ACE). (2003). MIVER principles of 
good practice for institutions providing voluntary education programs 
on military installations with review questions and other self study 
requirements. Washington, DC: Author.
    American Council on Education (ACE). (2008). Serving those who 
serve: Higher education and America's veterans. Washington, DC: Author.
    Angrist, J. (July 1993). The effect of veterans benefits on 
education and earnings. Industrial and Labor Relations Review, 46(4), 
637-652.
    Astin, A. (1996). Involvement in learning revisited: Lessons we 
have learned. Journal of College Student Development, 37(2), 123-34.
    Aud, S., Hussar, W., Planty, M., Snyder, T., Bianco, K., Fox, M., 
Frohlich, L., Kemp, J., & Drake, L. (2010). The Condition of Education 
2010 (NCES 2010-028). Washington, DC: U.S. Department of Education, 
National Center for Education Statistics, Institute of Education 
Sciences.
    Bertoni, D. (2010). VA education benefits: Actions taken but 
outreach and oversight can be improved. Report to the Ranking Member, 
Subcommittee on Military Personnel, Committee of Armed Services, House 
of Representatives (GAO 11-2256). Washington, DC: U.S. Government 
Accountability Office.
    Bray, N. J., Braxton J. M., & Sullivan, A. S. (Nov-Dec 1999). The 
influence of stress-related coping strategies on college student 
departure decisions. Journal of College Student Development, 40(6), 
645-657.
    Breedin, B. (1972). Veterans in college. Washington, DC: American 
Association for Higher Education.
    Brown, P. & Gross C. (2011). Serving those who have served--
Managing veteran and military best student practices. The Journal of 
Continuing Higher Education, 59(1), 45-49.
    Cohen, J., Warner, R., & Segal, D. (1995). Military service and 
educational attainment in the all-volunteer force. Social Science 
Quarterly, 76(1), 88-104.
    Cohen, J. (1992). The impact of education on Vietnam-era veterans' 
occupational attainment. Social Science Quarterly, 73(2), 397-409.
    Cook, B. & Kim, Y. (2009). From soldier to student: Easing the 
transition of service members on campus. Washington, DC: American 
Council on Education.
    DiRamio, D., Ackerman, R., & Mitchell, R. (2008). From combat to 
campus: Voices of student-veterans. NASPA Journal of Student Affairs 
Research and Practice, 45(1), 73-102.
    DiRamio, D. & Spires, M. (2009). Partnering to assist disabled 
veterans in transition. New Directions for Student Services, 126. San 
Francisco: Jossey-Bass.
    Field, K. (2008, June 9). As Congress prepares to expand GI bill, 
colleges reach out to veterans. The Chronicle of Higher Education.
    Johnson, J. L. (2000-1). Learning communities and special efforts 
at the retention of university students: What works, what doesn't and 
is the return worth the investment? Journal of College Student 
Retention: Research, Theory, and Practice, 2(1), 219-238.
    Klein-Collins, R., Sherman, A., & Soares, L. (2010). Degree 
completion beyond institutional borders. Responding to the new reality 
of mobile and nontraditional learners. Washington, DC: Center for 
American Progress & CAEL: The Council for Adult & Experiential 
Learning.
    Kolowich, S. (2010, November 9). Technology and the completion 
agenda. Inside Higher Ed. Retrieved January 30, 2012 from http://
www.insidehighered.com/news/2010/11/09/completion.
    Kuh, G. (2001-2). Organizational culture and student persistence: 
Prospects and puzzles. Journal of College Student Retention: Research, 
Theory, and Practice, 3(1), 23-39.
    Lang, W. & Powers, J. (2011). Completing the mission: A pilot study 
of veteran students' progress toward degree attainment in the post 9/11 
era. Tempe, AZ: Pat Tillman Foundation.
    McBain, L. (2010). Proposed legislative changes to the Post-9/11 GI 
Bill: Potential implications for veterans and colleges. Policy Matters: 
A Higher Education Policy Brief Series. Washington, DC: American 
Association of State Colleges and Universities (AASCU).
    McCormick, A. C. (2003). Swirling and double-dipping: New patterns 
of student attendance and their implications for higher education. New 
Directions in Higher Education 2003 (121), 13-24.
    Mian, M. Z. (2011). Hiring heroes: Employer perceptions, 
preferences, and hiring practices related to U.S. military personnel. 
Phoenix, AZ: Apollo Research Institute (formerly University of Phoenix 
Research Institute).
    National Survey of Student Engagement. (2011). Fostering student 
engagement campuswide: Annual results 2011. Bloomington, IN: Indiana 
University Center for Postsecondary Research.
    Offenstein, J., Moore, C., & Shulock, N. (2010). Advancing by 
degrees: A framework for increasing college completion. Sacramento, CA 
& Washington, DC: Institute for Higher Education Leadership & Policy 
(IHEP) and The Education Trust.
    Radford, A. W., Berkner, L., Wheeless, S. C., & Shepherd, B. 
(2010). Persistence and attainment of 2003-04 beginning postsecondary 
students: After 6 years (NCES 2011-151). Washington, DC: National 
Center for Education Statistics, Institute of Education Sciences.
    Radford, A. W., Wun, J., & Weko, T. (2009). Issue tables: A profile 
of military servicemembers and veterans enrolled in postsecondary 
education in 2007-08 (NCES 2009-182). Washington, DC: U.S. Department 
of Education, National Center for Education Statistics, Institute of 
Education Sciences.
    Radford, A. W. (2009). Military service members and veterans in 
higher education: What the new GI Bill may mean for postsecondary 
institutions (ACE #311930). Washington, DC: American Council on 
Education.
    Reyna, R. (2010). Complete to compete: Common college completion 
metrics. Washington, DC: National Governors Association (NGA) Center 
for Best Practices Education Division.
    Scott, G. (2011). Veterans education benefits: Enhanced guidance 
and collaboration could improve administration of the Post 9/11 GI Bill 
program (GAO 11-356-R). Washington, DC: U.S. Government Accountability 
Office.
    Spiro, R. & Hill, R. (2010). Military veterans face challenges in 
accessing educational benefits at a Florida community college. Visions: 
The Journal of Applied Research for the Florida Association of 
Community Colleges 6(1), 14-17.
    St. John, E. P., Hu, S., Simmons, A. B., & Musoba, G. D. (2001). 
Aptitude vs. merit: What matters in persistence. The Review of Higher 
Education, 24, 131-152.
    Tinto, V. (1997). Classrooms as communities: Exploring the 
educational character of student persistence. Journal of Higher 
Education, 68, 599-623.
    Tinto, V. (2000). Linking learning and leaving: Exploring the role 
of the college classroom in student departure. In J. M. Braxton (Ed.), 
Reworking the student departure puzzle (pp. 81-94). Nashville, TN: 
Vanderbilt University Press.
    U.S. Government Accountability Office. (2007). VA student financial 
aid: Actions needed to reduce overlap in approval activities (GAO-07-
775T). Washington, DC: U.S. Government Accountability Office.
    U.S. Department of Education. (2011). Military service members and 
veterans: A profile of those enrolled in undergraduate and graduate 
education in 2007-2008. Washington, DC: U.S. Department of Education.
    Wiedeman, R. (2008, September 24). Government, colleges work to 
cater to veterans under new GI Bill. The Chronicle of Higher Education.
    Whikehart, J. (2010). Mission Graduation: A student military and 
veteran organization. Community College Journal of Research and 
Practice, 34(11), 920-922.
    The Winston Group. (2008). GI Bill focus group analysis for 
American Council on Education. Washington, DC: Author.
    Winston, R. (August/September 2010). Closing the gap: Helping 
California's veterans get an equal share of the benefits pie. Community 
College Journal, 81(1), 34-37.
    Woodard, D., Mallory, S., & DeLuca, A. M. (2001). Retention and 
institutional effort: A self study framework. NASPA Journal of Student 
Affairs Research and Practice 39(1), 53-83.
                  appendix c: working group membership
Ms. Rozanne Capoccia-White
Manager, Contract & Military Education Program Operations
Coastline Community College (CA)

Dr. Laurie Dodge
Associate Vice Chancellor Institutional Assessment and Planning
Brandman University (CA)

Ms. Joycelyn Groot
Dean, Military/Corporate Contract Education Programs
Coastline Community College (CA)

Ms. Ann Hunter (retired)
Former Voluntary Education Service Chief, Navy
OPNAV Education Branch

Mr. Seth Marc Kamen
SOCCOAST Project Director
Servicemembers Opportunity Colleges

Ms. Lesley McBain
Senior Research and Policy Analyst
Servicemembers Opportunity Colleges Special Project Associate American
Association of State Colleges and Universities (AASCU)

Dr. Frank McCluskey
Scholar in Residence
American Public University System (WV)

Dr. Javier Miyares
Acting President and Senior Vice President, Institutional Effectiveness
University of Maryland University College (MD)

Ms. Cali Morrison
Project Director, Transparency By Design
WICHE Cooperative for Education Technologies

Dr. Karen Paulson
Senior Associate
National Center for Higher Education Management Systems (NCHEMS)

Ms. Elise Scanlon
Principal
Elise Scanlon Law Group

Dr. Kathryn Snead
Servicemembers Opportunity Colleges Consortium President and SOC 
Director
Vice President for Military and Veteran Partnerships
American Association of State Colleges and Universities (AASCU)

Dr. Greg Von Lehmen
Senior Vice President for External Affairs and Initiatives
University of Maryland University College (MD)

    Senator Durbin. Thank you, Mr. Selbe.
    Okay, Mr. Neiweem, how do I pronounce your name?
    Mr. Neiweem. It is pretty close, Mr. Chairman. It's 
Neiweem.
    Senator Durbin. Neiweem.
    Mr. Neiweem. Yes, sir.
    Senator Cochran. Say it fast.
    Senator Durbin. I will say it fast.
    Mr. Neiweem. It is Dutch.
    Senator Durbin. Proceed.
STATEMENT OF CHRISTOPHER NEIWEEM, IRAQI FREEDOM VETERAN
    Mr. Neiweem. Chairman Durbin, Ranking Member Cochran, and 
members of the subcommittee.
    Thank you for inviting me to appear this morning. My 
testimony focuses on my experiences as a military recruiter at 
DeVry University online from February 2008 until I left the 
company in August 2009. Prior to that, I served in the Army in 
Iraq, and subsequently completed graduate study at the 
University of Illinois at Springfield under the Post-9/11 GI 
bill. I earned my undergraduate at Northern Illinois University 
in DeKalb.
    In my experience, the tuition assistance benefit is 
valuable to servicemembers, and many find an online program to 
be an attractive option. The for-profit recruiting practices I 
experienced, however, were aggressive and far more focused on 
bottom line profits than on military students.
    Let me highlight my principle concerns: a business culture 
that emphasized hasty enrollment over individual student needs. 
A management strategy of having those who recruited military 
personnel present themselves as military advisers when, in 
fact, they were sales professionals. Recruiters being pressured 
to enroll military students who had already failed an 
admission's test once or had expressed reservations about their 
readiness for postsecondary study. And management forbidding 
recruiters from encouraging military students who were serving 
in combat zones to take off an academic session.
    In my experience as an employee for a for-profit school, 
there was a strong emphasis on recruiting military students 
because TA would cover the cost of the program. In fact, my 
managers referred to Tuition Assistance as the military gravy 
train.
    With access to databases that identify those who are 
military personnel, recruiters can complete the admissions 
process for a military student using Tuition Assistance in as 
quickly as 1 week. With the very fast-paced, 8-week recruiting 
cycle my company employed at the time, management set 
aggressive deadlines for enrollment.
    The recruiters with military backgrounds like me were 
routinely able to build trust and rapport with Tuition 
Assistance users. And servicemembers signed on at nearly twice 
the rate as their civilian counterpart students. For a time, I 
found this work rewarding.
    In 2009, however, the leaders at my company began to 
increase the focus and pressure to enroll military members. 
They formed a special team in which I was assigned that was 
specifically recruiting military students. Management pressured 
this team to increase the rate of military enrollees while 
ignoring our concerns for servicemembers.
    To illustrate, some military students were serving in 
hazardous locations including Iraq and Afghanistan, and due to 
troop movements or relocations, found it difficult to complete 
homework after the duty day ended. My colleagues and I on this 
military sales team would routinely support the students need 
to sit out a session and return to class at a future date. But 
management scolded me for doing that insisting, ``DOD does not 
pay your paycheck any more, we do, and we need to remain 
competitive.'' That insistence on producing metrics rather than 
meeting the needs of military students I was charged to enroll 
led me to leave the company.
    The most memorable internal management mantra was, pardon 
my French, Mr. Chairman, ``Get asses in classes.'' And at one 
time been in these servicemembers' boots, and I would have 
expected that same reinforcement from them if I was trying to 
balance operational requirements overseas with my studies.
    My company's seeming lack of concern with the 
servicemembers had actually been evident early on. Recruiters 
were given 2-week training sessions on the degree programs the 
University offered and we were charged with promoting. However, 
training on military culture was cursory. The training did not 
give recruiters a picture of the stressors a servicemember 
might deal with while trying to attend school. Nor did the 
training provide any insight into daily military life or into 
the mental health stressors servicemembers may experience.
    Another concern I had was that some recruiters who 
contacted military personnel would say they were calling from 
the military admissions department or identify themselves as 
military advisors including having that title in their 
electronic signature block, military admissions advisor, in the 
emails that went to the students. This was simply a fictional 
tactic to make the military servicemember think the recruiter 
was in the military.
    My coworkers and I reported this concern to senior 
management, only to be assured it deeply concerned them and 
they would address it. Yet, these were the same leaders who had 
reminded us that DOD no longer paid our salary. In my 
experience, the critical performance metrics were numbers of 
servicemembers, those who applied, tested, cleared, and then 
registered.
    Because students using tuition assistance are more quickly 
cleared for class, it made these reports look strong and 
managers became even more ambitious to hit their targets, the 
earnings of midlevel managers, known as assistant directors of 
admissions, were based on their team's performance. It was 
clear that tuition assistance benefit and sales reports trumped 
the concerns that I had voiced to management.
    For example, some military members had failed the basic 
admissions test, a key step in the admissions process designed 
to show the readiness of the applicant for postsecondary study. 
The management response was to send them online study links, 
encourage them to find a study buddy, and take the test again 
as quickly as possible.

                           PREPARED STATEMENT

    Additionally, even after I explained to some of my military 
tuitions approved students were not going to start their 
classes in the current academic session, management encouraged 
me to do something to keep them in. While I believe online 
education is a good option for some military students, these 
practices were untenable to me.
    I hope my experiences are helpful for the committee's work 
on this subject, and I am happy to answer any questions you may 
have.
    [The statement follows:]
               Prepared Statement of Christopher Neiweem
    Chairman Durbin, Ranking Member Cochran, and members of the 
subcommittee: Thank you for providing me the opportunity to share my 
insights and experience as a former student veteran and for-profit 
university recruiter. I am a U.S. Army veteran of Operation Iraqi 
Freedom. I also benefited from using the Post-9/11 GI bill to complete 
graduate study at the University of Illinois at Springfield. In my 
experience, the Tuition Assistance (TA) benefit is valuable to 
servicemembers because the cost of schooling is covered, allowing them 
to focus on selecting an academic program. I was a military recruiter 
(admissions adviser) at DeVry University Online from February 2008-
August 2009, and left the for-profit industry because I felt the 
company's managing principles no longer provided an understanding of 
military student's needs using Tuition Assistance.
    In general, servicemembers may find an online program an attractive 
option because of their limited ability to attend a residential program 
or because of the accelerated format. But as I saw it in operation, the 
for-profit recruiting practices were aggressive and focused far more on 
the bottom line profits than on the military student.
    In short, the biggest problems I experienced were:
  --The DeVry business culture which emphasized hasty enrollment over 
        individual military student needs;
  --The management strategy to have recruiters contacting military 
        leads purporting to be ``military advisers'' when they were 
        really sales professionals;
  --Recruiters being pressured to enroll military students who had 
        already failed to pass an admissions test once or expressed 
        verbal reservation about their readiness for post-secondary 
        study; and
  --Management not allowing recruiters to encourage military students 
        serving in combat zones to take off an academic session (some 
        serving in locations such as Iraq) because of a concern they 
        would not resume their academic program with DeVry in the 
        future.
                      targeting military students
    In my experience as an employee of a for-profit school, there was a 
strong emphasis on recruiting military students because TA would cover 
the cost of the program. In fact, the managers to whom I reported 
referred to TA as the ``military gravy train''. In contrast, one of the 
most challenging aspects to enrolling a civilian student applicant in 
an online program is convincing them the cost is worth the degree. 
Servicemembers are less difficult to enroll because the recruiters 
(known as admissions advisers) do not need to overcome what the 
industry calls ``financial objections'', or concerns about the cost. 
Recruiters are trained to focus on the benefit and enroll military 
students as quickly as possible. Military students are easily 
identified before the initial phone contact by lead databases such as 
Oracle, which conduct brief questionnaires as to whether a student is 
currently serving. The admissions process for a military student using 
TA can be completed in as quick as 1 week. Students must apply, 
complete a basic admissions exam online, and get their TA signed and 
approved. The recruiting sessions during my tenure in the industry were 
8-weeks long. This promoted a very fast-paced recruiting cycle where 
management expected aggressive deadlines for enrollment. The recruiters 
with operational military backgrounds like me were routinely able to 
build trust and rapport with TA users. This resulted in strong sales 
profits for the school and high military enrollment numbers. Recruiters 
who were contacting civilian leads were starting on average 8 students 
per 8-week recruiting cycle, whereas some former military recruiters 
were starting on average 15. ``Starts'' is the for-profit term for when 
a student begins class. The average cost of an accelerated 3-year 
bachelor's degree program online was $60,000. The benefit of being 
enrolled in an online program provided convenience for many students. 
This was a rewarding way for me to advise fellow servicemembers of 
their benefits. I was satisfied in the work I was doing until the 
internal management strategy began to part ways with supporting the 
military students I was working with.
                      internal management strategy
    In 2009, the leaders at DeVry began to significantly increase the 
expectations for recruiters who were former military members and 
increased the number of military leads we were assigned. They formed a 
special team that I was assigned to that was to specifically recruit 
military students while non-military recruiters were left to 
traditional non-military leads. The management strategy meetings that 
followed in the coming weeks were aimed at pressuring my team to 
increase our TA user start rate, while ignoring our concerns for 
servicemembers. To illustrate, some military students were serving in 
hazardous locations such as Kuwait, Afghanistan, Iraq, and Germany and 
due to troop movements or relocations found it difficult to complete 
homework after the duty day ended. My colleagues and I, assigned to 
this military sales team, would routinely support the students need to 
``sit out'' a session and return to class at a future date. I thought 
it would be untenable to suggest a military student try to fit class 
into their schedule while their unit transferred locations in places 
such as Iraq. From a soldier's perspective, serving in a war zone like 
Iraq can require a significant amount of emotional energy and studying 
can become difficult. Management scolded me insisting ``DOD does not 
pay your paycheck anymore, we do and we must remain competitive''. I 
certainly understood the need to be competitive and know some military 
students that benefited and succeeded in online programs, but I 
couldn't accept the stern rebuke I received for encouraging some 
students to temporarily suspend class to serve our country in hazardous 
areas. The management relied heavily on the military recruiters, they 
often praised our sales numbers while promoting their internal mantra 
of (pardon my French) ``get asses in classes''. I left the company when 
I felt I was being pressured to produce a metric over a quality 
relationship with the military students I was charged to enroll. I had 
been in their boots at one time and I would expect the same 
reinforcement from them if I was balancing, for example, active duty 
requirements overseas with my academic studies.
                   military culture training lacking
    The seeming lack of concern at DeVry with the servicemembers had 
actually been evident early on. Recruiters were given a 2-week training 
session on the degree programs the school offered and charged us with 
promoting. However, training on military culture was cursory. Training 
was not conducted to give recruiters a robust picture of the stressors 
a servicemember may deal with while trying to attend school. There was 
no description provided of the military rank structure, no illustration 
of daily military life, or awareness of mental health stressors they 
may experience due to separation from family or PTSD, as is the case of 
for some OIF/OEF veterans serving in combat. Ironically, training on 
the TA benefit was extensive. The recruiters were trained to identify 
the proper forms that needed to be filled out and on occasion would 
even call Commanders of units to expedite their signature so TA users 
could be cleared for class quickly. Had the emphasis on understanding 
military culture matched the aggressiveness of the recruitment strategy 
to get TA approved as quickly as possible, I may have stayed in the 
industry. However, I was not comfortable putting a sales report ahead 
of making sure each military student was enrolled in the proper program 
and at the right time.
    In my experience as a veteran and college graduate, many non-
military recruiters had a hard time relating with their military 
students, many of whom had to balance the stressors of military life 
with their adjustment to meet the demands of higher education. 
Additionally, some recruiters that contacted military leads would say 
they were calling from the department of ``military admissions'', in a 
ploy to develop a rapport with the student. This was simply a fictional 
tactic to make the military servicemember think the recruiter was in 
the military. Though my team was comprised of former military 
recruiters, we were all part of the same team and a military admissions 
department did not exist at the company. The special military sales 
team I worked on reported this concern to senior management to be 
assured it ``deeply concerned'' them and they would address it. I doubt 
these matters were addressed as the same leaders that offered 
assurances were the same ones reminding us DOD no longer paid our 
salary.
  emphasis of tuition assistance benefit over tuition assistance user
    In my experience, the for-profit school numbers and performance 
were the drivers. Each week recruiters had to report their progress on 
a sales report. These reports do not contain the names of students, 
their backgrounds, their selected program, or personal details, only a 
number. These numbers are listed on graphs with such business 
performance metrics as: Applied, Tested, Cleared, Registered, Start 
Date. This was the nature of the industry and these reports drive the 
forecasting projections for the profit margin. Because students using 
TA are more quickly cleared for class, it makes these reports look 
strong and managers become even more ambitious to hit their 
``targets''. The earnings of mid-level managers, known as Assistant 
Directors of Admissions, were based on their team's performance. When I 
began seeing the TA benefit and sales reports trumping the concerns I 
had voiced to management, I left the industry. For example, some 
military students failed the basic admissions test, a key step in the 
admissions process designed to show the readiness of the applicant for 
post-secondary study. The management response was to send them online 
study links, have them seek a ``study buddy'' and take the test again 
as quickly as possible. Additionally, even after I explained that some 
of my military TA approved students were not going to start their 
classes for the current academic session because of active duty 
military requirements, they asked if I could ``do something to keep 
them in''. I was not comfortable convincing a servicemember to put 
education ahead of operational requirements after they already cited 
their inability to handle class workloads while serving in theatre. The 
TA benefit was the focus of the recruiting strategy, while 
understanding unique military student needs were often ignored.
    In conclusion, I believe online education is a good option for some 
military students using the TA benefit. I understand there are 
nonprofit online options, like the gentleman here today from University 
of Maryland's online campus. However, I do have concerns about how for-
profit colleges are targeting military students. I hope my experiences 
I have shared this morning are helpful for the committee's work on this 
subject and I appreciate the opportunity to appear before you. I am 
happy to answer any questions you may have.

    Senator Durbin. Thanks a lot.
    So Mr. Gunderson, why do the for-profit schools, is there 
an incentive for them? Why would they want to have more 
military students?
    Mr. Gunderson. I don't think our schools want to have more 
military students. I think----
    Senator Durbin. Is there any financial incentive for for-
profit schools to have military students under TA or GI bill?
    Mr. Gunderson. No.
    Senator Durbin. Oh, Mr. Gunderson, that's not true.
    Mr. Gunderson. Just a second. No.
    Senator Durbin. That's not true. Explain the 90-10 rule.
    Mr. Gunderson. The 90-10 rule.
    Senator Durbin. Yes, please, explain that.
    Mr. Gunderson. I'd be happy to do that. The 90-10 rule says 
that 90 percent----
    Senator Durbin. No more than.
    Mr. Gunderson. No more than 90 percent of your revenues can 
come from the Federal Government.
    Senator Durbin. Are there exceptions to the 90-10 rule?
    Mr. Gunderson. Yes, there are exceptions to the----
    Senator Durbin. Like the TA Program? Is that an exception?
    Mr. Gunderson. Well, you could look at the GI bill and you 
can look at the TA, but most people, I think even members of 
Congress believe that those are not Government funds. Those are 
benefits earned by Active Duty or retired military.
    Senator Durbin. Excuse me.
    Mr. Gunderson. It is their money, not the Government's 
money that would----
    Senator Durbin. Excuse me. I am on the Defense 
Appropriations Subcommittee and I could swear that the TA 
program is in our appropriation bill with Government funds. You 
are saying these are not Government funds?
    Mr. Gunderson. I am saying they are looked upon as a 
benefit for the Active Duty military, not a direct line item 
from the program.
    Senator Durbin. Of course they are, and the Pell grant is 
the benefit for poor students seeking college admission, but 
the point is the 90-10 rule does not apply to TA money or GI 
bill money.
    So if your for-profit school can bring in more military 
students like Mr. Neiweem was trying to recruit, then it 
doesn't count against the 90-10 rule, which means that you 
don't have to come up with 10 cents out of every dollar that 
you receive from the Federal Government if the money is coming 
in from TA or GI bill. That is the financial incentive.
    Do you deny that?
    Mr. Gunderson. No, I don't disagree at all----
    Senator Durbin. Okay.
    Mr. Gunderson [continuing]. That that is the reality of the 
math, but I do think you need to answer the rest of the 
question.
    The reality is, as I said earlier, we serve a very 
different student body. Approximately 94 to 96 percent of our 
students are eligible for title IV. Approximately 70 percent of 
the students attending private nonprofits are eligible for 
title IV. Approximately 49 percent of the student attending our 
2-year and 4-year public schools----
    Senator Durbin. Could you explain title IV?
    Mr. Gunderson [continuing]. Are eligible for title IV.
    Senator Durbin. For the record, explain title IV.
    Mr. Gunderson. Title IV is the Federal Department of 
Education loan and grant programs.
    Senator Durbin. And who would be eligible for those 
programs, low income students?
    Mr. Gunderson. Primarily low-income students. That is who 
we serve. It is a very different consistency.
    Senator Durbin. Mr. Selbe, at University of Maryland, I am 
sure they have been at it now for how many years, since World 
War II? Is that when the University started offering courses to 
the military?
    Mr. Selbe. Yes, Mr. Chairman.
    Senator Durbin. And do you serve low income students there 
as well?
    Mr. Selbe. We do, Mr. Chairman.
    Senator Durbin. Do you have the benefit of a 90-10 rule 
that 90 percent of the revenue at the University of Maryland 
comes from the Federal Government?
    Mr. Selbe. No, we do not.
    Senator Durbin. Do you have any idea what percentage of the 
revenue at the University of Maryland comes through the Federal 
Government?
    Mr. Selbe. It is less than 50 percent, to include military 
TA and veteran's benefits, yes.
    Senator Durbin. And so, Mr. Gunderson, you are not in a 
unique position. Other schools are facing exactly the same 
thing.
    Mr. Gunderson. No, they are not, Mr. Chairman, and I love 
all my other schools. When I took this job, I said to my board 
in the interview, I said, ``If you want me to beat up on the 
rest of higher ed, you are hiring the wrong guy.''
    Senator Durbin. I am not asking you to----
    Mr. Gunderson. I believe in the critical need of 
postsecondary education opportunity for everybody in today's 
world.
    But what you have to look at, Senator, is the fact of the 
total public support for the different types of postsecondary 
education today. A 4-year public college, Federal, State, local 
support is $15,500 per student.
    Senator Durbin. Well----
    Mr. Gunderson. At a nonprofit 4-year----
    Senator Durbin. Mr. Gunderson, I understand that. What you 
are saying is that----
    Mr. Gunderson [continuing]. For us it is only $2,000.
    Senator Durbin. Public colleges----
    Mr. Gunderson. Look at the numbers.
    Senator Durbin [continuing]. Get some public support, 
though in most States it is diminishing at this point. Students 
are paying more in tuition and the State is giving less support 
in each of these. But that is beside the point.
    Really what goes to the point is, what is the value of the 
education coming out of school? After I hear Mr. Neiweem, let 
me ask you, Mr. Neiweem.
    What you are telling me is having been through this 
personally with this tuition assistance, you were in a position 
where you were talking to soldiers and airmen and sailors 
trying to get them into these for-profit schools. And what you 
are being told is, I think by your employer, in this case 
DeVry, is really to look beyond some of the necessities of life 
that these military individuals were facing: deployments and 
interruption.
    What was the motive for ``keeping their fannies in 
classes?''
    Mr. Neiweem. Well, it is a profit-driven industry. There 
are boards that record the status of all the sales floor, but 
there is no student stories. There's no program. There's no 
information on the student.
    So to answer you question, I would say the challenge was 
management instructed us to, in this industry, don't create 
objections. Objections are reservations that people have and a 
sales professional, you know, it is their job to overcome those 
objections, but management would say, ``Don't create 
objections.'' So if they had an objection, we were supposed to 
work through it.
    Those of us with military backgrounds refused to work 
through some objections with some students and then we were 
scolded for it.
    Senator Durbin. Mr. Selbe, after more than 20 years in the 
Marine Corps, is that correct?
    Mr. Selbe. Yes.
    Senator Durbin. And you listened to his testimony about 
some of the problems these students are facing. How does the 
University of Maryland deal with those issues?
    Mr. Selbe. Well, I am held responsible for our enrollment 
numbers, but I am held accountable for the students' success of 
those military students. So we are incentivized by a rich 
tradition of serving military students, and we are held 
accountable to how well we serve them. So it is not the numbers 
that is important, it is how well we do in assuring that we are 
putting them in the right program, providing them with support 
throughout, or helping them transfer to another institution 
that may be a better fit for them. I don't know if that answers 
your question.
    Senator Durbin. Let me ask you this. In the last 10 years 
or so, there has been a dramatic shift in this Tuition 
Assistance program with some 40 percent of the money going to a 
handful of for-profit schools. Have you noticed that change?
    Mr. Selbe. We have seen a moderate decline in our own 
enrollments, and I can only look at the data of the top 15 to 
20, and we know that many of those enrollments appear to have 
shifted over to some of the for-profit schools.
    Senator Durbin. Do they have any advantage when it comes to 
recruiting and marketing?
    Mr. Selbe. I really cannot speak to that. I mean, my 
perspective is really limited to my work at UMUC and Old 
Dominion University where I worked.
    Senator Durbin. For the record, the marketing efforts at 
the University of Maryland comprise about 7 percent of the 
budget of the University.
    Mr. Selbe. That is correct.
    Senator Durbin. And it is about 22 percent for the for-
profit schools, which received 90 percent of their funds from 
the Federal Government. So the Federal taxpayers are basically 
subsidizing the marketing effort, which is a pretty healthy 
thing for the for-profit sector, as we send 90 cents out of 
every $1 and more when it comes to the veterans in that regard.
    Mr. Hartle, at one point wasn't the American Council of 
Education responsible for auditing these courses being offered 
through TA?
    Mr. Hartle. Yes, Mr. Chairman. This is the so-called 
Military Installation Voluntary Education Review (MIVER) 
contract that came up in the testimony of Mr. Vollrath. ACE had 
the MIVER contract with DOD for a number of years and, indeed, 
when he was a colleague of mine at ACE, Jim Selbe, actually ran 
the MIVER contract.
    Senator Durbin. And so that contract was to audit the 
schools that were offering courses through the TA program.
    Mr. Hartle. Yes, sir. It was to review the schools 
identified by the Department of Defense that they wanted 
reviewed.
    Senator Durbin. Were you aware of what they found in their 
audits?
    Mr. Hartle. I was not personally involved with the MIVER 
contract. As I indicated, Jim Selbe really ran the program and 
would know.
    We had the contract for many years. It was re-competed in 
2010. We did not win when it was re-competed. It went to 
another organization.
    Senator Durbin. Mr. Selbe, are you the Jim Selbe he is 
referring to?
    Mr. Selbe. Yes, I am, Senator.
    Senator Durbin. Well, that works out. So could you--could 
you tell me what your experience was when you were involved in 
this audit?
    Mr. Selbe. At that particular time, we were looking at 8 to 
16 schools a year. It was limited to those schools that had an 
MOU to operate on a military installation.
    Another key difference was at the time, we also looked at 
the deficiencies in the effectiveness of the base education 
centers themselves. What would occur is we would then come 
forth with findings that were categorized as recommendations or 
commendations. Recommendations usually pointed to areas of 
needed improvements.
    The one point that we would make consistently is that it 
didn't have a lot of teeth because there was no obligation on 
behalf of the colleges and the universalities or the ed centers 
to address those particular recommendations that would come out 
of the findings.
    Senator Durbin. One last question. I have run too long. I 
will give it to Senator Cochran.
    If you take courses through the University of Maryland's 
University College in the TA program and don't complete your 
degree, what is the likelihood that those course credits can be 
transferred to another institution when you come back home?
    Mr. Selbe. I believe it was mentioned earlier today, 
because of the transfer resources that are provided by the 
Servicemembers Opportunity Colleges, it assures a high degree 
of confidence that those credits will transfer from one 
institution to another.
    Senator Durbin. Okay.
    Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you.
    I was thinking back on my personal experience of getting 
ready to decide where to go to college, and how we were going 
to pay for it. My parents were school teachers and it was just 
a given that we were going to--my brother and I as we were 
growing up--we were going to college somewhere.
    And we discovered the Navy ROTC program was an attractive 
option. You could get a scholarship if you scored well enough 
on entrance exams and you could serve in the Navy ROTC at 
member universities. So anyway, that is how I ended up being a 
naval officer by going through the Navy ROTC program.
    My interest now is how do we continue to make the beginning 
educational experience and military experience attractive 
enough without required military service, mandatory military 
service? And use the resources of qualified young men and women 
coming into all of the services as a way to ensure that we have 
an All-Volunteer Force--one that has people who are serious 
minded about education as well as defending the security of our 
country.
    What do we do now to take the place of these programs that 
we used to have available to us to aid in recruiting and 
encouraging people to become members of Active Duty services 
and at the same time, get a college education, with part, at 
least, of the resources being paid for by the Federal 
Government?
    Mr. Gunderson. I cannot speak for myself, but I can share 
with you a quote of someone that you may know. Last week, 
actually, I was having a conversation with Louis Caldera, who 
was the Secretary of the Army for President Clinton. He was 
also the president, I believe, of New Mexico State and he has 
just recently been appointed to the board of Career College, 
which is in Senator Durbin's home State.
    And I was talking to him about the fact that I was going to 
come and testify today. And he said, ``Steve.'' He said, ``The 
thing you need to understand is that tuition assistance is the 
best vehicle we have to retain good, Active Duty military in 
the military. Without that program, we will lose them and lose 
them quickly because they will move on to try to benefit from 
the Post-9/11 GI bill.'' He said, ``Whatever you can do to 
maintain that program is in the best interests of our Active 
military.''
    Senator Cochran. Yes. Are there others with views on that 
issue? Mr. Neiweem.
    Mr. Neiweem. Senator, I think that just one point I was 
going to make was I don't think I heard any disagreement about 
Tuition Assistance being a benefit and being a good thing. I 
think we were concerned about the use of Tuition Assistance, 
and the outcome of the students and some of their concerns. And 
I would just voice one recommendation.
    I think that for-profit schools should encourage their 
recruiters to keep in touch with their students going forward 
because once they are enrolled in class, there is no further 
contact with them. If you wanted to call them, I am sure you 
could, but unless you are generating referrals, your 
responsibility for them ends the day they start classes.
    So I think it is more important to have a--encourage a 
relationship that goes beyond the first day of class, maybe the 
second day of class too, or their future as they are enrolled.
    Senator Cochran. Mr. Selbe.
    Mr. Selbe. What I found from this current generation of 
students is while they have told their mothers and their 
fathers that they joined because they want to go to college, 
deep down, they joined because they wanted to serve this 
country. And it is not until after they become engaged, acquire 
their skills that they start thinking about what happens after 
their service.
    So the military tuition assistance is still a critical 
element to attracting high level enlistees into the services, 
but we can never dismiss the patriotism that drives many of 
these men and women to sign up to wear the uniform.
    Senator Cochran. Yes, that is good to hear.
    Mr. Hartle.
    Mr. Hartle. I agree with what Jim Selbe just said. I think 
a fair number of servicemembers join because there are 
educational and training benefits available. Many of these 
young people have not done--who have joined the service out of 
high school--did not necessarily do well in high school. The 
educational benefits, the job training they get in the 
military, the military occupational specialties, often show 
them just how capable they are and how much they can do. And 
the availability of tuition assistance and GI bill benefits 
enables them to see that they can continue their education 
going forward.
    I think the challenge that we face, particularly with the 
tuition assistance benefits, is for many years it was fairly 
easy to have the program in place. It seemed to be working 
pretty well, and the money just simply went out the door.
    In the process, I think, all of us have come to realize 
over the last few years, that there was not the attention for 
the outcomes and the impact on the individual servicemember 
that, perhaps, we should have. And I think DOD is moving pretty 
quickly to try and get their arms around this. I think there 
are some other things that they should be looking at and 
thinking about doing.
    But there is no question but that tuition assistance and GI 
bill benefits are an enormous benefit for individuals who go 
into the military and an enormous incentive to enlist in the 
first place.
    Senator Cochran. Well, thank you very much for your 
testimony before the committee today. We appreciate it.
    Senator Durbin. Senator Reed.
    Senator Reed. Well, thank you, Mr. Chairman.
    Mr. Neiweem, were you in the practice of making cold calls, 
just calling people up and saying, ``Have I got a deal for 
you?''
    Mr. Neiweem. Senator, absolutely.
    Senator Reed. Was there any guidance given to you about who 
to call in terms of, ``Well, this is somebody that already has 
a year?'' Was there any guidance? Or was it just, ``Here's a 
list of names. Call them and tell them to enroll.''
    Mr. Neiweem. Sure. So Senator, technically, every call was 
a cold call because we had no contact with them previously and 
it was in a lead database through Oracle. But we knew which 
leads as called potential applicants were military by the 
coding.
    Senator Reed. Right.
    Mr. Neiweem. So we were given training specific to their 
military so, here's----
    Senator Reed. And so essentially you were giving--and I 
don't want to be disrespectful--but you were giving a pitch to 
people who may or may not have been interested in going to any 
school or your school in particular.
    Is that fair?
    Mr. Neiweem. That is absolutely true, Senator. One caveat--
--
    Senator Reed. All right.
    Mr. Neiweem [continuing]. For the tuition assistance, for 
the military students----
    Senator Reed. I am only interested in the military students 
at this point.
    Mr. Neiweem. The military students. The pitch wasn't as 
difficult because they tended to be young, at the beginning of 
their career, so you could kind of bond and, you know, ``This 
benefit would pay for general education,'' which I thought was 
a good option for them. So that was useful, but there wasn't as 
much of the pitch because they had the benefit. The pitch was 
more for civilian students who I also recruited who--there were 
financial concerns.
    Senator Reed. Right, but there you had Pell grants, 
Stafford Loans, and other tools in your toolkit, which you made 
clear to them.
    Mr. Neiweem. Correct.
    Senator Reed. In your conversations with military students, 
did you stress the fact that there were public programs 
available before any private loans that would be available to 
them?
    Mr. Neiweem. Can you ask that one more time?
    Senator Reed. Yes. We just had the assistant secretary 
here. Their new approach--and this might postdate your 
experience--is that they instruct the soldiers, sailors, airmen 
that there is public financing before they have to take a 
private loan, which typically could be more expensive. And they 
have told us in the testimony that, in their MOU, that is what 
the institution has to tell them, stress them. Were you doing 
that?
    Mr. Neiweem. No, not in my experience because tuition 
assistance would pay for the program, it wasn't a necessity.
    Senator Reed. So essentially, again, and I don't want to be 
too glib, but you were able to call them and say, ``I've got a 
deal for you. It's not going to cost you anything. Signup right 
now, we'll make it real easy for you.'' And did you have any 
obligation to determine the suitability of this program for 
them or the program they chose?
    Mr. Neiweem. First of all, that's correct. That's exactly 
what it was. I never--I didn't talk on the phone like that, you 
know, but the focus was on getting them enrolled.
    As I told the Chairman, if they had objections, we were to 
get them through those objections. So in theory, you are 
supposed to evaluate their suitability, and as my statement 
indicates, I did do that. I said, ``You're moving locations in 
Iraq and your unit is moving around, and you're not going to 
have access to your laptop consistently. Why don't you sit this 
session out?'' And then I was scolded for that, so.
    Senator Reed. Okay. Thank you for your service, by the way, 
as well as for your testimony today.
    One of the issues--and I am going to ask all the panelists 
to comment from different perspectives--is the obligation of 
the institution or somebody, the service, to make sure that 
these programs are suitable to the individual, which would seem 
also to keep records of who finishes. Who is successfully moved 
from this educational experience into productive employment?
    So Mr. Hartle, what are your organizations doing to assure 
that these programs are suitable and lead to productive use of 
our resources and the time of these men and women?
    Mr. Hartle. I think what we would do is rely on the 
experience that we have working with individual bases and 
individual students to measure their experience and their 
success.
    Some schools, as I indicated like UMUC, have a very large 
number of Active Duty military servicemembers using their 
tuition assistance benefits. Other schools, even very large 
schools, have a relatively small number of individuals doing 
that.
    I think one area where we have not done as much as we 
could, and where the Department of Defense is looking to make 
some changes is keeping track of the outcomes from the 
educational programs. As I have indicated, this can be a little 
challenging because military servicemembers, particularly 
Active Duty, move around so much that they often suddenly have 
to withdraw for military reasons right in the middle of a 
course.
    So it is not that there is any opposition to doing this. We 
should be looking at outcome measures. It is very important. We 
need to do a better job. It is just that it is hard to figure 
out exactly what the best measures will be. But I have 
indicated and will recommit ourselves to working with DOD to 
moving in this direction.
    I think one thing DOD could do, and Senator Durbin 
mentioned it a little bit in his questions with Mr. Vollrath, 
is the DOD could reach out more to accrediting agencies. 
Accrediting agencies are private, nongovernmental organizations 
that are in danger of becoming a regulatory extension of the 
Department of Education, but the fact is that they are there 
and they are looking at institutions in great depth.
    And I think where the Department of Education is doing 
things that can help DOD identify schools that may be 
problematic. DOD ought to work with the Department of Education 
in that direction. Obviously, cross-department collaboration is 
often talked about and sometimes difficult to achieve, but I 
think that there is an enormous resource available to DOD and 
VA, for that matter, in terms of what the Department of 
Education has spent the last 40 years pioneering.
    Senator Reed. Mr. Gunderson. Steve.
    Mr. Gunderson. Thank you, Senator. First of all, in 
response to your earlier question, I don't know if you have 
seen the set of best practice recommendations that we have 
developed for veterans in military education.
    And I want you to know that in here, on the recruitment 
side, is a three calls and you're out policy. That if you make 
three cold calls and there is no response, you have to stop. It 
is the kind of lifting of this sector and commitment that we 
are trying to respond to in that regard. The second----
    Senator Reed. Can I just, again----
    Mr. Gunderson. Go ahead.
    Senator Reed [continuing]. Because we had the opportunity 
to serve together and I----
    Mr. Gunderson. Yeah.
    Senator Reed [continuing]. Respect your service immensely. 
I just have a problem of being honest with cold calls anyway. 
You know, you've got to advertize. You've got to make students, 
the military students aware of these options. However, in 
reality, I think that we all understand who serves.
    If you've got 18 or 20 year olds who get a call, or get an 
email, or get a message, and they are just back from 
deployment, the whole life is unsettled, et cetera. And someone 
says, ``Hey, just signup.'' ``You know, that's good. That will 
help me get promoted,'' et cetera. It is a different audience 
than someone picking up the phone and calling you and saying, 
``Hey, I heard about your organization.''
    So I am pleased that you are limiting it to three cold 
calls, but I will just be honest----
    Mr. Gunderson. Yeah.
    Senator Reed [continuing]. This looks like a, you know, I 
forget the David Mamet play that the guy in the boiler room 
saying, you know----
    Mr. Gunderson. One thing to understand, Senator, is that 
the majority of our students are not high school graduates 
going directly into college. The majority of our students are 
adults. You don't reach them through the high school guidance 
counselor. You don't reach them----
    Senator Reed. Right.
    Mr. Gunderson [continuing]. Through a college affair in the 
high school gymnasium. You've got to reach them a different 
way, and so, it is a very different business model. And I think 
it is important to understand those differences as we try to 
figure out what are the appropriate standards and 
recommendations?
    One of the second things we have done, which fits into the 
question you were asking. Our sector used to pride itself on 
open access because the Congress, the media, and others have 
said, ``What about outcomes?'' We stopped that.
    You could talk to almost any of our schools today, they are 
focused on retention. You are seeing significant declines in 
our enrollment. Some of that is because of the economy, and 
some of it is because our schools are now making sure that 
students who enroll will complete their courses. Retention, 
graduation, completion, and placement, and payment of those 
loans today is far more important than the question of open 
access. That is a question that is going to have to now be 
dealt with someplace else at some point in time.
    One of the other things that we are trying to do gets to 
this issue of area of study. Many of our schools now are 
posting what are within their State or region, either State or 
Bureau of Labor statistics on placement rates and even incomes 
for the occupational areas of study that they are looking at. 
We think that is important.
    I mean, we are a sector that believes everybody in higher 
education ought to be held to outcomes. And frankly, one of 
those outcomes ought to be placement in your areas of study. 
National creditors require over 60 percent of your students are 
placed in their area of study. Our regional accreditors don't 
do that.
    Now, I don't want to suggest you guys want to engage in 
that because it would be a difficult political conversation, 
but the reality is, we are trying to deal with that issue of 
placement in the area of study. We hear you.
    Senator Reed. I want to give everybody a chance to respond. 
Mr. Selbe a chance to respond, and then I will recognize you, 
and then I will yield back because my colleague who has been 
very gracious.
    Mr. Selbe, quickly, your comments about the notion of 
basically matching the student with the program, for want of a 
better term, sort of underwriting the student before you sort 
of bring them into the program.
    Mr. Selbe. I do want to go to the conversation around 
inputs and outputs, and we want to commend the Department of 
Defense because they have taken a very positive step forward.
    They asked the Servicemembers Opportunity Colleges to 
convene a group to look at how we can better measure and track 
students' success for military veterans, as Mr. Gunderson 
mentioned earlier. We cannot rely on current Integrated 
Postsecondary Education Data System (IPEDS) data to do that. 
And we have included in our written testimony the white paper 
that came out of the report from that working group, and we now 
track our military students based on those recommendations.
    But going back to something Mr. Hartle talked about 
earlier. I strongly encourage the Department of Defense, 
members of this committee to not use quantitative data to be 
the sole measure of determining the success of these programs.
    As Mr. Hartle mentioned, many of the servicemembers, 
especially enlisted, had no thoughts at all of going to college 
when they joined the service. But if they take the time to talk 
to an education counselor, stir up the courage to enroll in a 
course, register a course, and complete a course regardless of 
whether or not they ever take another course, they are now 
confident that they have what it takes to go to college, and 
college is, indeed, possible. And that is going to have an 
impact on following generations as well as the larger 
community.
    So as this committee and as the Department of Defense look 
at metrics to assess the value of this particular program, we 
strongly encourage you to look at both the quantitative and 
qualitative measures.
    Senator Reed. I think you make a lot of sense. Thank you.
    And you had one point to make, sir.
    Mr. Hartle. I just wanted to follow up on your question 
about cold calls and high pressure sales tactics.
    The MOU that institutions now have to sign very explicitly 
prohibits high pressure sales tactics. And one of the ones that 
is explicitly prohibited is multiple unsolicited phone calls. 
So I think the DOD is moving in that direction.
    The question for the committee, really, and DOD is: Okay, 
you have prohibited, what do you do now to monitor compliance? 
And I think this is where the fact that they are looking at 
roughly 1 percent of the schools per year that are 
participating in TA.
    And I think the second point is: What happens when you find 
a violation? Do you say, ``Don't do it again,'' or do you throw 
them out of the program? Those are sort of the two ends.
    The Department of Education has a very clear set of 
policies to limit, suspend, or terminate institutions' ability 
to participate. They have the authority to fine institutions 
and it is not clear to me what the DOD will do when they find 
these violations in the future.
    Senator Reed. I think those are excellent points.
    Just to comment, I think what Mr. Selbe said about sort of 
the ideal path is soldiers, sailors, airmen, marines going to, 
you know, getting the notion and going to the educational 
counselors, getting some advice. Then going to whatever school 
is on the approved list or several schools, making contact, and 
then listening is, to me, sort of the ideal approach.
    Now, I think this hearing has been extraordinarily 
insightful and helpful, and I thank the Chairman for that. And 
I thank your testimony, all you gentlemen have helped us 
understand the issue. Thank you.
    Senator Durbin. Thanks a lot, Senator Reed.
    I would just echo your comment, Mr. Hartle, and say even 
though Mr. Gunderson and I have a disagreement about whether 
this is Government money, we are now up to over $568 million a 
year that we are putting into this program. I think it is 
Government money. It is in our appropriation bill. That is just 
my loose definition of Government money.
    And I would say that, Mr. Selbe, you put your finger on it. 
You really did, as far as I am concerned. Your life experience 
is what I am thinking about. A person who had no intention of 
going to college, but went into our military willing to serve 
and risk his life and along the way thought, ``Here's a chance 
for me to do something after I finish my military.'' And you 
made the right choices. It had to be a tough decision. You 
weren't thinking about that at the outset. You probably weren't 
sure you could do it, pull it off.
    What I worry about is someone just like you who signs up 
for a worthless school, something where the diploma, if it ever 
happens, does not take you anywhere. We haven't done our 
military any favors if that happens.
    And as I listen to the testimony from the Assistant 
Secretary on the audits, 1 percent of these folks are being 
audited; counselors--advisors, 218; non-counseling, information 
providers/education technicians, 239--counselors for 200,000 
students. Mr. Vollrath couldn't think of a school that had been 
unaccredited for bad conduct out of 3,100 schools offering 
these courses; unaccredited schools offering these courses at 
Government expense.
    The recruiting techniques that Mr. Neiweem mentioned, I 
wouldn't want that to happen to anybody let alone a soldier who 
is being deployed, for God's sake. You know, we ought to give 
them a break in life. They are doing what we ask them to do. 
They don't need to make a pressured decision to signup for 
something so some school can make some money off of them.
    This program needs to be improved, and I think it can be. 
We have got to step back and take a hard look, starting with 
accreditation. Every time I get into this subject, all roads 
lead back to the Department of Education accrediting your 
schools, Mr. Gunderson. Some of these schools should not be 
accredited. They accredit themselves, I know that. But it 
really is, there ought to be some policing within your own 
industry.
    At the HELP hearing, Senator Harkin, you talked about the 
question about retention and placement. We found was the 
largest--the single largest for-profit school in America, the 
University of Phoenix: 8,000 recruiters, no one in placement 
when he had his hearing, zero. So it was ``Recruit the 
students,'' but placing them was not the case, at least when he 
had his hearing. That is 2 years ago maybe, so I hope things 
have changed for the better.
    Mr. Gunderson. I wasn't there 2 years ago and Phoenix is 
not a member of Association of Private Sector Colleges and 
Universities (APSCU), but no school that is not accredited can 
be a member of APSCU either.
    Senator Durbin. No, I understand that, and let me tell you, 
that doesn't go anywhere with me because you accredit yourself. 
You have an organization that accredits for-profit schools and 
they accredit one another.
    And even when one of your major schools, Career Education, 
ended up being found having defrauded the Government, they 
ended up giving their CEO in Chicago a multimillion dollar 
parachute to leave after he defrauded the Government, and then 
the accrediting board said, ``Please, never do that again.'' 
That was the extent of the punishment that they suffered. It 
really is not a credible accreditation process for most of your 
schools.
    Mr. Gunderson. But when I took this job----
    Senator Durbin. They take care of one another.
    Mr. Gunderson [continuing]. Senator, I was given advice by 
one person who had been serving both in the public sector and 
the private sector, and one person who serves exclusively in 
the public sector. And they said, ``Steve, understand one 
thing. There are good and bad schools in every element of 
higher education.''
    If you will listen to me carefully, Senator, you will find 
that I lift up this sector. There is an individual school that 
is in trouble, I tell that school, ``That's your problem and 
you've got to defend it.'' You will never heard Steve Gunderson 
defend a school for bad actions. You will always hear me lift 
up this sector in its ability to give opportunity to students 
who otherwise wouldn't have that opportunity.
    Senator Durbin. And what it boils down to is this, Mr. 
Gunderson, if your industry does not establish credible 
standards of excellence and quality, you are covering up for 
the bad guys. That is what it boils down to. So if you really 
believe that, for goodness sakes, set a standard that changes 
this miserable record of 12, 25, and 47. That, to me, is the 
problem.
    I can't tell you how members of your Association call me 
and say, ``We want to meet with you, Senator. We're the good 
ones.'' I have heard that over and over again. I say, ``Prove 
it. Do something and prove it.''
    When I hear about the recruiting techniques that Mr. 
Neiweem, that's got to bother you, doesn't it? I mean, he is 
talking about a Chicago school that I know the folks involved 
in. I mean, it just breaks my heart that they would do that to 
these military families.
    Mr. Gunderson. One of the things I don't ever do is try to 
speak for an individual school, but your constituent and my 
board chair is the President of DeVry University. I invite you 
and encourage you to have a conversation----
    Senator Durbin. I have many times.
    Mr. Gunderson [continuing]. With him because I think as 
Paul Harvey said, ``You'll hear the rest of the story.''

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Durbin. No, I have heard it many times and I am 
still waiting for a change in practices.
    Mr. Gunderson. Well, we will----
    Senator Durbin. Thank you very much for attending today.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
             Questions Submitted to Hon. Frederick Vollrath
            Questions Submitted by Senator Richard J. Durbin
             quality outcomes--advertising versus educating
    Question. I support an effort by Senator Harkin and Senator Hagan 
to focus Federal education assistance on educating, rather than 
marketing. American taxpayers cannot afford and should not be asked to 
subsidize massive marketing and recruiting machines.
    At a time when Federal dollars are tight, and these schools are 
getting up to 90 or in some cases close to 100 percent of their revenue 
from the Federal Government, and outcomes for these schools so poor. 
Why should the Federal Government let for-profits spend so many Federal 
dollars on deceptive advertising?
    Answer. Institutions engaging in fraudulent, abusive and/or 
deceptive advertising will not be allowed to participate in the 
military Tuition Assistance (TA) program. The Department of Defense 
(DOD) requires institutions participating in the TA program to sign the 
DOD Voluntary Education Partnership Memorandum of Understanding (MOU). 
The MOU requires institutions to be in compliance with the Principles 
of Excellence (established in Executive Order 13607). Among these 
principles is a prohibition against fraudulent and aggressive 
marketing. In addition, DOD is adopting policy that all schools 
receiving TA must be Department of Education (ED) Higher Education Act 
Title IV participants. ED regulations specifically provide for sharing 
of information pertaining to an institution's eligibility for or 
participation in the title IV program, including information on fraud, 
abuse and deceptive advertising.
                    quality outcomes--data tracking
    Question. This subcommittee was provided basic data on the number 
of courses, number of degrees; amount spent each year and the like--but 
nothing that would measure quality. Without better data, it could 
appear that we are willing to let servicemembers throw good money after 
bad to almost any institution they choose.
    What data does DOD track to ensure a quality education?
    Answer. On April 27, 2012, President Obama signed Executive Order 
(EO) 13607 Establishing Principles of Excellence for Educational 
Institutions Serving Service Members, Veterans, Spouses, and Other 
Family Members to address reports of misleading or predatory behavior 
toward Veterans, servicemembers, and their families pursuing higher 
education, and to ensure students are better equipped with 
comprehensive information to make school and program choices that best 
meet their educational goals. The EO tasked the Departments of 
Education (ED), Veterans Affairs (VA), and Defense (DOD) to develop 
military and Veteran student outcome measures.
    The outcome measures will focus on data that will elicit more 
information about how servicemembers and Veteran students complete 
their studies and education programs. The outcome measures will serve 
as new tools that will enable prospective students to more easily 
compare educational institutions based on how well they serve Veterans 
and servicemembers.
    An interagency working group is finalizing ``comparable'' metrics 
that will support comparison of outcomes across Federal education 
programs and across institutions. The working group has met with 
Veterans Service Organizations and Institutions of Higher Learning to 
discuss data collection and reporting.
    DOD is currently coordinating draft Outcome Measures with the 
Services and interagency working group. Metrics being reviewed are: 
Student retention rate, persistence rate, transfer rate, course 
completion, graduation rate, degree/certification completion rate, 
number of years to completion, number of institutions attended to 
complete the degree, and the average student loan/debt.
    Question. I understand the Department has started interagency 
conversations with the Department of Veterans Affairs and the 
Department of Education in an effort to ensure higher standards. When 
can this subcommittee expect a conclusion to those conversations?
    Answer. In accordance with Executive Order (EO) 13607 signed by the 
President on April 27, 2012, the Department of Defense (DOD), 
Department of Veterans Affairs (VA), Department of Education (ED) , 
Department of Justice (DOJ) and in consultation with the Consume 
Financial Protection Bureau (CFPB) began immediate implementation of 
the policy directives through these interagency working groups which 
have varying report-out dates depending on the specific action being 
worked:
  --Information Group:
    --Development of streamlined tools to compare educational 
            institutions using key measures of affordability and value 
            for prospective military and veteran students with through 
            the VA's eBenefits portal.--VA lead (Implementation April 
            2014).
    --Development of student outcome measures, such as: retention, 
            completion/graduation rates, average student loan/debt 
            default to be made available on ED's College Navigator Web 
            site.--ED lead (Fall 2013).
    --Improving data collection regarding which schools veterans are 
            selecting to use their education benefits.--ED lead (Fall 
            2013).
  --EO Enforcement Working Group:
    --Strengthening of on institution on base access rules: DOD has 
            established new uniform rules and strengthened existing 
            procedures for access to military installations by 
            educational institutions. (Implementation: 2013-2014 school 
            year.)
    --Developing a Centralized Complaint System: ED, DOD, and VA, in 
            consultation with CFPB and DoJ, will launch an automated 
            centralized complaint system for students receiving Federal 
            military and Veterans' educational benefits. The VA will 
            also institute uniform procedures for receiving and 
            processing complaints across the State Approving Agencies. 
            (Implementation: 2013-2014 school year.)
    --Analysis of 90/10 Rule: The DOD, VA, and Ed will compile a list 
            of schools at risk of overstepping the 90/10 rule due to 
            military and veteran educational benefits and 
            recommendations for consideration to amend the 90/10 rule. 
            (Due following 2013-2014 school year.)
    --School compliance with the EO: DOD will require all schools who 
            participate in the military Tuition Assistance program to 
            comply with the EO requirements by requiring all schools to 
            sign an revised DOD Memorandum of Understanding between DOD 
            and Education Institutions participating in the TA program. 
            (Implementation 2013-2014 school year.)
                     quality outcomes--transparency
    Question. As a result of the President's Executive order from April 
2012--and building on the Department of Education's launch of the 
College Scorecard--the Department is in the process of implementing 
such a scorecard through the VA's eBenefits portal.
    What is the status of this initiative? When will it go online for 
student servicemembers?
    Answer. The Department of Veterans Affairs (VA) is developing a 
Comparison Tool/GI Bill Benefit Estimator that will enable prospective 
students to compare educational institutions using key measures of 
affordability and value through access to school performance 
information, and consumer protection information.
    VA placed a link to the Department of Education's (ED) College 
Navigator on the eBenefits Web site in November 2012. VA subsequently 
embedded ED's College Navigator into the GI bill Web site in March 
2013. As a long-term plan, VA will integrate data from ED's College 
Navigator with data from VA's Web-Enabled Approval Management System 
(WEAMS) to calculate tuition and fees, monthly housing allowance, and 
books and supplies estimates. The tool will include indicators on 
graduation rates, retention rates, loan default rates, average student 
loan debts, Veterans population, Yellow Ribbon Reintegration Program 
and Principles of Excellence participation, as well an estimated cost 
of attendance. The VA anticipates this tool will be available on the GI 
bill Web site and www.eBenefits.va.gov by April 2014.
    The Department of Defense currently has links to eBenefits.va.gov 
as well as to ED's College Navigator on its Voluntary Education Web 
pages.
    Question. What type of information will the servicemember be able 
to access for each institution?
    Answer. Institutions participating in the military Tuition 
Assistance (TA) program must provide the following information to all 
servicemembers prior to enrolling them into their institutions:
  --Disclose transfer credit policies prior to enrollment.
  --Disclose policies regarding award of academic credit for prior 
        learning experiences.
  --Disclose any academic residency requirements.
  --Disclose the institution's programs and costs, including tuition, 
        fees, and other charges.
  --Provide access to an institutional financial aid advisor.
  --Provide information on institutional ``drop/add,'' withdrawal, and 
        readmission policies, especially as they apply to the potential 
        impact on a servicemember's military duties.
  --Conduct academic screening/competency testing; make placement based 
        on student readiness.
  --Designate a point of contact to provide appropriate academic and 
        financial aid counseling and student support services.
    Additionally, all institutions will provide prospective students, 
Veterans and servicemembers, with a personalized and standardized form 
(Department of Education College Scorecard and Financial Aid Shopping 
Sheet) to help the student understand the total cost of the educational 
program, including:
  --Tuition and fees and the amount that will be covered by Federal 
        educational benefits.
  --Type and amount of financial aid for which they may qualify; and 
        their estimated student loan debt upon graduation.
  --Information about student outcomes.
  --Information to facilitate comparison of aid packages offered by 
        different educational institutions.
  --Information about the availability of Federal financial aid and 
        policies to alert students of their potential eligibility for 
        aid before arranging private student loans or alternative 
        financing programs.
               questionable third-party review/oversight
    Question. Assistant Secretary Vollrath, DOD contracts with a third 
party to assess the quality of schools participating in the TA program 
and to help improve the program through recommendations to the 
institutions, DOD and the military services. The American Council on 
Education performed this contract for many years. In October 2011, 
Management and Training Consultants, Inc. (MTCI) was awarded the 
contract. MTCI remains the current third-party reviewer for this 
process--what the Department calls MVERS (``my-vers'') process--
Military Voluntary Education Review Systems.
    What were DOD's criteria for awarding this contract?
    Answer. The solicitation was issued for full and open competition. 
The contract officer advises that the evaluation criteria included four 
factors: Management approach, corporate experience, past performance, 
and socio-economic plan. The company awarded the contract was the 
highest rated overall on the four factors.
    Question. What is MTCI's record of excellence in education 
oversight? The company is virtually unknown within education circles. 
It is not clear that they have education oversight experience.
    Answer. The solicitation was issued publically for full and open 
competition. The evaluation criteria included four factors: management 
approach, corporate experience, past performance, and socio-economic 
plan. MTCI was the highest rated overall on the four factors.
    Question. How did the Department settle on review of 20-30 schools 
per year? This seems inadequate given 3,127 institutions participating 
in Tuition Assistance in more than 4,100 sub-campuses.
    Answer. The number of 20-30 schools per year is based on the amount 
of funding available to support this portion of our Tuition Assistance 
(TA) program. Though a small number, it is only one part of the quality 
control program. The Services nominate institutions for review based on 
the number of servicemembers attending the institution, tuition 
assistance expended, compliance factors listed in the Department of 
Defense Voluntary Education Partnership Memorandum of Understanding 
(DOD MOU), and complaints received. As the inter-departmental automated 
complaint system comes on line, ``complaints received'' will become an 
increasingly important part of the ``risk'' criteria.
    Question. Has the Department considered multiple contracts for this 
third-party review? It would permit oversight specialization in online 
courses versus classroom programs . . . or experts in for-profit 
schools versus public institutions? I am looking for assurance that 
MTCI has the relevant expertise in all these areas to ensure high 
quality.
    Answer. Additional contracts for the third-party review are not 
being considered at this time due to fiscal constraints. The request 
for proposal (RFP) submitted by MTCI demonstrated the company had 
relevant experience based on four evaluation factors: management 
approach, corporate experience, past performance, and socio-economic 
plan, and were highly qualified to perform the required work.
    The MTCI assessment teams, as a requirement of the contract, are 
comprised of individuals who have expertise in the various areas under 
review to include as a minimum: experience in post-secondary education; 
familiarity and knowledge of post-secondary accreditation; knowledge of 
voluntary education programs in the military; adult continuing 
education; non-traditional education to include distance learning; 
instructional delivery; counseling services; experience with online 
programs and institutional status (public/private/nonprofit).
    The third-party assessment is not the only oversight tool that the 
Department of Defense (DOD) relies on to monitor institutions. Other 
tools include:
  --The Servicemembers Opportunity Colleges (SOC) has over 1,900 
        institutional members bound by the principles of good practice. 
        The most important of these principles were incorporated into 
        the DOD Memorandum of Understanding (MOU).
  --DOD refers to the list of schools assembled by the Department of 
        Education as the first source to ensure the institution is in 
        good standing when vetting for the admission into the DOD MOU 
        program.
  --Regional and national accrediting bodies post data on their Web 
        sites regarding institutional status (probation, show cause, 
        etc). The Defense Activity for Non-Traditional Education 
        Support (DANTES) MOU team reviews this data quarterly and posts 
        any noted discrepancies to the DOD MOU database, and notifies 
        DOD personnel as needed.
  --Education offices staffed with education professionals work 
        directly with institutions and servicemembers who also notify 
        DOD via their respective Service Chain of Command regarding 
        concerns with specific institutions.
  --All Services have existing complaint systems. These are in the 
        final stages of being centralized into a DOD Postsecondary 
        Education Complaint System.
    Question. What risk factors has the Department identified as 
grounds for increased scrutiny? How are they folded into third-party 
review?
    Answer. DOD uses the following risk factors to help identify which 
schools are selected for third-party review:
  --Complaints received from servicemembers or educational 
        professionals.
  --Critical indicators of institutions found to be out of compliance 
        with governmental policies and procedures as provided by the 
        Departments of Defense (DOD), Education (ED), Justice (DoJ), 
        and Veterans Affairs (VA), as well as the Consumer Financial 
        Protection Bureau (CFPB).
  --Information posted by regional and national accrediting bodies 
        regarding institutional status (probation, show cause, etc).
  --Amount of Tuition Assistance funding going to a particular 
        institution.
    In August 2013, DOD will roll out its automated Postsecondary 
Education Complaint System and in the fall of 2013 start receiving 
information from the complaint systems of other agencies (ED, DOJ, VA 
and CFPB). This will further enhance DOD's ability to identify 
institutions for potential review.
    Question. How does DOD factor in violations uncovered by the 
Department of Education? How do student complaints factor into the 
system?
    Answer. Complaints and concerns generated by servicemembers, 
Department of Education (ED), Department of Veterans Affairs (VA) and 
Consumer Financial Protection Bureau (CFPB) regarding institutions are 
part of the Department of Defense (DOD) risk-based approach for 
determining the selection of institutions to be reviewed. Complaints or 
alerts received from ED, VA and CFPB regarding potential significant 
areas of noncompliance or identified in ongoing oversight activities 
about a particular institution are provided to the Third-Party Review 
team to use during that institution's review. In addition, the Third-
Party Review team conducts surveys and student sensing groups as part 
of its review. All findings are included in an after-action report to 
DOD. Recommendations for improvements as part of the Third-Party Review 
are tracked by DOD, and schools must report to DOD within 6 months all 
completed corrective actions.
    In fall of 2013, when the DOD Postsecondary Education Complaint 
System is fully operational, all complaints by students will be 
consolidated into the Federal Trade Commission's Consumer Sentinel 
Network for Department of Justice review and access by the Departments 
of Education (ED) and Veterans Affairs (VA), and the Consumer Financial 
Protection Bureau. Similarly, DOD will have access to all complaints 
posted by ED and VA.
              education conference in las vegas, july 2012
    Question. Assistant Secretary Vollrath, the Department of Defense 
put on a ``Worldwide Education Symposium'' at the MGM Grand in Las 
Vegas on July 23-27, 2012. The description on the registration Web site 
reads, ``The theme is 'Educating the Force--Joint Effort Joint Success' 
and will explore strategies to effectively deliver voluntary education 
programs that enhance the servicemember's capacity to serve while 
enabling them to improve their quality of life. This highly anticipated 
event is the most-attended conference focused on military education 
programs, and for some, the only conference they will attend in 2012.''
    How much does DOD spend on this conference? How many DOD employees 
attended, and in what capacities?
    Answer. The Government's direct cost for the conference management 
services, to include logistics, facilities and audio visual, was $0.00. 
The Government awarded a no-cost contract to Events by Design Inc., 
Potomac Falls, Virginia. The no-cost contract vehicle was selected as 
the most effective way to conduct the symposium. (U.S. GAO-B-308968, 
No-Cost Contracts for Event Planning Services, November 27, 2007.)
  --The contractor assumed all liability for costs related to the 
        symposium.
  --The contractor was entitled to all registration, exhibits fees, 
        sponsorship and/or other fees collected as payment for 
        performance.
    There were 517 DOD employees in attendance at the conference 
(consistent with Under Secretary Carter's approved estimate of fewer 
than 590).
  --Registration fees were approximately $248,500.\1\
---------------------------------------------------------------------------
    \1\ Costs are based on 497 attendees charged registration fees 
(those only speaking (7) were waived; some claimed passes included in 
exhibit packages).
---------------------------------------------------------------------------
  --Travel and per diem is estimated $721,500.\2\
---------------------------------------------------------------------------
    \2\ Airfares were averaged; travel figures assumed 75 percent of 
attendees stayed 5 nights and 25 percent only 4 nights.
---------------------------------------------------------------------------
  --DOD employees attended as participants and presenters.
    DOD undertook extensive efforts to balance the important purpose of 
the conference with its cost, including efforts to ensure that only 
those employees with a strong and legitimate need to attend the 
conference were permitted to do so. It is also important to remember 
that this conference only takes place every 3 years, which is another 
way that its benefit is balanced with its cost.
              education conference in las vegas, july 2012
    Question. Does it concern you that the sponsors of the event are 
heavily for-profit colleges? Or that the exhibitors are overwhelmingly 
for-profit colleges?
    Answer. Neither the sponsors of the event nor the exhibitors were 
overwhelmingly for-profit colleges. The contractor, Events by Design 
Inc., Potomac Falls, Virginia, as part of the ``no cost contract'' was 
the point of contact for institutions or other groups desiring to 
sponsor events and provide exhibits held on conference premises during 
Symposium dates.
  --There were a total of 47 sponsors (36 nonprofit and 11 for-profit). 
        These sponsorship sales amounted to 22 percent of the total 
        collected by the contractor.
  --There were 258 exhibitors in the exhibit hall, only 15 percent of 
        which were for-profit institutions:
    --Public institutions of higher learning: 63
    --Private institutions of higher learning (100 total)
      --For-profit: 40
      --Nonprofit: 60
    --Government agencies (8 total)
      --DOD: 6
      --Non-DOD: 2
    --Industry partners: 55
      --Private sector businesses and industries that offer education-
            related products and services such as: Pearson VUE, 
            Peterson's, Kuder Inc., MBS Service Company Inc., and 
            Tutor.com for Military Families
    --Nonprofit organizations: 32
      --Examples of nonprofit organizations: Accrediting agencies, 
            American Council on Education, Council of College and 
            Military Educators, Dallas County Community College 
            District, College Board
    Question. What is the purpose? It looks like it is simply an 
opportunity to dominate the market even more, and get access to DOD 
officials.
    Answer. The purpose of the ``Educating the Force, Joint Effort, and 
Joint Success'' Symposium was to explore strategies to effectively 
deliver voluntary education programs which meet the needs of the 
military student. A goal was to enhance collaboration between DOD 
education professionals and academic institutions in order to increase 
the delivery of quality education programs and stimulate creative 
thoughts concerning the current educational needs and issues of 
servicemembers.
    The Symposium's program was selected to expose Service education 
professionals to issues of concern when providing education 
opportunities to servicemembers. Topics of the concurrent sessions 
included:
  --Delivery of distance learning programs;
  --Transfer of military credits;
  --Accreditation issues; delivery of non-traditional education; 
        current issues in the Department of Education;
  --Credentialing and licensure leading to employment;
  --Transitioning military members to school; military to civilian 
        career transitions;
  --Education partnering; Student Veterans of America; Troops to 
        Teachers;
  --Improving student success; understanding and assessing traumatic 
        brain injury when delivering education;
  --Services' instructional portals; Community College of the Air 
        Force;
  --Veterans Affairs updates; 9/11 GI bill;
  --Military Spouses and My Career Advancement Accounts (MyCAA);
  --Presidential Executive Order 13607; legislative issues in Voluntary 
        Education; DOD MOU.
    A major focus of the Symposium was predatory schools, and several 
speakers engaged in this issue were featured in the program:
  --Deputy Secretary of Education Martha Kanter addressed the general 
        session providing the Department of Education's perspective on 
        current issues in Higher Education, emphasizing strategies for 
        ensuring value in education.
  --Ms. Holly Petraeus and Mr. Rohit Chopra, Consumer Financial 
        Protection Bureau presented ``Dollar Signs in Uniform?''
    --Provided information every servicemember or veteran needs to know 
            before deciding where to go to school or ``signing on the 
            dotted line.''
    --Identified consumer protection issues facing our military 
            community, and the newest tools and resources available to 
            empower them to make wise financial decisions.
  --Representatives from the Dept. of Justice presented ``How to 
        Identify Fraud in Higher Education.''
    --The session explored fraud in higher education and discussed how 
            to identify fraud. The theme of their presentation was ``if 
            schools engage in fraud or misrepresentation in the 
            recruiting or educating of servicemembers, not only are the 
            servicemembers themselves harmed but the G.I. Bill and TA 
            funds designed to help them are also not well-spent. So, 
            military, educational, and law enforcement institutions 
            have a common interest in identifying and protecting 
            against any such deceptive practices.''
  --Ms. Michele S. Jones, Director of External Veterans/Military 
        Affairs & Community Outreach, President`s Veterans Employment 
        Initiative addressed a general session on the importance of 
        seeking education counseling and remaining committed to one's 
        educational goals.
     dod response to sec investigation of corinthian colleges, inc.
    Question. This illustrates my concern perfectly. This was one of 
the many schools who were able to sign the revised MOU from December 
2012 with no problem.
    What actions is DOD taking in light of the SEC investigation?
    Answer. When the Department of Defense (DOD) learned of the SEC 
investigation of Corinthian Colleges, Inc., we immediately informed the 
Services and determined how many military students were attending 
schools owned by Corinthian Colleges, Inc. Currently there are 121 
military students attending Corinthian Colleges, (Wyo-Tech, Everest and 
Heald College).
  --At the time Corinthian Colleges, Inc., signed the DOD MOU, it was 
        fully accredited and there was no indication of any problems 
        with its schools.
  --DOD is working closely with the Department of Education and 
        Veterans Affairs in monitoring the SEC investigation and will 
        take appropriate action as the investigation unfolds.
    Question. As a general matter, what actions does DOD take, and on 
what time line, for an SEC investigation? What about other potential 
infractions or violations from Department of Education, the Department 
of Veterans Affairs, or the Consumer Financial Protection Bureau?
    Answer. The Department of Defense (DOD) does not have a specified 
timeline for a Securities and Exchange Commission (SEC) investigation 
that differs from any other potential infraction. DOD has developed a 
strong partnership with the Departments of Education (ED) and Veterans 
Affairs (VA) and the Consumer Financial Protection Bureau (CFPB) to 
meet and share information. One purpose of the partnership is to 
exchange emerging information among the partners such as:
  --requirements reports from accrediting agencies;
  --school monitoring reviews; and
  --requirements for VA and State authorization of schools.
    Sharing this information allows the agencies to work together in a 
coordinated fashion to take the appropriate action. In addition, DOD 
participates in quarterly, information-sharing meetings with the 
partners to focus on common issues concerning administration of Federal 
education benefit programs as they relate to the agencies involved and 
the benefits provided to servicemembers and Veterans.
    Question. Does it bother you that the Federal Government is paying 
for Tuition Assistance to a school that has 36 percent of its students 
defaulting on their loans within 3 years?
    Answer. The Department of Defense (DOD) is not aware of a current 
standard used by either the Departments of Education or Veteran Affairs 
regarding unacceptable loan default rates. Until one is developed, the 
most we can do is to ensure all servicemembers have the maximum 
information available to them as they select their personal `best fit' 
from among the fully accredited institutions participating in the 
Tuition Assistance (TA) program.
    The Department of Defense Voluntary Education Partnership 
Memorandum of Understanding (DOD MOU) strengthens institutions' 
transparency requirements. Prior to enrolling a student using (TA), an 
institution must do the following:
    1. Provide each student with specific information on locating, 
understanding, and, where appropriate, completing the following 
personalized standard forms:
  --Department of Education Financial Aid Shopping Sheet, which may 
        supplement or replace an institution's existing award letter 
        and may be used for any student. The template is located at 
        http://www.collegecost.ed.gov/shopping_sheet.pdf.
  --The College Scorecard from the College Affordability and 
        Transparency Center within the Department of Education, located 
        at http://www.collegecost.ed.gov/catc. The College Scorecard is 
        a planning tool and resource for prospective students and 
        families to compare college costs.
  --The Financial Aid Comparison Shopper worksheet from the Consumer 
        Financial Protection Bureau, located at 
        http:www.consumerfinance.gov/paying-for-college/compare-
        financial-aid-and-college-cost, is a cost comparison worksheet 
        tool. The Web site allows prospective students to enter the 
        names of three schools and receive detailed financial 
        information on each one. The site also provides the first-year 
        sticker price for each school as well as the average grants and 
        scholarships packages and the total borrowing per year based on 
        these figures. Once the prospective student enters additional 
        financial aid award information or personal contributions, the 
        program calculates the student's projected financial burden, 
        along with an estimate of any possible monthly student loan 
        payments once the student has graduated.
    2. Designate a point of contact or office for academic and 
financial advising, including access to disability counseling, to 
assist servicemembers with completion of studies and with job search 
activities.
  --The designated person or office will serve as a point of contact 
        for servicemembers seeking information about available, 
        appropriate academic counseling, financial aid counseling, and 
        student support services at the institution;
  --Point of contact shall have a basic understanding of the military 
        tuition assistance program, Department of Education Title IV, 
        education benefits offered by the VA, and familiarity with 
        institutional services available to assist servicemembers; and
    3. Provide servicemembers access to an institutional financial aid 
advisor who will provide a clear and complete explanation of available 
financial aid, to include Title IV of the Higher Education Act of 1965, 
as amended, and appropriate loan counseling before offering, 
recommending, or signing up a student for a loan.
    4. Refrain from automatic program renewals, bundling courses or 
enrollments. The student and Military Service must approve all course 
enrollments prior to the start date of the class.
                                 ______
                                 
             Question Submitted by Senator Lamar Alexander
    Question. Finally, all institutions are governed by State and 
Federal laws, in addition to oversight by the U.S. Department of 
Education. And only institutions of higher education accredited by an 
accrediting body recognized by the U.S. Department of Education may be 
approved for TA receipt.
    Please explain, in detail, your thoughts on each of these layers of 
oversight and how they work to ensure quality. Please also describe in 
detail where each or any of these existing layers are deficient in 
ensuring quality and recommendations you may have for improving these 
existing layers instead of simply adding more layers of bureaucracy.
    Answer. The quality of education received by our servicemembers is 
very important to the Department of Defense (DOD). DOD relies on all of 
these layers, the Department of Education (ED), Department of Veterans 
Affairs (VA), and State governments to ensure oversight protections are 
in place at all levels. The requirement that all post-secondary 
institutions participating in the military Tuition Assistance Program 
(TA) must be accredited by an accrediting body recognized by ED 
underpins all of our quality control efforts and serves as the 
essential filter for quality assurance. DOD also requires institutions 
to sign the DOD Voluntary Education Partnership Memorandum of 
Understanding (MOU), which outlines DOD's requirements for 
participation in the TA program. In addition, DOD is implementing new 
policy during the 2013-2014 school year that requires all schools to 
participating in the TA program be:
  --Higher Education Act Title IV participants;
  --VA approved for the use of VA education benefits; and
  --In compliance with State requirements for approval to operate and 
        offer postsecondary education in the State where the services 
        are rendered.

                          SUBCOMMITTEE RECESS

    Senator Durbin. Our next hearing is going to be on another 
interesting topic. It will be the Joint Strike Fighter, F-35, 
the most expensive acquisition project in the Federal 
Government. So stay tuned.
    We will be resuming on Wednesday, June 19 at 10 a.m., for 
that and the subcommittee stands in recess.
    [Whereupon, at 11:46 a.m., Wednesday, June 12, the 
subcommittee was recessed, to reconvene at 10 a.m., Wednesday, 
June 19.]

</pre></body></html>
